<html>
<title> - 55-921 pdf 2010 S. Hrg. 110-1040 WATER RESOURCES NEEDS AND THE PRESIDENT'S BUDGET PROPOSAL FOR THE ARMY CORPS OF ENGINEERS FOR FISCAL YEAR 2008</title>
<body><pre>[Senate Hearing 110-1040]
[From the U.S. Government Publishing Office]


For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001
 
55-921 pdf

2010

                                                       S. Hrg. 110-1040

WATER RESOURCES NEEDS AND THE PRESIDENT'S BUDGET PROPOSAL FOR THE ARMY 
                CORPS OF ENGINEERS FOR FISCAL YEAR 2008

=======================================================================

                                HEARING

                               before the

           SUBCOMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                                 of the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 15, 2007

                               __________

  Printed for the use of the Committee on Environment and Public Works



      Available via the World Wide Web: http://www.access.gpo.gov/
                            congress.senate

                               __________

               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       ONE HUNDRED TENTH CONGRESS
                             FIRST SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
JOSEPH I. LIEBERMAN, Connecticut     JOHN W. WARNER, Virginia
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
HILLARY RODHAM CLINTON, New York     JOHNNY ISAKSON, Georgia
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         CRAIG L. THOMAS, Wyoming
BERNARD SANDERS, Vermont             LARRY E. CRAIG, Idaho
AMY KLOBUCHAR, Minnesota             LAMAR ALEXANDER, Tennessee
SHELDON WHITEHOUSE, Rhode Island     CRAIG THOMAS, Wyoming
                                     CHRISTOPHER S. BOND, Missouri

       Bettina Poirier, Majority Staff Director and Chief Counsel
                Andrew Wheeler, Minority Staff Director
                                 ------                                

           Subcommittee on Transportation and Infrastructure

                     BAUCUS, MAX, Montana, Chairman

THOMAS R. CARPER, Delaware           JOHNNY ISAKSON, Georgia
HILLARY RODHAM CLINTON, New York     JOHN WARNER, Virginia
BENJAMIN L., CARDIN, Maryland        GEORGE VOINOVICH, Ohio
BERNARD SANDERS, Vermont             DAVID VITTER, Louisiana
BARBARA BOXER, California (ex        JAMES M. INHOFE, Oklahoma (ex 
officio)                             officio)
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             MARCH 15, 2007
                           OPENING STATEMENTS

Baucus, Hon. Max, U.S. Senator from the State of Montana.........     1
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     3
Boxer, Hon. Barbara, U.S. Senator from the State of California...    10
Isakson, Hon. Johnny, U.S. Senator from the State of Georgia.....    11
Vitter, Hon. David, U.S. Senator from the State of Louisiana.....    12
Alexander, Hon. Lamar, U.S. Senator from the State of Tennessee..    16
Carper, Hon. Thomas, U.S. Senator from the State of Delaware.....    16
Voinovich, Hon. George, U.S. Senator from the State of Ohio......    18
Cardin, Hon. Benjamin L., U.S. Senator from the State of Maryland    82

                               WITNESSES

Feingold, Hon. Russell, D., U.S. Senator from the State of 
  Wisconsin......................................................     5
    Prepared statement...........................................     8
Woodley, John Paul, Jr., Assistant Secretary of the Army (Civil 
  Works) Accompanied by: Lieutenant General Carl A. Strock, Chief 
  of Engineers, U.S. Army Corps of Engineers.....................    21
    Prepared statement...........................................22, 32
    Responses to additional questions from:
        Senator Alexander........................................    34
        Senator Cardin...........................................    35
        Senator Bond.............................................    37
        Senator Inhofe...........................................    38
Pogue, Pamela, hazards program manager, Rhode Island Emergency 
  Management Agency, on behalf of the Association of State 
  Floodplain Managers, Inc.......................................    58
    Prepared statement...........................................    61
    Response to an additional question from Senator Inhofe.......    67
Marchand, Doug J., executive director, Georgia Ports Authority, 
  on behalf of the American Association of Port Authorities......    68
    Prepared statement...........................................    69
Williams, Jamie, state director, The Nature Conservancy of 
  Montana........................................................    71
    Prepared statement...........................................    73

                          ADDITIONAL MATERIAL

List of Reports:
    National Academy of Sciences and National Academy of Public 
      Administration Studies Calling for Reform and Pointing Out 
      Significant Flaws in Corps of Engineers' Project Studies...    83
    Government Accountability Office and Congressional Research 
      Service Reports Calling for Reform and Identifying 
      Significant Flaws in Corps Project Planning................    85
    Engineering Studies Concluding that the Corps' Failed Project 
      Planning Lead to Floodwall and Levee Failures in the New 
      Orleans Region During Hurricane Katrina....................    87
    Senate Katrina Investigation Calls for Changes to the Corps' 
      Planning Process...........................................    88
    Department of the Army Inspector General Investigation 
      Finding Significant Problems in Corps Project Planning.....    89
    Federal Commission and Task Force Reports Calling for 
      Reforming Corps Project Planning...........................    90
Report, GAO, Corps of Engineers Observations on Planning and 
  Project Management Processes for the Civil Works Program, March 
  15, 2006.......................................................91-105
Letter from Dr. Leonard Shabman to Senator Feingold..............   106
Articles:
    The Times--Picayune, Forward on Corps Reform, March 14, 2007.   107
    American Association of Port Authorities.....................   115
Term Sheet, Governor Sanford and Governor Perdue................109-114
Statement, Warren D. McCrimmon, February 16, 2007, American 
  Association of Port Authorities................................   117
Map, Fish Passage on the Lower Yellowstone River.................   143
Brochure, Penobscot River Restoration............................   144

 
WATER RESOURCES NEEDS AND THE PRESIDENT'S BUDGET PROPOSAL FOR THE ARMY 
                CORPS OF ENGINEERS FOR FISCAL YEAR 2008

                              ----------                              


                        THURSDAY, MARCH 15, 2007

                               U.S. Senate,
         Committee on Environment and Public Works,
         Subcommittee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 o'clock 
a.m. in room 406, Dirksen Senate Office Building, the Hon. Max 
Baucus (chairman of the subcommittee) presiding.
    Present: Senators Baucus, Isakson, Alexander, Boxer, 
Carper, Inhofe, Vitter, Voinovich, Whitehouse.
    Also present: Senator Feingold.

 STATEMENT OF HON. MAX BAUCUS, U.S. SENATOR FROM THE STATE OF 
                            MONTANA

    Senator Baucus. Welcome to the first hearing of the 
Transportation and Infrastructure Subcommittee in particular. I 
especially welcome Senator Isakson, who is the new Ranking 
Republican Member of the subcommittee. Thank you very much for 
participating and being such a valuable member, Johnny.
    In the book of Isaiah, God said: ``I will pour water on the 
thirsty land and streams on the dry ground.'' I know he was 
thinking of the St. Mary water project in Montana when he said 
that.
    [Laughter.]
    Senator Baucus. In our vast country, water continues to 
bring life. Without our waters, our land would be indeed 
thirsty. Without our streams, our land would indeed be dry. My 
home State of Montana has 11,000 miles of blue ribbon trout 
streams. Montana is home to the mighty Missouri River and the 
beautiful Yellowstone River, which I might add is the longest 
remaining free-flowing river in the Country. Montana's Fort 
Peck Reservoir provides outstanding recreation for the eastern 
part of my State.
    This morning, we will examine the management of America's 
water resources. The Army Corps of Engineers builds levees and 
floats barges. But we in Montana see the Corps as restorers of 
the ecosystem. We see the Corps as guardians of America's 
recreational assets.
    We value the Corps' expertise and their partnership in many 
of our water resources projects. In 1986, Congress enacted the 
Water Resources Development Act, otherwise known as WRDA. Every 
2 years since then, Congress received a WRDA bill from the 
Administration seeking authorization for water resources 
projects. This pattern of requests provided the Corps and local 
sponsors with a regular planning schedule for the development 
of needed water resources projects.
    This Administration, however, has yet to request one 
updated WRDA. Why? Have all the water resources needs of the 
Country been met? No. I think that my colleagues, especially 
the Senator from Louisiana, would agree. His folks in Morganza 
have been waiting for a flood-control project for more than 6 
years now.
    No, there are scores of water resources projects waiting 
for authorization. Does the Administration thinks that WRDA 
costs too much? Perhaps it does think that. But investing in 
our water infrastructure is a cost that we cannot put off. 
Levees are crumbling and people are living in harm's way 
waiting for WRDA.
    We need to keep one thing in mind about WRDA, and that is, 
it is an authorization bill. It is just the first step. Once 
Congress enacts WRDA, the appropriations process must begin. 
Appropriations bills need to make tough choices, with limited 
Federal dollars to choose among the programs that WRDA 
authorizes.
    I expect that Mr. Woodley is going to tell us about all 
that today. I bet he wishes he had more money to do his job. 
But he has to set priorities. We here also need to set 
priorities. Our first priority is to authorize the long overdue 
projects in the WRDA bill this year. I hope that we can get the 
Administration's support to do that this year.
    We passed the bill last year. Let's get it enacted this 
year. Let's do our part to ensure that the management of the 
waters to keep our land from thirst, let's do our part for the 
streams that meander across the ground, and let us do our part 
to ensure that our waters continue to bring life.
    I would like to turn to the Ranking Member of the 
committee, Senator Jim Inhofe, for his statement. I know that 
Senator Feingold has a pressing schedule. We all have pressing 
schedules around here, unfortunately, as does Senator Inhofe. 
So Senator Inhofe, why don't you proceed?
    [The prepared statement of Senator Baucus follows:]
  Statement of Hon. Max Baucus, U.S. Senator from the State of Montana
    Welcome to the first hearing of the Transportation and 
Infrastructure Subcommittee. In particular, I welcome Senator Isakson, 
who is the new Ranking Republican Member of the subcommittee this 
Congress.
    In the book of Isaiah, God said: ``I will pour water on the thirsty 
land, and streams on the dry ground.'' And in our vast Country, water 
continues to bring life. Without our waters, our land would indeed be 
thirsty. Without our streams, our land would indeed be dry.
    My home State of Montana has 11,000 miles of blue ribbon trout 
streams. Montana is home to the mighty Missouri River and the beautiful 
Yellowstone River. The Yellowstone is the longest remaining free-
flowing river in the country. And Montana's Fort Peck Reservoir 
provides outstanding recreation for the eastern part of my State.
    This morning, we will examine the management of America's water 
resources. The Army Corps of Engineers builds levees and floats barges. 
But we in Montana see the Corps as restorers of the ecosystem. We see 
the Corps as guardians of America's recreational assets.
    We value the Corps' expertise and their partnership in many of our 
water resources projects.
    In 1986, Congress enacted the Water Resources Development Act, or 
WRDA. Every 2 years since then, Congress received a WRDA bill from the 
administration, seeking authorization for water resources projects. 
This pattern of requests provided the Corps and local sponsors with a 
regular planning schedule for the development of needed water resources 
projects.
    This Administration, however, has yet to request one update of 
WRDA.
    Why? Have all the water resources needs of the country have been 
met?
    No. And I think that my colleagues, especially the Senator from 
Louisiana, would agree. His folks in Morganza have been waiting for a 
flood-control project for more than 6 years now. No, there are scores 
of water resources projects awaiting authorization.
    Does the Administration think that WRDA costs too much? Perhaps it 
does think that. But investing in our water infrastructure is a cost 
that we cannot put off. Levees are crumbling. And people are living in 
harm's way, waiting for WRDA.
    We need to keep one thing about WRDA in mind. It is an 
authorization bill. It is just the first step.
    Once Congress enacts WRDA, the appropriations process must begin. 
Appropriations bills need to make tough choices with limited Federal 
dollars to choose among the programs that WRDA authorizes.
    I expect that Mr. Woodley is going to tell us about that today. I 
bet that he wishes that he had more money to do his job. But he has to 
set priorities.
    We here need to set priorities, too.
    Our first priority is to authorize the long overdue projects in a 
WRDA bill this year. I hope that we can get the Administration's 
support to do that this year.
    We passed a bill last year. Let's get it enacted this year.
    Let us do our part to ensure the management of the waters that keep 
our land from thirst. Let us do our part for the streams that meander 
across our ground. And let us do our part to ensure that our waters 
continue to bring life.

STATEMENT OF HON. JAMES INHOFE, U.S. SENATOR FROM THE STATE OF 
                            OKLAHOMA

    Senator Inhofe. I thank you very much. I will be very 
brief. We have an Armed Services hearing that is taking place 
at this time, so I thank both you, Mr. Chairman, and you, 
Ranking Member Isakson, for allowing me to go first here.
    I want to thank you. The comments you made, I agree with, 
Senator Baucus. There are a lot of partisan things in this 
committee, but one thing that is not partisan is I think we all 
agree we really need to do something about the WRDA bill. We 
need to get it out. We are overdue.
    I want to say to you, General Strock, you have done a great 
job in a most difficult time. This may be your last hearing 
before us, and I just want to get on record saying you have 
done a great job, and I wish you the very best. While the Chief 
of Engineers will always have detractors, I believe General 
Strock has performed his duties very admirably.
    Today's hearing is to look at the President's fiscal year 
2008 budget request for the Corps of Engineers, as well as the 
Nation's water resources. Let me first say that everyone knows 
how long overdue the Water Resources Development Act is. That 
is why I appreciate so much your jumping right into it as the 
first thing of your tenure as Chairman of the subcommittee.
    We made a lot of progress last year, but unfortunately we 
were unable to finalize the last few items during the 
conference. I continue to intend to work closely with all of 
you, and I have talked to Senator Boxer also, and she is in 
full agreement with what we are trying to do.
    As far as the President's budget request in 2008, although 
I was pleased to see an increase over the request for 2007, 
this year's request is still significantly less than was 
enacted for 2007. As a fiscal conservative, I support the 
overall goal of reigning in Government spending, but I firmly 
believe that the two areas that are most important for 
Government to perform in are defense and infrastructure. 
Unfortunately, we don't focus enough time and attention to the 
dollars on the important issues.
    An area that needs attention is recreation. I will bet many 
people are not aware of this, but the Corps of Engineers is 
actually the Nation's largest provider of outdoor recreation, 
larger than both the Park Service and the Forest Service. There 
are a lot of Corps lakes and reservoirs in Oklahoma, and we are 
not getting the funding for either their operations or 
maintenance of the existing facilities.
    I do want to make one comment about the successes we have 
had in addressing the No. 1 most serious Superfund site in 
America, that is at Tar Creek in Oklahoma. I am not proud that 
my State is the home of the most devastating Superfund site, 
but finally after many years, we are doing something. General 
Strock, you have been there. You have worked with DOI, DOJ and 
all the others, the Indian tribes and the rest of them. That is 
on its way, and I just hope that we will be able to continue 
that, and your successor will be just as enthusiastic a 
supporter as you have been.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Senator Inhofe follows:]
       Statement of Hon. James M. Inhofe, U.S. Senator from the 
                           State of Oklahoma
    Thank you Senator Baucus for holding this hearing. I'd first like 
to offer a special welcome to the current Chief of Engineers Lieutenant 
General Carl Strock, as this is likely the last time he will appear 
before our committee. General Strock will be retiring as soon as his 
successor is confirmed, which should be soon.
    In July 2004, when he assumed command of the Corps, General Strock 
faced many challenges with respect to balancing the varied objectives 
of our Nation's water resources policies, as well as overseeing the 
Corps' substantial involvement in reconstruction efforts in Iraq and 
Afghanistan. The challenges only got more numerous and complex in the 
wake of Hurricanes Katrina and Rita.
    While the Chief of Engineers will always have its detractors, I 
believe General Strock has performed his duties admirably and should be 
commended for his strong leadership during particularly difficult 
circumstances. Thank you, General Strock, for your dedication and 
service to the Nation. I wish you well in whatever endeavors you decide 
to pursue next.
    Today's hearing is to look at the President's fiscal year 2008 
budget request for the Corps of Engineers as well as the Nation's water 
resources needs more generally. Let me first say that everyone knows 
how long overdue the Water Resources Development Act is and how 
important the many project authorizations and policy improvements in 
the bill are to the country's economy, public safety and environment.
    We made great progress last year, but, unfortunately, just weren't 
able to finalize the last few items during conference. I intend to 
continue working closely with Senators Boxer, Baucus and Isakson to 
build on the progress made last year in order to enact WRDA as soon as 
possible this year. I also am committed to getting us back to a 
biennial cycle by pushing for a WRDA 08 bill.
    As far as the President's budget request for FY08, although I was 
pleased to see an increase over the request from FY07, this year's 
request is still significantly less than was enacted for FY07. As a 
fiscal conservative, I support the overall goal of reigning in 
government spending, but I firmly believe that the two things 
government should spend money on are defense and infrastructure.
    Unfortunately, we do not focus enough time, attention or dollars on 
this important issue on a consistent basis, and therefore, the state of 
our infrastructure is deplorable. For example, in its ``2005 Report 
Card for America's Infrastructure,'' the American Society of Civil 
Engineers estimated that fully half of all Corps-operated locks on our 
inland waterways were functionally obsolete and that that number would 
increase to 80 percent by 2020.
    In addition to adequately maintaining and updating the 
infrastructure we have, we need to make investments in new capability 
as well. The McKlellan-Kerr Arkansas River Navigation System in 
Oklahoma and Arkansas could function much more efficiently and 
productively if we proceed with deepening it to 12 feet from its 
current 9 foot depth.
    Another area needing attention is recreation. I bet many people 
aren't aware of this, but the Corps of Engineers is actually the 
Nation's largest provider of outdoor recreation larger than both the 
Park Service and the Forest Service. We have a lot of Corps lakes and 
reservoirs in Oklahoma, but we're not getting the funding for either 
operations and maintenance of existing facilities or for developing new 
facilities.
    The budget request again proposes a Corps recreation modernization 
initiative that would enable the Corps to use the collected user fees 
for maintaining and upgrading its facilities. We had language with the 
same intent in last year's WRDA bill, but we ran into scoring problems 
and had to remove it. I want to continue discussing this idea and 
hopefully, we can come up with a plan acceptable to everyone.
    The other option we have is to further explore public-private 
partnerships as a means of providing better and more abundant 
recreation opportunities to our citizens. Last year's WRDA bill 
included a provision allowing the Corps to experiment with certain 
policies to see what options are available at Oklahoma's many lakes to 
maximize the recreation benefits of public-private partnerships.
    Let me conclude by commending the Corps of Engineers for its work 
with other Federal and State agencies at the Tar Creek Superfund Site. 
I appreciate your visits to the area. As you are aware, we have 
encountered problems such as reprogramming of funds and authorization 
of funding to assist residents. However, I appreciate you and your 
staff working with my office to remedy those issues. I want to get your 
continued commitment to make the work at Tar Creek a top priority and 
to devote resources to continue the necessary work we are 
accomplishing.

    Senator Baucus. Thank you, Senator, very, very much.
    It is interesting, as you were talking about Oklahoma, it 
is clear that each State has some very pressing needs.
    Senator Inhofe. Yes.
    Senator Baucus. I appreciate your statement.
    I would like now to turn to Senator Feingold. Senator 
Feingold is our first panel, but he has a hearing to attend to, 
and if the other Senators don't mind, we'll let him speak and 
then give our opening statements.

 STATEMENT OF HON. RUSSELL D. FEINGOLD, U.S. SENATOR FROM THE 
                       STATE OF WISCONSIN

    Senator Feingold. Thank you, Mr. Chairman, very much. I 
always enjoy coming here. Chairperson Boxer was kind enough to 
respond very positively to my desire to testify before this 
subcommittee.
    Thank you for inviting me to testify before you today on an 
issue which I have spent a lot of time on over the past 10 
years. I recognize the tremendous importance of WRDA and the 
urgency, but I am also feeling that way about passing 
meaningful reform of the U.S. Army Corps of Engineers.
    Seven years ago, my friend from Montana, the Chairman, 
Senator Baucus and former EPW Chairman, Senator Bob Smith 
committed to helping me move forward on Corps reform. Back 
then, I never would have guessed that enacting Corps reform 
would take longer than enacting campaign finance reform.
    However, as Senator Inhofe indicated, we have made progress 
in this vital effort. In WRDA 2000, I agreed to a National 
Academy of Sciences study on independent review. We have 
received this study, along with many others, calling for 
reform. Then since 2001, I have introduced seven reform bills 
with my colleagues, including Senators McCain and Ensign, and 
former Senators Daschle and Smith.
    Last year, I was able to work with this committee, and in 
particular Senators Inhofe, Jeffords, Bond and Baucus, to 
include many key reforms in the WRDA bill that passed the 
Senate. We were also able to pass a much-needed independent 
review amendment on the Senate floor. I am especially 
appreciative of the work done by the co-sponsors of that 
amendment, Senators McCain, Carper, Lieberman, Collins, Snowe 
and former Senator Jeffords, in ensuring its passage.
    I also want to thank the members of this committee, 
including Chairman Boxer, Chairman Baucus, and Senators Carper, 
Clinton, Lautenberg, Voinovich and Alexander, for supporting 
that independent review amendment.
    As we look forward to a possible WRDA 2007, I would like to 
again remind my colleagues of the need for reform, and the 
minimum reforms that must be enacted. Since 1994, more than 30 
major reports have been issued calling for reforming the Corps 
and/or pointing out stunning flaws in Corps projects and 
project studies. Rather than reading the names of those 
reports, I would ask that the full list of these reports be 
placed in the record.
    Senator Baucus. Without objection.
    [The referenced documents follow on page 83.]
    Senator Feingold. Just 1 year ago, the GAO issued a 
scathing report on the Corps' planning process. I also ask that 
the entire report, entitled Corps of Engineers: Observations on 
Planning and Project Management Processes for the Civil Works 
Program be placed in the record.
    Senator Baucus. Without objection.
    [The referenced document follows on page 91.]
    Senator Feingold. Unfortunately, neither the GAO nor any of 
a number of other expert reform witnesses were called to 
testify today, but the GAO found that recent Corps project 
studies ``were fraught with errors, mistakes and 
miscalculations, and used invalid assumptions and outdated 
data. Generally, GAO found that the Corps studies understated 
costs and overstated benefits, and therefore did not provide a 
reasonable basis for decisionmaking.''
    As the Nation bore witness in August 2005, the failing at 
the Corps has very real consequences. As we all know, Hurricane 
Katrina produced one of the most tragic and costly disasters in 
our Nation's history. But the problems caused by Katrina in New 
Orleans were largely the result of human, not natural, 
intervention.
    Water resources projects authorized by Congress and planned 
by the Corps led to significant losses in Louisiana's coastal 
wetlands and were not available to help buffer Katrina's storm 
surge. An underused Corps-built navigation channel funneled and 
intensified that surge into New Orleans. The hurricane 
protection levees planned and built by the Corps encouraged the 
development of high-risk areas that suffered the brunt of 
Katrina's flooding. Now, it is tragically clear that the city's 
fate was sealed by the Corps' faulty design and engineering of 
the flood wall and levees that were supposed to protect the 
city.
    All of this happened despite Congress sending a significant 
amount of money to Louisiana water projects. In the 5 years 
preceding Katrina, Louisiana water projects received $1.9 
billion, far more than was received by any other State, but 
only a pittance went to bolstering the city's levees.
    We can and must do better. The evidence supporting reform 
is overwhelming. The bill that Senator McCain and I introduced 
last month, S. 564, would correct the failings at the Corps and 
provide clear policy directives to ensure that Corps projects 
protect our communities and the environment, and make sound use 
of our scarce Federal resources.
    My bill would institute the independent review language 
that passed the Senate last year as an amendment. That 
provision was carefully designed to ensure reliable and 
meaningful independent review of costly or controversial Corps 
projects. The provision establishes clear review triggers, 
ensures the independence of the review panels, and also 
responds to the National Academy of Sciences' caution that 
independent peer review panels must have the benefit of public 
comment on a draft Corps report if the panel's review is to be 
meaningful.
    I would ask that a letter I recently received from Dr. 
Shabman, the Chair of the NAS study, be inserted in the record 
at this point.
    Senator Baucus. Without objection.
    [The referenced document follows on page 106.]
    Senator Feingold. The provision also establishes an outside 
safety assurance review for critical flood damage reduction 
projects. My bill would also modernize the principles and 
guidelines that form the basis for how Corps projects are 
planned. It would also improve the way Corps projects' impacts 
are mitigated. While mitigation requirements were put in place 
in WRDA in 1986, the loopholes still need to be closed and 
language strengthened to ensure proper mitigation when Corps 
projects damage the environment. Weaker versions of both of 
these reforms were in fact included in last year's bill that we 
passed in the Senate.
    For the benefit of hard working taxpayers, my bill would 
also institute a system to prioritize projects so that those 
with the highest national interest are funded and completed on 
a timely schedule. During last year's WRDA debate, Chairman 
Baucus called for a robust program of independent peer review 
and project prioritization. I couldn't agree more. He pointed 
out that the Corps currently has a $58 billion project backlog 
and a $2 billion a year project budget, and at that pace, it 
would take the Corps roughly 30 years just to work through the 
backlog of projects.
    We must come to grips with the need to manage the list of 
deserving projects so that we can complete projects on schedule 
and according to the greatest need and merit.
    I appreciate the commitment I have from Chairman Boxer to 
work together to develop the mechanism to prioritize projects 
that would address her concerns with the prioritization 
provision in my bill. I have found it very easy to work with 
her on these kinds of issues, and I am hoping we can come 
together on that in the future.
    It is essential that Congress come up with a way of 
determining how best to allocate scarce taxpayer dollars among 
water projects. We have an historic opportunity to reform the 
beleaguered Corps and we must seize this chance. Just as we 
cannot afford to look the other way, we also cannot go weak on 
reform just to get a bill through. I would ask my friends 
sitting on this committee, I am sure you want to ensure that 
projects in your State are not the next national headline.
    Just yesterday a New Orleans Times Picayune editorial, 
which I would like to insert for the record, admonished the 
House for sticking to its pre-Katrina reforms. We have a 
responsibility to our constituents to do better than that. We 
must enact meaningful reforms in this year's WRDA.
    [The referenced document follows on page 107.]
    I again thank the committee for letting me testify, and 
look forward to working with you. I do have to go to the 
Judiciary Committee at this time. I certainly appreciate being 
able to speak ahead of some of the other Senators, which I know 
is quite a courtesy.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Feingold follows:]
       Statement of Hon. Russell Feingold, U.S. Senator from the 
                           State of Wisconsin
    Chairman Baucus, Senator Isakson, distinguished colleagues, thank 
you for inviting me to testify before you today on an issue which I 
have spent a lot of time on over the past years: passing meaningful 
reform of the U.S. Army Corps of Engineers.
    Seven years ago, my friend from Montana, Senator Baucus, and former 
EPW chairman Senator Bob Smith, committed to helping me move forward on 
Corps Reform. Back then I never would have guessed that enacting Corps 
reform would take longer than enacting campaign finance reform, 
however, we have made progress in this vital effort. In WRDA 2000, I 
agreed to a National Academy of Sciences study on independent review. 
We have received this study along with many others calling for reform. 
Since 2001, I have introduced seven reform bills with my colleagues, 
including Senators McCain and Ensign and former Senators Daschle and 
Smith.
    And last year, I was also able to work with this Committee, and in 
particular Senators Inhofe, Jeffords, Bond, and Baucus, to include many 
key reforms in the WRDA bill that passed the Senate. We were also able 
to pass a much-needed independent review amendment on the Senate floor. 
I am especially appreciative of the work done by the cosponsors of that 
amendment, Senators McCain, Carper, Lieberman, Collins, Snowe, and 
former Senator Jeffords, in ensuring its passage. I also want to thank 
the members of this committee, including Chairman Boxer, Chairman 
Baucus, and Senators Carper, Clinton, Lautenberg, Voinovich, and 
Alexander, for supporting that independent peer review amendment.
    As we look forward to a possible WRDA 2007, I would like to again 
remind my colleagues of the need for reform; and the minimum reforms 
that must be enacted.
    Since 1994, more than 30 major reports have been issued calling for 
reforming the Corps and/or pointing out stunning flaws in Corps 
projects and project studies. These include, among others:
    <bullet> Eleven studies from the National Academies of Sciences and 
Public Administration;
    <bullet> Seven reports from the Government Accountability Office;
    <bullet> Five major engineering studies, including an assessment by 
the American Society of Civil Engineers' and a study by the Corps 
itself;
    <bullet> The Katrina investigation by the Senate Committee on 
Homeland Security and Governmental Affairs;
    <bullet> An investigation by the Department of the Army Inspector 
General; and
    <bullet> A report by the U.S. Commission on Ocean Policy.
    I would like to ask that a full list of these reports be placed 
into the record.
    Just 1 year ago, the GAO issued a scathing report on the Corps' 
planning process. I also ask that the entire report, entitled Corps of 
Engineers, Observations on Planning and Project Management Processes 
for the Civil Works Program, be placed in the record. Unfortunately, 
neither the GAO nor any of a number of other expert reform witnesses, 
were called to testify today. The GAO found that recent Corps project 
studies:
    ``were fraught with errors, mistakes, and miscalculations, and used 
invalid assumptions and outdated data. Generally, GAO found that the 
Corps' studies understated costs and overstated benefits, and therefore 
did not provide a reasonable basis for decisionmaking.''
    As the nation bore witness in August 2005, the failings at the 
Corps have very real consequences. As we all know, Hurricane Katrina 
produced one of the most tragic and costly disasters in our nation's 
history. But the problems caused by Katrina in New Orleans were largely 
the result of human, not natural, intervention.
    Water resources projects authorized by Congress and planned by the 
Corps led to significant losses in Louisiana's coastal wetlands that 
were not available to help buffer Katrina's storm surge. An underused 
Corps-built navigation channel funneled and intensified that surge into 
New Orleans. The hurricane protection levees planned and built by the 
Corps encouraged the development of high risk areas that suffered the 
brunt of Katrina's flooding. And it is now tragically clear that the 
city's fate was sealed by the Corps' faulty design and engineering of 
the floodwall and levees that were supposed to protect the city.
    All of this happened despite Congress sending a significant amount 
of money to Louisiana water projects. In the 5 years preceding Katrina, 
Louisiana water projects received $1.9 billion--far more than was 
received by any other state--but only a pittance went to bolstering the 
city's levees.
    We can--and must--do better. The evidence supporting reform is 
overwhelming. The bill that Senator McCain and I introduced last month, 
S. 564, would correct the failings at the Corps and provide clear 
policy directives to ensure that Corps projects protect our communities 
and the environment, and make sound use of our scarce Federal 
resources.
    My bill would institute the independent review language that passed 
the Senate as an amendment last year. That provision was carefully 
designed to ensure reliable and meaningful independent review of costly 
or controversial Corps projects. The provision establishes clear review 
triggers, ensures the independence of the review panels, and responds 
to the National Academy of Sciences' caution that independent peer 
review panels must have the benefit of public comment on a draft Corps 
report if the panel's review is to be meaningful. I ask that a letter I 
recently received from Dr. Shabman, the Chair of the NAS study, be 
inserted in the record on this point. The provision also establishes an 
outside safety assurance review for critical flood damage reduction 
projects.
    My bill would also modernize the Principles and Guidelines that 
form the basis for how Corps projects are planned. It would also 
improve the way Corps project impacts are mitigated--though mitigation 
requirements were put in place in WRDA 1986, loopholes need to be 
closed and language strengthened to ensure proper mitigation when Corps 
projects damage the environment. Weaker versions of both of these 
reforms were included in last year's Senate WRDA.
    For the benefit of hard-working taxpayers, my bill would also 
institute a system to prioritize projects so that those of the highest 
national interest are funded and completed on a timely schedule. During 
last year's WRDA debate, Chairman Baucus called for ``a robust program 
of independent peer review and project prioritization.'' I couldn't 
agree more. He pointed out that ``The Corps currently has a $58 billion 
project backlog and a $2 billion a year project budget. At that pace it 
would take the Corps roughly 30 years just to work through the backlog 
of projects.''
    We must come to grips with the need to manage the list of deserving 
projects so that we can complete projects on schedule and according to 
the greatest need and merit. I appreciate the commitment I have from 
Chairman Boxer to work together to develop a mechanism to prioritize 
projects that would address her concerns with the prioritization 
provision in my bill. It is essential that Congress come up with a way 
of determining how best to allocate scarce taxpayer dollars among water 
projects.
    We have an historic opportunity to reform the beleaguered Corps, 
and we must seize this chance. Just as we cannot afford to look the 
other way, we also cannot go weak on reform just to get a bill through. 
I ask my friends sitting on this Committee; don't you want to ensure 
that the projects in your state aren't the next national headline? Just 
yesterday a New Orleans Times Picayune editorial, which I would like to 
insert for the record, admonished the House for sticking to its pre-
Katrina reforms. We have a responsibility to our constituents to do 
better than that. We must enact meaningful reforms in this year's WRDA.
    I again thank the Committee for letting me testify, and I look 
forward to working with you throughout the Water Resources Development 
Act process.

    Senator Baucus. Thank you, Senator.
    I, for one, don't speak for the committee, but I, for one, 
deeply appreciate your very deep concern to help assure that 
taxpayers' dollars are spent carefully and appropriately. You 
have worked very hard on this subject. You have spent a lot of 
time and effort, and a lot of Senators agree with some of your 
precise ideas, and some don't totally agree with other precise 
ideas. But the main point here is that you are trying to focus 
on something that needs to be focused on. I, for one, 
appreciate your work.
    Senator Feingold. Thank you.
    Senator Baucus. The Chairman of the committee, Senator 
Boxer, would like to say something.
    Senator Boxer. Would you just wait about 3 minutes? I would 
ask unanimous consent to put my full statement in the record.
    Senator Baucus. Without objection.

STATEMENT OF HON. BARBARA BOXER, U.S. SENATOR FROM THE STATE OF 
                           CALIFORNIA

    Senator Boxer. I want to thank you, Senator Baucus, first 
of all, for chairing this hearing at my request. I am so 
fortunate to have you do this because you do have a few other 
duties that are very pressing at the moment, so thank you for 
that. Second, to the members who are here, because it just 
shows a great interest in what we are doing.
    Senator Feingold, you and I have had many conversations, 
and I do look forward to working with you in the future on 
this. I wanted to reiterate for the committee what I said to 
you. I have also informed Senator Inhofe of this, as the 
Ranking Member, which is that we commit that the language that 
was in the Senate bill as it went through on peer review, which 
is part of your Corps reforms, about half of what you are 
trying to do, will be in the bill.
    I would just implore you, and everyone is going to offer 
whatever amendments they want, and that is fine, once it gets 
to the floor. But we must work together on this because here is 
the thing: we haven't had a WRDA bill since 2000. I have my 
colleague here from Louisiana, and other colleagues, we have a 
tremendous backlog. As a matter of fact, Senator Baucus is very 
much ready, I think, I didn't hear his opening statement, to do 
much more than we were going to do in the first WRDA bill 
because we have this backlog. I have the record. We used to do 
WRDA bills, Mr. Chairman, every 1 to 2 years. So now we have 
gotten so backlogged, it is a real problem.
    The only other thing I wanted to say while you were here, 
because I know you are on the Budget Committee, and I wanted my 
colleagues to hear this because I think this is great news for 
us, the Chairman's mark in the Budget Committee restores the 
funding to the Environmental Protection Agency in such a way 
that we will have full funding for the revolving fund for 
Superfund. I know Senator Voinovich particularly was concerned.
    Last, I think you are so right about making sure we do the 
work well. I have had experiences with the Corps over many 
years, since 1982, even before that when I was a county 
supervisor. I love working with the Corps. As time goes on, 
they get more and more aware of the environment and the need to 
proceed in ways that restores the environment, as well as takes 
care of the problem at hand.
    I think we can work with them. I think that they 
understand, after Katrina. This committee went down to 
Louisiana with the leadership of Senators Vitter and Landrieu. 
We saw things that just stunned us on that point. We have to 
get this WRDA bill through, because much of the WRDA bill is 
focused on rebuilding New Orleans. This is essential.
    So that is what I wanted to say. Many thanks to you, Mr. 
Chairman, for giving me this chance, and thank you, Senator.
    Senator Baucus. Thank you very much, Senator.
    Senator Isakson.

 STATEMENT OF HON. JOHNNY ISAKSON, U.S. SENATOR FROM THE STATE 
                           OF GEORGIA

    Senator Isakson. Thank you, Mr. Chairman. I have enjoyed 
working with you on many projects in the past, and look forward 
to working with you on this committee. I pledge to Chairman 
Boxer that I absolutely will do everything I can to help 
expedite and facilitate the WRDA bill and I associate myself 
with her remarks.
    I would like to welcome Senator Mack Mattingly from 
Georgia, who is in the audience today, and Doug Marchand, who 
will testify later, who since 1994 has overseen the expansion 
of the Port of Savannah and the Port of Brunswick. I express my 
appreciation to the Corps of Engineers for the investment and 
the work they have done at both those facilities.
    I particularly welcome General Strock, and tell you how 
much I appreciate all you have done and how much you will be 
missed. You have done an outstanding job.
    Mr. Chairman, on Monday of this week at 2 o'clock p.m., the 
Governors of South Carolina and Georgia met on the banks of the 
Savannah River and held an historic press conference which 
announced a bi-State compact to propose the building of a new 
port in Jasper County, South Carolina to be jointly operated by 
the State of Georgia and the State of South Carolina.
    Historically, the two States have been at odds over Jasper 
County on many issues, and they joined hands today and even 
offered to pay the financial cost of the feasibility studies 
necessary to move forward on that event. I would like to submit 
that entire agreement between Georgia and South Carolina for 
the record.
    Senator Baucus. Without objection.
    [The referenced document follows on page 109.]
    Senator Isakson. Speaking of cooperation, Mr. Chairman, I 
am pleased to tell you that the Governors of Alabama and 
Georgia, you would think we were having a new civil war with 
all my testimony here, but the Governors of Alabama and Georgia 
have also worked together in the last 8 months to bring about a 
tri-State water compact in the Chattahoochee Basin. We have 
been in court for the better part of 17 years without a tri-
State water agreement. It has hurt the States of Florida, 
Georgia and Alabama. The Corps was to begin early this year, 
has not yet, but I am going to encourage them to hurry up and 
facilitate the completion of the water control plan, which is 
the essential framework to formalize the tri-State water 
compact and make that in fact happen.
    I also am looking forward to the testimony of the members 
of the Corps with regard to the fiscal year 2008 budget 
request, as to its sufficiency. In my personal judgment, it is 
probably insufficient to meet the challenges that we need. I 
hope they will make suggestions as to what we can do in the 
Senate and the Congress to improve that.
    I again want to end where I began, with my sincere 
appreciation to the Corps of Engineers for the investment of 
capital and time in the State of Georgia and our resources. Our 
ports of Brunswick and Savannah are two of the great facilities 
on the East Coast of the United States. The proposal to build a 
third port jointly by Georgia and South Carolina is because 
those two ports have finite capabilities: Brunswick, Savannah 
and the Port of Charleston. The States have realized the 
importance of meeting the needs of the people of the United 
States of America and our commerce in the 21st century, and 
believe that facility to be an essential part of it.
    I thank the Ports Authority representatives for attending 
today. I thank the Corps for their investment in Georgia. I 
look forward to hearing from the Corps with regard to the water 
control plan on the Chattahoochee River.
    Thank you, Mr. Chairman.
    Senator Baucus. Thanks very much, Senator.
    According to our early bird procedure here, the Senators I 
have listed in order are Senator Alexander, Senator Inhofe, who 
has already spoken, Senator Carper, Senator Vitter, then 
Senator Voinovich.
    So Senator, you are next.

STATEMENT OF HON. DAVID VITTER, U.S. SENATOR FROM THE STATE OF 
                           LOUISIANA

    Senator Vitter. Thank you, Mr. Chairman, Madam Chairman, 
and Ranking Member Isakson. Thank you all for this very 
important hearing.
    Obviously, I am enormously interested in all of these 
subjects. A lot of people on this committee and in the Senate 
are, but probably no one has more at stake than Senator 
Landrieu and myself, simply because of the nature of Louisiana, 
particularly post-Katrina.
    It reminds me of after I had met with Don Powell, the 
President's Gulf Coast Recovery Coordinator, several times. I 
talked mostly about levees and Corps stuff. He said, after a 
couple of meetings, ``Boy, you just have an absolute passion 
for levees.'' I said, ``Well, it is actually pretty simple to 
understand. My family and I live behind one. That sort of 
builds passion.''
    I wanted to spend my opening statement focusing on two 
concerns about the proposed budget for the Corps this year, and 
then some comments about Corps reform, in which I am very, very 
interested.
    First, on the budget, I am beginning to realize that former 
Congressman and Assistant Secretary of the Army Mike Parker was 
really a hero. He was forthright and honest about the budgetary 
constraints and the budgetary process forced upon the Corps. 
Nearly 8 months ago, I began receiving reports about the 
funding shortfalls related to the emergency restoration of the 
hurricane protection system in the New Orleans area post-
Katrina. This is that immediate emergency work that the 
President has clearly committed to, and that Congress has 
clearly committed to.
    Over those 8 months, I identified at least $4 billion in 
additional funding needs to do that work that everybody has 
expressed complete commitment to. However, the recent budget 
request sent by the Administration to Congress only proposes to 
move around, not to increase, just to move around $1.3 billion. 
The request proposes no new funding for this emergency work, 
while the Corps and the Administration clearly admit to this 
enormous shortfall, which they are still trying to precisely 
quantify.
    This is a real problem, and I strongly disagree with 
kicking the can down the road. We need to start solving this 
problem now, including in the context of the supplemental, 
because it will be difficult or impossible to solve if we 
simply kick the can down the road.
    Second, very recent news reports about faulty pumps 
installed at the 17th Street Canal in New Orleans only confirms 
the concerns I expressed last summer regarding the capabilities 
of that pumping station and similar new pumping stations. These 
concerns were repeatedly debated by the Corps, but now we are 
expected to rely on these same faulty pumps and the pump 
manufacturer for flood protection in 2007.
    I understand that the Corps has expended millions of extra 
dollars attempting to resolve this problem. I am hopeful that 
we are on a path to resolution in time for this hurricane 
season. But I simply want to restate my extreme concerns that I 
began expressing many, many months ago about this very issue.
    Let me briefly move on to Corps reform. Certainly, I agree 
with that need absolutely, but like in most things, the devil 
is in the details. In developing thoughts for this topic, I 
remember the wisdom of Yogi Berra, who once said, ``the future 
ain't what it used to be.'' Well, hopefully with regard to the 
Corps, that will be true and we can learn from past mistakes 
and make sure that that is true. Certainly, we need to learn 
from some incredibly painful lessons of Hurricane Katrina.
    In this regard, I commend General Strock, who is here 
today, for coming forward a few months after Katrina and 
admitting to some key Corps errors with regard to New Orleans 
that were a big part of catastrophic flooding.
    Every member of this panel has voiced support for some 
variation of Corps reform, but as I said, the devil is in the 
details. I have specific language which I put forward in WRDA 
last year, my Louisiana Water Resources Council language, that 
I think embodies four essential principles for Corps reform. 
Those principles are as follows.
    First, independence. We must ensure that the peer review 
teams bring independent expertise to the table, not because we 
don't trust Federal engineers, but because the consequences of 
failure are far too great to rest on just a few shoulders 
narrowly, and we must reach out to all expertise that is 
available in the private sector and in academia.
    Mr. Chairman, if I could just have a couple of additional 
minutes, and I will be brief.
    Second, consistency. The application of peer review 
criteria to all Corps projects must be consistent. Each team 
must have a clear, consistent understanding of their role, the 
engineering standards, their goals, and the purpose of water 
resource projects.
    Third, integration. Particularly in the case of Louisiana, 
this is a very important theme. This is one of the big lessons 
we have learned from Katrina. That is why I have called for one 
peer review entity known as the Louisiana Water Resources 
Council, to serve as the exclusive peer review team for all 
projects in our disaster areas of South Louisiana.
    The IPET, the National Science Foundation, the American 
Society of Civil Engineers, other expert review teams, have all 
identified the inter-performance of projects or the lack 
thereof as a key issue in the failures of Katrina. Very often, 
fault points, points where things failed, is where one discrete 
project met another, and there was no integration between 
projects.
    So for that reason, one peer review entity with a clear 
understanding of all projects in a region and how they need to 
integrate has to be in play, and has to comprehend the impact 
of related projects and the need for integration. Again, that 
is a very important theme and a very important lesson we 
learned from Katrina, and it must be built into peer review and 
Corps reform at least as it applies to Louisiana.
    Fourth and finally, efficiency and timeliness. In working 
on projects in Louisiana for years, there are two descriptions 
that are included in any local sponsor's comments on a Corps 
project. One, it takes too long; two, it is too expensive. 
Those are related.
    We must ensure that any Corps reform requirements occur 
concurrent with design, rather than at the end of the normal 
Corps design process so that that timeframe doesn't just expand 
and expand, and slow down and slow down. Water resource 
projects are designed to save lives, and so we can't delay an 
already long process. We need to in fact speed it up.
    In closing, I would like to reemphasize the importance of 
getting this bill done with the Louisiana Water Resources 
Council Corps reform ideas in it as soon as possible. I 
appreciate everyone's commitment to doing that as soon as 
possible this year.
    Thank you very much for the extra time.
    [The prepared statement of Senator Vitter follows:]
    Sstatement of Hon. David Vitter, U.S. Senator from the State of 
                               Louisiana
    Chairman Baucus, Ranking Member Isakson, thank you for hosting this 
important hearing on the Fiscal Year 2008 budget request and the 
authorization needs of the U.S. Army Corps of Engineers in the Water 
Resources Development Act.
    Two immediate concerns I have are in regard to the budgetary 
process and mismanagement related to the recovery work in New Orleans.
    First, I am beginning to realize that former Congressman and 
Assistant Secretary of the Army Mike Parker was a hero. Congressman 
Parker was forthright and honest about the budgetary constraints and 
budgetary process forced upon the Corps.
    Nearly 8 months ago, I began receiving reports about the funding 
shortfalls related to the restoration of the hurricane protection 
systems in the New Orleans area.
    I identified over $4 billion in additional funding needs to restore 
our hurricane and flood protection system to authorized levels. 
However, the recent budget request sent to Congress proposed to 
reallocate $1.3 billion in existing funds from emergency work in New 
Orleans.
    The request proposes no new funding for this emergency work. With 
hurricane forecasters predicting another active year, this decision is 
beyond ill-advised.
    Second, recent news reports about faulty pumps installed at the 
17th Street Canal in New Orleans only confirms the concerns I expressed 
last summer regarding the capabilities of the pumping stations on the 
canal. These concerns were repeatedly deemed unfounded by the Corps. 
Now we are expected to rely upon these same faulty pumps and the pump 
manufacturer for flood protection in 2007. I understand that the Corps 
has expended millions of extra dollars attempting to resolve this 
problem, but I remain very concerned about the command's ability to 
meet its targets for this hurricane season.
    While I am confident that I could be here for hours going over 
other serious concerns about the water resources program--from OMB to 
the Army to the Corps' civil works program--I'll take a moment to focus 
on Corps reform.
    In developing my thoughts for this topic, I remembered the wisdom 
of Yogi Berra. He once said ``the future ain't what it used to be''. In 
regard to the Corps of Engineers, I am hopeful that we can prove Yogi 
right. The future of the civil works program must not reflect the 
mistakes of the past.
    We learned some incredibly painful lessons as a result of Hurricane 
Katrina. It took the loss of over 1,200 lives to bring attention to the 
concerns we have voiced in Louisiana regarding the integrity and 
performance of our hurricane protection system. We must apply these 
lessons not only to our recovery efforts in Louisiana, but to our 
protection systems and water resource projects nationwide.
    I commend General Strock here today for coming forward and 
admitting that the Corps erred in New Orleans. I know that that wasn't 
an easy statement on your part, but it was the right thing to do and a 
courageous act. Thank you. I am confident that your efforts will help 
guide us in preventing future disasters and the loss of life.
    Every member of this panel has voiced support for some variation of 
Corps reform. The devil is in the details and the details should not 
delay the passage of WRDA again. Seven years since enacting a WRDA bill 
is far too long.
    Hundreds of Members of Congress and interests groups across the 
country have proposed various forms of Corps reform. Unfortunately, a 
number of these proposals are not truly based upon experience with 
Corps projects. As a representative of the 1,200 citizens that lost 
their lives during Hurricane Katrina and a representative of the state 
with the most intense civil works program in the world, I ask that you 
rely heavily upon the experiences of our State.
    There are four essential principles that must be included in any 
version of Corps reform:
    Independence: We must ensure that the peer review teams bring 
independent expertise to the table. Not because we do not trust the 
Federal engineers, but because the consequences of failure are far too 
great to rest upon the shoulders of any one engineer or agency. We also 
must reach out to all expertise that is available.
    Consistency: The application of peer review criteria to all Corps 
projects must be consistent. Each team must have a clear, consistent 
understanding of their role, the engineering standards, their goals and 
the purpose of water resource projects.
    Integration: In the case of Louisiana, I have called for one peer 
review entity, known as the Louisiana Water Resources Council, to serve 
as the exclusive peer review team for all projects in our disaster 
areas of south Louisiana. The IPET, National Science Foundation, 
American Society of Civil Engineers and other Hurricane Katrina expert 
review teams all identified the inter-performance of projects as key 
issue in the New Orleans area systems.
    One peer review entity with a clear understanding of all projects 
in a region will be able to comprehend the impact of related projects 
and verify the integration of protection infrastructure to ensure that 
it truly operates as a system. I thank the committee and conferees for 
agreeing to this concept in last year's WRDA bill and in the conference 
committee. I understand that the House recently adopted my proposal in 
their version of WRDA recently introduced.
    I urge you to consider this concept in other areas as well.
    Efficiency and Timeliness: In working on projects in Louisiana for 
years, there are two descriptions that are included in any local 
sponsor's comments on a Corps project. (1) It takes too long; and (2) 
It is too expensive.
    We must ensure that any Corps reform requirements occurs concurrent 
with design--without delay to the final recommendations or 
extraordinary expense. Water resource projects are designed to save 
lives. We cannot afford delays.
    In closing, I'd like to reemphasize the importance of getting this 
WRDA bill done as soon as possible. There are dozens and dozens of 
vital projects across this country that cannot wait any longer.
    I have heard some theorize that WRDA has been delayed for budgetary 
reasons. I would like to remind the Members here today that Hurricanes 
Katrina, Rita and Wilma have cost our taxpayers nearly $160 billion and 
counting. Less than $5 billion would have prevented virtually all 
damages in New Orleans.
    A recent study commissioned by FEMA found that every $1 in 
mitigation measures provides $4 in benefits. If you are concerned about 
the budget as I am, it is clear that we must enact WRDA now.
    For years I have complained about the lengthy Corps of Engineers' 
process. With 7 years since enacting a WRDA bill, some obstacles in the 
Congress are no better.

    Senator Baucus. Thank you, Senator.
    Next on our list is the great Senator from Tennessee, Lamar 
Alexander.

STATEMENT OF HON. LAMAR ALEXANDER, U.S. SENATOR FROM THE STATE 
                          OF TENNESSEE

    Senator Alexander. Thank you, Mr. Chairman. It is good to 
be here. General Strock, it is good to see you.
    I have a couple of compliments for the Corps. One, I want 
to thank you for the job you have done on the Northwest 
Tennessee Port Project in Lake County, TN. You found a way to 
keep that on schedule, allocated funds to it for completion in 
September 2008.
    That is one of the lowest-income counties in our State, and 
the port has a potential for tremendous ability to raise family 
incomes in that area. I compliment you for that.
    Second, a lot of this happened well before I came to the 
Senate, but your focus on the safety concerns of the 
Chickamauga Lock in Chattanooga affects a whole region of our 
Country, not just the Chattanooga area, but several States. I 
very much appreciate the Corps' attention to that.
    The only other comment I would make is I am concerned about 
the safety of the Wolf Creek and Center Hill dams. They are 
built above caves on an eroding limestone base. Of course, you 
recognize there are safety concerns there, and you have lowered 
the water levels. That in itself creates other problems as you 
make the repairs, which obviously have to be made, but it adds 
to the cost of electricity, changes the environment in the lake 
and in the rivers below it, adds to cooling costs down the 
river. All that needs to be done. There are important safety 
repairs.
    Equally important is for the Corps to acknowledge that 
there are safety repairs and pay its appropriate amount of 
costs for that.
    So I am glad you are working on it. I hope it can be done 
as soon as is possible, and that these safety repairs can be 
acknowledged and we can get the water levels back up to the 
place they need to be.
    Thank you for your time, Mr. Chairman.
    Senator Baucus. Thank you, Senator.
    According to the early bird rule, Senator Carper, you are 
next.

STATEMENT OF HON. THOMAS R. CARPER, U.S. SENATOR FROM THE STATE 
                          OF DELAWARE

    Senator Carper. Thank you, Mr. Chairman.
    Chickamauga Lock, is that it? Chickamauga Lock, all right. 
In fact, I played a piano concert down there one time. That is 
not what interfered with the strength of the dam, but----
    [Laughter.]
    Senator Carper. Mr. Chairman, I want to thank you, and our 
new Ranking Member, Senator Isakson; Senator Boxer, our 
Chairman; and Senator Inhofe for scheduling this hearing, and 
for committing to mark up the Water Resources Development Act 
so early in this Congress. I think it is a good sign that we 
might just finally pass this important legislation after, as 
Senator Boxer and others have said, after 6 years of trying.
    I want to echo the sentiments of some others who have said 
very nice things about General Strock as you prepare to head 
out for your next assignment. As we used to say in the Navy, 
fair winds and fallowing sea, and good luck to you and thanks 
for your good work.
    Secretary Woodley, good to see you. On behalf of a lot of 
folks who live in Sussex County, the good work that you have 
done from end of our State to the other to help particularly 
our beach front communities, I just want to say a special 
thanks.
    It is very important I think that we pass a bill that 
addresses the Nation's water resources needs, from wetlands to 
levees, and we need to make sure that we have enough funding to 
meet those needs.
    In fact, Senator Voinovich and I have introduced, along 
with Senator Clinton and I think Senator Coleman, have 
introduced legislation to establish a commission to look at our 
Nation's infrastructure needs and how we can best address those 
needs. Congress created a similar commission I believe to study 
highways and transit as part of what we call SAFETEA-LU. As we 
will discuss today, our infrastructure needs go far beyond 
those.
    I would invite our colleagues to join us in cosponsoring 
the legislation. It is called the National Infrastructure 
Improvement Act of 2007. It is S. 775.
    I think we all agree that sufficient funding is a big part 
of the solution. We also need to make sure that our 
constituents have faith in the products that our Government, in 
this case the Army Corps of Engineers, provides. I visited in 
New Orleans a year or so ago, in April, and met with our two 
colleagues, Senator Landrieu and Senator Vitter, and held an 
oversight hearing with Senator Coburn. We saw some of the 
devastation caused by floodwalls that failed to do what they 
were designed to do.
    I also participated in about another dozen or so oversight 
hearings on what went wrong. Many of you joined us in those 
hearings. One thing was perfectly clear, and that is that there 
were many warnings that were not heeded. I appreciate the Corps 
has acknowledged as much.
    However, the problem has not gone away. At least according 
to the Associated Press last year, the Army Corps installed 
defective flood-control pumps despite warnings that the 
equipment just might fail during a storm. That, for me, was 
disheartening news. But even if there was a reason to go ahead 
with the pumps, for example some pumping is better than none, 
it is disappointing to learn about this from the media and not 
from the Corps itself.
    I appreciate the fact that, Senator Baucus, you allowed 
Senator Feingold to speak to us earlier today about some of the 
reforms that we are considering for the Corps. Senator Feingold 
and Senator McCain have been tireless in fighting for Corps 
reforms to ensure that we all receive the best quality flood 
control, the best navigation, the best environmental 
restoration projects for our communities.
    I am happy that the Senate approved Senator Feingold's and 
Senator McCain's amendment to require independent peer review 
of large Corps projects in WRDA last year. Further, I would 
like to express my appreciation to Senator Boxer and Senators 
Inhofe, Baucus, Isakson and others for agreeing to maintain 
that language in this year's WRDA bill.
    Mr. Chairman, if I could, I would like to ask unanimous 
consent at this point on behalf of the Delaware Nature Society 
that joint testimony from members of the Corps Reform Network 
be included in the record of this hearing.
    Senator Baucus. Without objection.
    Senator Carper. Thank you.
    [The referenced document was not available at time of 
print.]
    Senator Carper. We all want to ensure that our Nation's 
water resource needs are met with the highest quality work 
possible, especially in States that rely heavily on the Corps, 
as we do in Delaware. As the New Orleans Times Picayune said 
yesterday, and this is a quote, ``Any community that relies on 
a Corps-built projects deserves the assurance that the projects 
are well planned, designed and built, and making sure Americans 
who live beside those levees are safe ought to be the top 
priority for every Member of Congress.'' I agree.
    Thank you.
    Senator Baucus. Absolutely. Thank you, Senator.
    Senator Voinovich.

STATEMENT OF HON. GEORGE VOINOVICH, U.S. SENATOR FROM THE STATE 
                            OF OHIO

    Senator Voinovich. Thank you, Mr. Chairman, for holding 
this hearing.
    I have been supportive of this WRDA legislation for a long 
time. As I mentioned to Senator Vitter, the last time we passed 
a WRDA bill, Mr. Chairman, is 1999 and 2000, when I had your 
job, and it was interesting that we got it through so quickly 
in those 2 years, and then haven't been able to get anything 
done since then.
    America's infrastructure in waterway systems is the 
foundation of our economy. For too long, we have been ignoring 
our infrastructure. I am glad Senator Carper brought up our 
infrastructure legislation, and hopefully we can get it done 
and get a handle on what the infrastructure requirements are 
for the United States of America so the people of America know 
just how bad our infrastructure is, and start dealing with the 
problem forthrightly.
    Our physical infrastructure is the critical piece to making 
America more competitive. As I already mentioned, those needs 
are overwhelming. With the deterioration of our locks and dams, 
flood-control projects, and navigation channels, we risk 
disruptions in waterborne commerce, decrease protection against 
floods, as we saw in Katrina, and other environmental damage.
    Right now, our infrastructure is collapsing due to the 
insufficient funding. I am very disappointed the President's 
budget includes an 8.6 percent decrease for the overall Army 
Corps budget. It is incredible, and a larger reduction for 
construction budget, a 31.8 percent decrease. Think about it. 
Congress desperately needs to provide increased funding for the 
Corps, especially with a large backlog of unfunded projects.
    When I arrived in the Senate, the backlog of unfunded Corps 
operations and maintenance projects was $250 million. Today, it 
is $1.2 billion. Despite these overwhelming needs, the Corps is 
currently able to function at only 50 percent capacity at the 
rate of funding proposed by this budget.
    Can you believe this after Katrina? At the current low 
levels of construction appropriations, as I think somebody 
pointed out, it will take 25 years to complete the projects in 
the backlog without even considering additional project 
authorizations, and you know there are a bunch of them in this 
WRDA bill once it is passed.
    We have been asking the Corps to do more with less. I am 
for trimming fat from the Federal budget and practicing fiscal 
discipline, but the Corps budget is not fat. It is the bread 
and butter of our economy and infrastructure. I believe we need 
a comprehensive priority system, and I am glad that you have 
agreed to put that priority system in reviewing the projects in 
our version of the WRDA legislation.
    There is some good news from my end of the region of the 
United States, and that is the Corps has put money in for the 
Asian carp barriers. We are very grateful for that and we are 
going to make sure that we change the language so that it is 
fully funded by the Federal Government. It is a little piece of 
expenditure, but a big deal in terms of keeping an invasive 
species out of the Great Lakes that would demolish our fishery.
    I am also concerned about the dredging in the Great Lakes. 
Throughout the Great Lakes, we have a significant dredging 
backlog. The Corps estimates that the backlog of Great Lakes 
dredging totals about 16 million cubic yards of sediment at 
commercial harbors. Addressing the backlog would take $192 
million. Unfortunately, the inability to provide sufficient 
dredging resources to the Great Lakes has various serious 
impacts on our budget.
    The bottom line is that because we haven't done the 
dredging that we were supposed to be doing, it is estimated 
that 75 percent of the cargoes that have been carried in the 
past years have been reduced in volume due to inadequate water 
depth at either loading or discharge ports, or in the 
connecting channels. The Midwest Environmental Resource Company 
reported that 1,000-foot vessels are losing as much as 18 
inches of loaded draft, depending upon the route that they are 
going.
    So in other words, because we are not doing the dredging, 
you are having a very bad impact on the economy of our region 
of the Country. I think it is outrageous, and I don't want to 
pick on one part of the Country versus another, but they treat 
the Great Lakes like a river system. Even with that, the Corps 
spent 52 cents per ton of cargo carried in the Great Lakes, and 
the Missouri River received $15 per ton of cargo that it 
carried. It is not right. It is not fair.
    So I talked to General Berwick in the Cincinnati Great 
Lakes and Ohio Division about this, and I appreciate that the 
Division is developing a 5-year plan to address the backlog of 
projects on the Great Lakes.
    So I just want to say that it is important we get this 
legislation passed, Mr. Chairman, but it is also very important 
that we dramatize the fact that we are ignoring the 
infrastructure needs of the United States of America in just 
about every level that I can see, and one of the best examples 
is the Army Corps of Engineers.
    [The prepared statement of Senator Voinovich follows:]
     Statement of Hon. George V. Voinovich, U.S. Senator from the 
                             State of Ohio
    Mr. Chairman, thank you for holding this important hearing today. 
As you know, I have long been supportive of passing WRDA legislation, 
and it is my hope that this Congress will finally act on this. I am 
also pleased that we are holding this hearing today to discuss the 
Fiscal Year 2008 budget for the Army Corps of Engineers. This is an 
issue of great concern for me.
    It has been 6 years since Congress last passed a Water Resources 
and Development reauthorization bill. The time has come to finally pass 
this important legislation.
    America's infrastructure and waterways system is the foundation of 
our economy. For too long, we have been ignoring our infrastructure, 
but Katrina was a wake-up call for all of us. In the wake of this 
disaster, we saw firsthand the devastating impact of a weak 
infrastructure on our people and our economy. The more we continue to 
fail to fund our water infrastructure, the more we are putting our 
nation's competitiveness at risk in this global marketplace.
    Our physical infrastructure is a critical piece to making America 
more competitive. Our infrastructure needs are overwhelming and being 
squeezed. We should be rebuilding an infrastructure of competitiveness 
so that future generations have at least the same opportunity to enjoy 
our standard of living and quality of life. If we continue to ignore 
the upkeep--the deterioration of our locks and dams, flood control 
projects, and navigation channels--we risk disruptions in waterborne 
commerce, decreased protection against floods as we saw in Katrina, and 
other environmental damage.
    Right now, our infrastructure is collapsing due to insufficient 
funding. I am disappointed that the President's budget includes an 8.6 
percent decease for the overall Army Corps budget--a larger reduction 
for Construction budget, 31.8 percent decrease. Congress desperately 
needs to provide increased funding for the Army Corps of Engineers, 
especially with the large backlog of unfunded Corps projects. When I 
arrived in the Senate in 1999, the backlog of unfunded Corps Operation 
and Maintenance projects was $250 million. Today, it is $1.2 billion.
    Despite these overwhelming needs, the Corps is currently able to 
function only at 50 percent capacity at the rate of funding proposed by 
the budget. Can you believe this after the lesson we learned from 
Hurricane Katrina? At the current low levels of construction 
appropriations, it would take 25 years to complete the active projects 
in the backlog without even considering additional project 
authorizations that will be included in this WRDA, let alone future 
authorizing legislation.
    We have been asking the Corps of Engineers to do more with less. I 
am all for trimming fat from the federal budget and practicing fiscal 
discipline, but the Corps of Engineers budget is not fat--it's the 
bread and butter of our economy and infrastructure.
    I believe that we need a comprehensive prioritization system to 
ensure that Congress has the information it needs to direct limited 
federal resources to the most urgent projects. As we begin another 
debate on WRDA, it is my hope that we can include prioritization 
language in the bill. Without this language, we simply will continue to 
ignore our most critical infrastructure needs.
    There is some good news in the FY2008 Army Corps of Engineers 
budget. I am pleased that the administration's FY2008 budget requests 
$8 million in funding for the Asian Carp Barriers and also includes 
proposed authorization language for the Corps. However, I am 
disappointed that this language does not make the project the full 
responsibility of the federal government. During WRDA negotiations last 
year, we crafted language that would have made this a full federal 
project, and it is my hope that as this Committee considers WRDA, we 
will again make it a full federal project. It is critical that these 
barriers be completed and operational in a timely manner in order to 
protect the Great Lakes from the spread of invasive species.
    Another Corps issue I am concerned about is dredging in Great 
Lakes. Throughout the Great Lakes, there is a significant dredging 
backlog, and I believe that this backlog is in part, the result of 
Corps policies that unfairly address the Great Lakes. The Corps 
estimates that the backlog of Great Lakes dredging totals about 16 
million cubic yards of sediment at commercial harbors, and addressing 
this backlog would cost about $192 million. Unfortunately, the 
inability to provide sufficient dredging resources to the Great Lakes 
has very serious impacts on business.
    Last year, a U.S. Maritime Administration surveyed the lake 
carriers, ships that operate exclusively in the Great Lakes, and 
estimated that 75 percent of the cargoes they have carried in the past 
5 years have been reduced in volume due to inadequate water depth at 
either loading or discharge ports or in the connecting channels. The 
Midwest Environmental Resource Company reported that its 1,000 foot 
vessels are losing as much as 18 inches of loaded draft depending on 
the route. When these vessels forfeit 18 inches of draft, they are 
leaving approximately 4,500 tons of coal at the dock which is as much 
as 6.5 percent of their carrying capacity on each trip.
    While I understand that we are underfunding the nation's navigation 
infrastructure needs, the problem for the Great Lakes is also a result 
of the Corps' budget practices which rely on performance metrics that 
treat the Great Lakes like a river system which results in funding 
inequities. For example, the Corps spent about $0.52 per ton of cargo 
carried in the Great Lakes, but the Missouri River received about $15 
per ton of cargo carried.
    I have spoken with General Berwick in the Cincinnati Great Lakes 
and Ohio River Division Office about this situation, and while I 
appreciate that the division is developing a 5-year plan to address the 
backlog of projects in the Great Lakes, I would like Headquarters 
officials to understand that there is a problem and make a commitment 
to working to find performance metrics or some other process to better 
determine the funding needs of the Great Lakes.
    The passage of another WRDA bill cannot be delayed any further. It 
is simply too important to our nation in terms of its benefits to our 
economy and environment and for the speedy recovery for the areas 
affected by Hurricane Katrina.

    Senator Baucus. Thank you.
    Now, we will get into our main event here. We are honored 
now to have before us the Hon. John Paul Woodley, Assistant 
Secretary of the Army. He will be accompanied by Lieutenant 
General Carl Strock, who is the Chief of Engineers with the 
U.S. Army Corps of Engineers.
    Secretary Woodley, thank you very much for coming to 
testify before the committee. We ordinarily have a 5-minute 
rule here, but if you want to go a little beyond 5 minutes 
since you are the main event here, feel free to do so.

STATEMENT OF JOHN PAUL WOODLEY, JR., ASSISTANT SECRETARY OF THE 
 ARMY (CIVIL WORKS) ACCOMPANIED BY: LIEUTENANT GENERAL CARL A. 
    STROCK, CHIEF OF ENGINEERS, U.S. ARMY CORPS OF ENGINEERS

    Mr. Woodley. Thank you, Senator. In fact, I will take less. 
I have a detailed written statement in the record.
    I have with me today a piece of cloth. Those of you who 
have served, and I believe most have, will recognize this piece 
of cloth. It says, Hurricane Response, 2005-2006. This is a 
meritorious unit citation streamer awarded by the Army to the 
Headquarters of the U.S. Army Corps of Engineers. One thing it 
reminds us of is that in 2005 we thought that the hurricane 
season of 2004, in which four major storms struck the State of 
Florida, was a major hurricane response event. But these 
meritorious unit citations are very rarely given to a major 
command of the Army. They are ordinarily given to units of 
infantry, armor, or artillery for their actions in combat on 
the battlefield.
    But this recognition has been given to the Headquarters, 
U.S. Army Corps of Engineers, primarily due to the leadership 
of Lieutenant General Carl Strock, who is here today for what 
we believe will be his last appearance before the committee 
prior to his retirement from active duty. I want to take my 
time here, having given a detailed statement for the record, to 
recognize that service and to say that because of the sacrifice 
and performance of duty by the people under his leadership and 
his command, this streamer has been awarded to the Headquarters 
of the U.S. Army Corps of Engineers.
    So I think that it is incumbent upon all of us to take this 
opportunity to recognize that service, recognize that 
leadership--his and those of all the members of that command in 
responding to these events--and to express our deep 
appreciation for everything he has done as a leader in this 
context.
    So thank you very much. That will conclude my remarks.
    [The prepared statement of Mr. Woodley follows:]
 Statement of Hon. John Paul Woodley, Jr., Assistant Secretary of the 
                           Army (Civil Works)
    Mr. Chairman and distinguished members of the subcommittee:
    Thank you for the opportunity to testify before the subcommittee, 
and to present the President's Budget for the Civil Works program of 
the Army Corps of Engineers for Fiscal Year (FY) 2008.
                                overview
    The FY 2008 Budget for Army Civil Works provides funding for 
development and restoration of the Nation's water and related resources 
within the three main Civil Works program areas, namely, commercial 
navigation, flood and coastal storm damage reduction, and aquatic 
ecosystem restoration. The Budget also supports hydropower, recreation, 
environmental stewardship, and water supply services at existing water 
resources projects owned or operated by the Corps. Finally, the Budget 
provides for protection of the Nation's regulated waters and wetlands; 
cleanup of sites contaminated as a result of the Nation's early efforts 
to develop atomic weapons; and emergency preparedness. The budget does 
not fund work that should be the responsibility of non-Federal 
interests or other Federal agencies, such as wastewater treatment and 
municipal and industrial water treatment and distribution.
    Total new discretionary funding in the FY 2008 Budget is $4.871 
billion for FY 2008, the highest amount ever in a Civil Works budget. 
Within this total, we have allocated $2.471 billion to activities 
funded in the operation and maintenance (O&M) account. This is the 
highest funding level for operation and maintenance ever proposed in a 
President's budget or enacted by the Congress. It is 9 percent above 
the FY 2007 Budget level for the O&M account and $206 million above FY 
2006 enacted, after accounting for the $296 million that the Budget has 
proposed to transfer in FY 2008 from construction to operation and 
maintenance.
    The Budget also includes a FY 2007 recommendation to re-allocate up 
to $1.3 billion of emergency supplemental appropriations enacted in FY 
2006. This would enable the Corps to use available, unobligated funds 
for measures that will provide a better overall level of protection for 
the New Orleans metropolitan area in the near-term. This proposal is 
discussed further below.
    A 5-year budget development plan (FYDP) is under development and 
will be provided to the relevant Committees of Congress. The FYDP 
includes two scenarios or projections: one based on the President's 
proposed FY 2008 Budget; and one above that level based on the most 
recently enacted appropriations (FY 2006) at the time the budget was 
prepared. The projections are formula driven. They do not represent 
budget decisions or budget policy beyond FY 2008, but they can provide 
perspective on the Army Civil Works program and budget.
    Enclosure 1 displays the current estimate for the distribution of 
new discretionary funding among eight appropriation accounts, eight 
program areas plus executive direction and management, and five sources 
including the general fund of the Treasury and trust funds. Enclosure 2 
is a crosscut between appropriation accounts and program areas.
                      performance-based budgeting
    The FY 2008 Budget reflects a performance-based approach to 
budgeting. Competing investment opportunities for studies, design, 
construction, and operation and maintenance were evaluated using 
multiple metrics. We used objective, performance criteria to guide the 
allocation of funds among construction projects (see below).
    The Budget includes initiatives leading to the development of a 
more systematic, performance-based budget and improved asset 
management. For instance, to improve investment decisionmaking, the 
Budget funds the development of economic models for navigation and 
methods for evaluating the benefits of aquatic ecosystem restoration 
efforts. To help identify, evaluate, and establish priorities for the 
maintenance and rehabilitation of existing flood and storm damage 
reduction, commercial navigation, and hydropower assets, the Budget 
provides funding to develop asset management systems and risk-based 
condition indices. Finally, the Budget presents information for 
operation and maintenance activities by river basin and by mission 
area, setting the stage for improved management of Civil Works assets 
and more systematic budget development in future years.
    The focus on Civil Works program performance has a number of 
foundations. First, the Civil Works Strategic Plan, which was updated 
in 2004, provides goals, objectives, and performance measures that are 
specific to program areas as well as some that are crosscutting. 
Second, each program area has been assessed using the Program 
Assessment Rating Tool (PART). Summaries of all completed civil works 
program assessments can be found on the Administration's new website, 
www.ExpectMore.gov. Both the Civil Works Strategic Plan and the PART-
based program evaluations are works in progress and will continue to be 
updated.
            highlights--water resources development accounts
Studies and Design
    The FY 2008 Budget provides $90 million for the Investigations 
account and $1 million for studies in the Mississippi River and 
Tributaries account. The Budget funds the 67 most promising studies and 
preconstruction engineering and design (PED) activities. Performance 
was assessed based on the likelihood in the near-term of meeting the 
construction guidelines discussed below. For instance, among the 
projects in PED, the projects with benefit-cost ratios of 3.0 to 1 or 
higher received funding.
    Within the $90 million, $13 million is for the Louisiana Coastal 
Area study and science program for coastal wetlands restoration; $22 
million is for other project-specific studies and design; $10 million 
is to continue the national inventory of flood and storm damage 
reduction projects; $17 million is for research and development; and 
$28 million is for other coordination, data collection, and study 
activities. Priorities within research and development include the 
Navigation Economic Technologies research program and the development 
of benefit evaluation methods for aquatic ecosystem restoration.
Construction
    The Budget provides $1.523 billion in the Construction account and 
$108 million for construction projects in the Mississippi River and 
Tributaries account.
    Many more construction projects have been authorized, initiated, 
and continued than can be constructed efficiently at any one time. The 
funding of projects with low economic and environmental returns and of 
projects that are not within Civil Works main mission areas has led to 
the postponement of benefits from the most worthy projects, and has 
significantly reduced overall program performance.
    To remedy this situation and to achieve greater value to the Nation 
from the Civil Works construction program, the Budget focuses 
significant funding on the projects that yield the greatest return to 
the Nation, based upon objective performance criteria. The budget again 
proposes performance guidelines to allocate funds among construction 
projects. The most significant change is the inclusion of benefit-cost 
ratio (BCR) as a metric, rather than remaining benefit-remaining cost 
ratio. The BCR compares the total benefits to the total costs of a 
project at its inception, and provides a way to establish priorities 
among projects.
    Under the guidelines, the Budget allocates funds among construction 
projects based primarily on these criteria: their BCR; their 
contribution to addressing a significant risk to human safety or to dam 
safety assurance, seepage control, or static instability correction 
concerns; and the extent to which they cost-effectively contribute to 
the restoration of nationally or regionally significant aquatic 
ecosystems that have become degraded as a result of Civil Works 
projects, or to a restoration effort for which the Corps is otherwise 
uniquely well-suited. The construction guidelines are provided in 
Enclosure 3.
    The construction projects funded in the Budget include 6 national 
priorities; 11 dam safety assurance, seepage control, and static 
instability correction projects; and 41 other, high-performing 
projects. The budget also funds ongoing continuing contracts, but no 
new contracts, for 11 projects with BCRs between 1.5 to 1 and 3.0 to 1.
Operation and Maintenance
    The Budget proposes $2.471 billion for the Operation and 
Maintenance account and $151 million for maintenance activities in the 
Mississippi River and Tributaries account. Even after adjusting for the 
reassignment of work, discussed below, this amount is the highest 
funding level for operation and maintenance ever proposed in a 
President's budget.
    The Budget emphasizes performance of existing projects by focusing 
on the maintenance of key commercial navigation, flood and storm damage 
reduction, hydropower, and other facilities. The proposed funding would 
enable the Army Corps of Engineers to carry out priority maintenance, 
repairs, and rehabilitations, and priority initiatives such as the 
development of asset management systems.
    The operation and maintenance program now includes four types of 
activities that were funded in the Construction program until last 
year. The Budget transfers responsibility and funding for these 
activities compliance with Biological Opinions at operating projects 
pursuant to the Endangered Species Act, rehabilitation of existing 
projects, use of maintenance dredging material, and replacement of sand 
due to the operation and maintenance of Federal navigation projects 
because they are integrally connected to the operation and maintenance 
of Corps projects. The reassignment to the Operation and Maintenance 
program is needed to improve accountability and oversight, reflect the 
full cost of operation and maintenance, and support an integrated 
funding strategy for existing projects. The Budget includes proposed 
appropriations language to cover funding for these activities in the 
Operation and Maintenance account.
    The Budget proposes that Congress allocate operation and 
maintenance funding by river basin, rather than on a project-by-project 
basis. The justification materials present a current estimate for each 
basin of the distribution of proposed funding among the flood and 
coastal storm damage reduction, commercial navigation, hydropower, 
stewardship, recreation, and water supply program areas. Should 
operation and maintenance work be funded using this framework, managers 
in the field would be better able to adapt to uncertainties and better 
able to address emergencies as well as other changed conditions over 
the course of the fiscal year, consistent with congressional 
appropriations decisions. The Corps has displayed its current project-
by-project estimates for the FY 2008 operation and maintenance program 
on its website.
                       highlights--program areas
    The Army Civil Works program includes eight program areas, plus the 
oversight/executive direction and management function. The eight 
program areas are commercial navigation, flood and coastal storm damage 
reduction, environment, recreation, hydropower, water supply, emergency 
management, and the regulatory program. Budget proposals for the nine 
areas are discussed below.
Flood and Coastal Storm Damage Reduction, and Emergency Management
    The FY 2008 Budget provides $1.384 billion for flood and coastal 
storm damage reduction, and $45 million for emergency management.
    Among the 69 construction projects funded in the FY 2008 budget, 46 
are for flood and coastal storm damage reduction, including 8 dam 
safety and seepage control projects and 34 projects that address a 
significant risk to human safety or have high benefit-cost ratios.
    The Budget emphasizes natural disaster preparedness and flood and 
coastal storm damage prevention. Specifically, the Budget includes $40 
million in the Flood Control and Coastal Emergencies account to fund 
preparedness for flood and coastal emergencies and other disasters. 
This is a 25 percent increase for preparedness activities compared to 
the FY 2007 Budget, and is needed to maintain and improve our ability 
to respond to disasters. The Budget also includes $20 million in 
multiple accounts to apply lessons learned from Hurricanes Katrina and 
Rita (including the 12 follow-on actions identified by the Chief of 
Engineers and stepped-up cooperation with Federal Emergency Management 
Agency programs for flood plains), $10 million to continue to inventory 
and assess flood and storm damage reduction projects across the Nation, 
and $10 million to continue to assess the safety of the Corps portfolio 
of dams (including improving ordinary, but essential, inspection 
procedures).
    The Budget provides funding for all work currently planned to 
remedy the most serious (Action Class I and II) dam safety, seepage, 
and static instability problems at Corps dams. The planning, design, 
and construction of these projects are funded at the maximum amount 
that the Corps estimates that it can use efficiently and effectively.
    The Budget continues to support Federal participation in initial 
construction, but not in re-nourishment, at beach nourishment projects 
that provide storm damage reduction or ecosystem restoration outputs.
Commercial Navigation
    The FY 2008 Budget provides $2.009 billion for the commercial 
navigation program area.
    The amount budgeted for inland waterway construction projects 
(replacements and expansions in the Construction Account, and 
rehabilitations in the Operation and Maintenance account) is about $418 
million, the highest amount ever included in a President's budget. Half 
of the funding, or $209 million, would be derived from the Inland 
Waterways Trust Fund. The funding in the Inland Waterways Trust Fund 
will not be sufficient after FY 2008 to support this level of 
investment in our principal inland waterways.
    The Administration is developing and will propose legislation to 
require the barges on the inland waterways to pay a user fee. The user 
fee will address the decline in the balance in the Inland Waterways 
Trust Fund, which affects the government's ability to finance a portion 
of the continuing Federal capital investment in these waterways. The 
legislation will be offered this spring for consideration by Congress.
    The Budget focuses operation and maintenance funding on those 
waterway segments and commercial harbors that support high volumes of 
commercial traffic, with emphasis on the heavily-used Mississippi, 
Ohio, and Illinois waterways. The Budget also funds harbors that 
support significant commercial fishing, subsistence, public 
transportation, harbor of refuge, national security, or safety 
benefits.
    The Budget continues the policy of funding beach replenishment, 
including periodic re-nourishment, where the operation and maintenance 
of Federal navigation projects is the reason for the sand loss on 
shorelines.
Environment
    The FY 2008 Budget provides $514 million for the environment 
program area.
    The Budget includes $274 million for aquatic ecosystem restoration, 
of which $162 million is for the Corps of Engineers share of the South 
Florida/Everglades restoration effort. Of this amount, $35 million is 
for the Modified Water Deliveries project, a key element of this effort 
that both the National Park Service and the Corps are funding. The 
Budget provides $23 million for the Upper Mississippi restoration 
program and $13 million for the Louisiana Coastal Area restoration 
effort and its science program. The costs of compliance with Biological 
Opinions at existing projects are not included in the above figures. 
The Budget includes these costs as part of the joint operation and 
maintenance costs of the affected projects and allocates these costs 
among the program areas served by the projects.
    The Budget provides $110 million for environmental stewardship. 
Corps of Engineers-administered lands and waters cover 11 million 
acres, an area equal in size to the States of Vermont and New 
Hampshire. Funded activities include shoreline management, protection 
of natural resources, support for endangered species, continuation of 
mitigation activities, and protection of cultural and historic 
resources.
    The Budget provides $130 million for the Formerly Utilized Sites 
Remedial Action Program (FUSRAP) to clean up contamination at sites 
resulting largely from the early atomic weapons program. This funding 
will enable continued progress toward completion of remedial actions at 
a number of sites.
Regulatory Program
    The FY 2008 Budget provides $180 million to the Corps Regulatory 
Program to protect wetlands and other waters of the United States. This 
represents a $22 million increase over the FY 2006 enacted level of 
$158 million, and a $55 million increase since 2001. The funding will 
be used for permit processing, for enforcement and compliance actions 
and for jurisdictional determinations, including additional workload 
necessitated by the Supreme Court's Carabell and Rapanos decisions.
    Investing in the Regulatory Program is a win-win proposition. The 
added funds will enable most public and private development to proceed 
with minimal delays, while ensuring that the aquatic environment is 
protected consistent with the Nation's water quality laws.
Recreation
    The FY 2008 Budget provides $267 million for recreation operations 
and related maintenance.
    To help finance recreation modernizations, the Budget includes an 
initiative based on a promising model now used by other major federal 
recreation providers such as the National Park Service and the Forest 
Service. The Administration is re-proposing legislation for the Corps 
to generate additional revenue to help upgrade and modernize the 
recreation facilities at the sites where this money is collected. 
Specifically, the legislation includes authority for the Corps to 
charge entrance fees and other types of user fees where appropriate, 
and to cooperate with non-Federal park authorities and districts. The 
Corps would keep collections above an annual baseline amount.
Hydropower
    Hydropower is a renewable source of energy. The Civil Works program 
is the Nation's largest producer of hydroelectric energy, and provides 
three percent of the Nation's total energy needs.
    The FY 2008 Budget provides $291 million for hydropower. This total 
includes $159 million for hydropower operation and maintenance costs, 
$43 million for the costs of replacements at four hydropower projects, 
and $89 million for the costs allocated to hydropower from multipurpose 
projects and programs. The replacement projects will help to reduce the 
forced outage rate, which is well above the industry average.
Water Supply
    On average, Civil Works projects provide four billion gallons of 
water per day to meet the needs of municipal and commercial users 
across the country. The Budget includes $4 million for operation and 
maintenance costs allocable to water storage.
Executive Direction and Management
    The FY 2008 budget provides $177 million for the Expenses account.
    Within this amount, $171 million is for the management and 
executive direction expenses of the Army Corps of Engineers, both at 
its Headquarters and Major Subordinate Divisions, as well as support 
organizations such as the Humphreys Engineer Center Support Activity, 
the Institute for Water Resources, and the Finance Center.
    In addition, the Budget proposes to consolidate funding for 
activities related to oversight and general administration of the Civil 
Works program within the Expenses account, including funding for the 
Office of the Assistant Secretary of the Army (Civil Works). Of the 
$177 million for the Expenses account, $6 million is for the Office of 
the Assistant Secretary of the Army (Civil Works), including some 
indirect and overhead costs that previously were centrally funded by 
the Army.
                        other budget highlights
Protection of Greater New Orleans
    The FY 2008 Budget also recommends, as part of an FY 2007 
Supplemental appropriations package, enactment of a statutory provision 
to authorize the Secretary of the Army to reallocate up to $1.3 billion 
of the emergency supplemental appropriations that were provided in FY 
2006, but that remain unobligated. The recommended statutory language 
would reallocate unobligated funds appropriated by Public Law 109-234 
(the ``fourth emergency supplemental appropriations act of 2006'') to 
fund activities specified in Public Law 109-148 (the ``third emergency 
supplemental act of 2006''), and would reallocate unobligated funds 
among certain activities specified in the third emergency supplemental 
appropriations act of 2006. Within the total amount that would be 
reallocated, $270 million would be reallocated from the Construction 
account to the Flood Control and Coastal Emergencies account.
    The FY 2006 emergency supplemental appropriations were initially 
allocated based on ``rough order of magnitude'' estimates by the Corps 
of the amount of work that would be required to rebuild, complete, and 
raise the levees in New Orleans. Their estimate of the cost of the work 
necessary to accomplish these objectives is expected to increase 
greatly as a result of various engineering forensic investigations and 
assessments, a review of new storm surge data, increased material 
costs, and other factors. The earlier cost and schedule estimates have 
proven to be low, and actionable re-estimates will not be available 
until this summer. Without the reallocation of the FY 2006 funds that 
were allocated in law, important work to increase the level of 
protection in some areas could not be completed in concert with similar 
work in other areas. The proposed re-allocation would enable the Corps 
to best apply available funding to those measures that will increase in 
the near-term the overall level of protection for the New Orleans 
metropolitan area.
General Provisions
    The Budget includes bill language to authorize continuation of 
limits on reprogramming with certain changes; replace the continuing 
contract authority of the Corps with multi-year contracting authority 
patterned after the authority available to other Federal agencies; and 
prohibit committing funds for ongoing contracts beyond the appropriated 
amounts available, including reprogramming.
    The Budget also includes bill language to authorize the following: 
continuation of the national levee inventory and assessment; 
continuation of activities in Missouri River Basin to comply with the 
Endangered Species Act; completion of the two Chicago Sanitary and Ship 
Canal invasive species barriers in Illinois, subject to appropriate 
cost-sharing; and completion of the McAlpine Lock and Dam, Kentucky and 
Indiana, project.
                water resources development act proposal
    I am working with others in the Administration towards the goal of 
developing a legislative framework that will reflect the 
Administration's priorities for a Water Resources Development Act for 
your consideration. This proposal or a subsequent legislative proposal 
will support the Budget's recommendations for the Civil Works program 
as addressed in my testimony today.
    In the coming weeks I hope to be able to make a proposal that will 
help accomplish the principles, policies, and practices that have 
proven to be successful in the past, and will seek to create incentives 
for their improvement. Working together, I believe the Administration 
and the Congress can make very substantial improvements in the Civil 
Works program, and I look forward to offering a proposal that I trust 
you will find helpful.
                     president's management agenda
    The Army Civil Works program is pursuing five government-wide 
management initiatives, as are other Federal agencies, plus a sixth 
initiative on real property asset management. ``Scorecards'' for the 
Army Corps of Engineers and other Federal agencies can be found at 
http://www.whitehouse.gov/results/agenda/scorecard.html.
    Under these initiatives, the Corps is improving its efficiency 
through recently completed public-private competitions. In addition, 
the Corps is undertaking two efforts (for Logistics Management and the 
Operation and Maintenance of Locks and Dams) to improve its performance 
through re-engineering of internal business processes, rather than 
through public-private competitions.
    The Corps has also made great progress in working with the Office 
of the Department of Defense Inspector General on the FY 2006 audit. 
The Corps is continuing to work towards the goal of obtaining an 
unqualified opinion, on its accounts, and has been a leader within the 
Department of Defense in this area. The Corps is committed to 
addressing any concerns that may arise during the audit.
                               conclusion
    In developing this Budget, the Administration made explicit choices 
based on performance. The increase in O&M funding, transfer of 
activities from construction to O&M, emphasis on high-performing 
construction projects, and increase for preparedness for flood and 
hurricane emergencies and other natural disasters, for example, all 
reflect a performance-based approach.
    At $4.871 billion, the FY 2008 Army Civil Works budget is the 
highest Civil Works budget in history. This Budget provides the 
resources for the Civil Works program to pursue investments that will 
yield good returns for the Nation in the future. The Budget represents 
the wise use of funding to advance worthy, mission-based objectives. I 
am proud to present it.
    Thank you, Mr. Chairman and members of the Subcommittee, for this 
opportunity to testify on the President's Fiscal Year 2008 Budget for 
the Civil Works program of the Army Corps of Engineers.
[GRAPHIC] [TIFF OMITTED] T5921.033

[GRAPHIC] [TIFF OMITTED] T5921.034

[GRAPHIC] [TIFF OMITTED] T5921.035

[GRAPHIC] [TIFF OMITTED] T5921.036

    [The prepared statement Lieutenant General Strocks 
follows:]
  Statement of Lieutenant General Carl A. Strock, Chief of Engineers, 
                      U.S. Army Corps of Engineers
    Mr. Chairman and distinguished members of the Subcommittee:
    I am honored to be testifying before your subcommittee today, along 
with the Assistant Secretary of the Army (Civil Works), the Honorable 
John Paul Woodley, Jr., on the President's Fiscal Year 2008 (FY08) 
Budget for the United States Army Corps of Engineers' Civil Works 
Program.
    My statement covers the following 3 topics:
    <bullet> Summary of FY08 Program Budget,
    <bullet> Construction Program, and,
    <bullet> Value of the Civil Works Program to the Nation's Economy, 
and to the Nation's Defense
                     summary of fy08 program budget
Introduction
    The Fiscal Year 2008 Civil Works Budget is a performance-based 
budget, which reflects a focus on the projects and activities that 
provide the highest net economic and environmental returns on the 
Nation's investment or address significant risk to human safety. Direct 
Program funding totals $5.406 billion, consisting of discretionary 
funding of $4.871 billion and mandatory funding of $535 million. The 
Reimbursed Program funding is projected to involve an additional $2 
billion to $3 billion.
Direct Program
    The Budget reflects the Administration's commitment to continued 
sound development and management of the nation's water and related land 
resources. It proposes to give the Corps the flexibility and 
responsibility within each major watershed to use these funds to carry 
out priority maintenance, repairs, and rehabilitations. The Budget 
incorporates objective performance-based metrics for the construction 
program, funds the continued operation of commercial navigation and 
other water resource infrastructure, provides an increase in funding 
for the regulatory program to protect the Nation's waters and wetlands, 
and supports restoration of nationally and regionally significant 
aquatic ecosystems, with emphasis on the Florida Everglades and the 
Upper Mississippi River. It also would improve the quality of 
recreation services through stronger partnerships and modernization. 
Additionally, it emphasizes the need to fund emergency preparedness 
activities for the Corps as part of the regular budget process.
Reimbursed Program
    Through the Interagency and Intergovernmental Services Program we 
help non-DOD Federal agencies, state, local, and tribal governments, 
and other countries with timely, cost-effective implementation of their 
programs, while maintaining and enhancing capabilities for execution of 
our Civil and Military Program missions. These customers rely on our 
extensive capabilities, experience, and successful track record. The 
work is principally technical oversight and management of engineering, 
environmental, and construction contracts performed by private sector 
firms, and is financed by the customers.
    Currently, we provide reimbursable support for about 60 other 
Federal agencies and several state and local governments. Total 
reimbursement for such work in FY08 is projected to be $2.0 billion to 
$3.0 billion. The exact amount will depend on assignments received from 
the Federal Emergency Management Agency (FEMA) for hurricane disaster 
relief and from the Department of Homeland Security for border 
protection facilities.
                          construction program
    The goal of the construction program is to produce as much value as 
possible for the Nation from available funds. The Budget furthers this 
objective by giving priority to the continued construction and 
completion of those water resources projects that will provide the best 
net returns on the nation's investment for each dollar invested 
(Federal plus non-Federal) in the Corps primary mission areas. The 
Budget also gives priority to projects that address a significant risk 
to human safety, notwithstanding their economic performance. Under 
these guidelines, the Corps allocated funding to 69 construction 
projects, including 6 national priority projects; 11 other dam safety 
assurance, seepage control, and static instability correction projects; 
and 52 other ongoing projects.
    The Budget uses objective performance measures to establish 
priorities among projects, and through a change in Corps contracting 
practices to increase control over future costs. The measures proposed 
include the benefit-to-cost ratios for projects with economic outputs; 
the extent to which the project cost-effectively contributes to the 
restoration of a nationally or regionally significant aquatic ecosystem 
that has become degraded as a result of a Civil Works project or to an 
aquatic ecosystem restoration effort for which the Corps is otherwise 
uniquely well-suited; and giving priority to dam safety assurance, 
seepage control, static instability correction, and projects that 
address a significant risk to human safety. Resources are allocated 
based on Corps estimates to achieve the highest net economic and 
environmental returns and to address significant risk to human safety. 
This approach significantly improves the realization of benefits to the 
Nation from the Civil Works construction program and will improve 
overall program performance by bringing higher net benefits per dollar 
to the Nation sooner.
Maintenance Program
    The facilities owned and operated by, or on behalf of, the Civil 
Works Program are aging. As stewards of this infrastructure, we are 
working to ensure that its key features continue to provide an 
appropriate level of service to the nation. Sustaining such service 
poses a technical challenge in some cases, and proper operation and 
maintenance also is becoming more expensive as this infrastructure 
ages.
    The Operation and Maintenance (O&M) program for the FY08 Budget 
consists of $2.471 billion in the Operation and Maintenance account and 
$158 million under the Mississippi River and Tributaries program, with 
a focus on the maintenance of key commercial navigation, flood and 
storm damage reduction, hydropower, and other facilities. Specifically, 
the operation and maintenance program supports the operation, 
maintenance, repair and security of existing commercial navigation, 
flood and storm damage reduction, and hydropower works owned and 
operated by, or on behalf of, the Corps of Engineers, including 
administrative buildings and laboratories. Funds are also included in 
this program for national priority efforts in the Columbia River Basin 
and Missouri River Basin to support the continued operation of Corps of 
Engineers multi-purpose projects by meeting the requirements of the 
Endangered Species Act. Other work to be accomplished includes 
dredging, repair, aquatic plant control, removal of sunken vessels, 
monitoring of completed costal projects, and operation of structures 
and other facilities, as authorized in the various River and Harbor, 
Flood Control, and Water Resources Development Acts.
  value of the civil works program to the nation's economy and defense
    We are privileged to be part of an organization that directly 
supports the President's priorities of winning the global war on 
terror, securing the homeland and contributing to the economy.
The National Welfare
    The way in which we manage our water resources can improve the 
quality of our citizens' lives. It has affected where and how people 
live and influenced the development of this country. The country today 
seeks economic development as well as the protection of environmental 
values.
    Domestically, USACE personnel from across the nation continue to 
respond to the call to help re-construct and improve the hurricane and 
storm damage reduction system for southeast Louisiana. The critical 
work they are doing will reduce the risk of future storms to people and 
communities in the region.
    Over the past year, Corps dams, levees and reservoirs again 
provided billions of dollars in flood damage reduction and protected 
lives, homes and businesses in many parts of the nation following heavy 
rains.
    Mr. Chairman, we will continue to work with you, this subcommittee, 
and other members of Congress on the ongoing study, and the 
authorization and funding proposed by the Administration, for 
modifications to the existing hurricane protection system for New 
Orleans. The Budget's recommendation, as part of an FY 2007 
Supplemental appropriations package, to re-allocate up to $1.3 billion 
of emergency supplemental appropriations enacted in FY 2006 will enable 
the Corps to use available, unobligated funds for measures that will 
provide a better overall level of protection for the New Orleans 
metropolitan area in the near-term.
Research and Development
    Civil Works Program research and development provides the nation 
with innovative engineering products, some of which can have 
applications in both civil and military infrastructure spheres. By 
creating products that improve the efficiency and competitiveness of 
the nation's engineering and construction industry and providing more 
cost-effective ways to operate and maintain infrastructure, Civil Works 
Program research and development contributes to the national economy.
The National Defense
    Internationally, the U.S. Army Corps of Engineers continues to 
support the mission to help Iraq and Afghanistan build foundations for 
democracy, freedom and prosperity.
    Many USACE civilians--each of whom is a volunteer--and Soldiers are 
providing engineering expertise, quality construction management, and 
program and project management in those nations. The often unsung 
efforts of these patriotic men and women contribute daily toward this 
nation's goals of restoring the economy, security and quality of life 
for all Iraqis and Afghanis.
    In Iraq, the Gulf Region Division has overseen the initiation of 
more than 4,200 reconstruction projects valued in excess of $7.14 
billion. Of those, more than 3,200 projects have been completed.
    These projects provide employment and hope for the Iraqi people. 
They are visible signs of progress.
    In Afghanistan, the Corps is spearheading a comprehensive 
infrastructure program for the Afghan national army, and is also aiding 
in important public infrastructure projects.
                               conclusion
    The Corps of Engineers is committed to staying at the leading edge 
of service to the Nation. In support of that, I have worked to 
transform our Civil Works Program. We're committed to change that 
ensures an open, transparent, and performance-based Civil Works 
Program.
    Thank you, Mr. Chairman and Members of the Committee. This 
concludes my statement.
                                ------                                

  Responses by Hon. John Paul Woodley and Lieutenant General Carl A. 
         Strock to Additional Questions from Senator Alexander
    Question 1. I have heard that Wolf Creek and Center Hill Dams were 
built above caves and on an eroding limestone base, called karst, and I 
understand that this kind of geology when exposed to water permits 
seepage over time. Is that true? If so, how serious are the structural 
problems at these dams? Is there potential for failure of these dams 
upstream of Nashville?
    Response. General Strock.--Although considered adequate in the 
1940s, the foundation preparation of both Wolf Creek and Center Hill 
Dams was eventually discovered to be inadequate for the karst geology. 
The Corps (Nashville District) has closely monitored the serious 
foundation seepage since sinkholes first appeared at Wolf Creek in the 
late 1960s. From close monitoring of hundreds of foundation monitoring 
instruments placed throughout the dams in the early 1970s and in 
consideration of the extensive interim risk reduction measures 
currently in place, we have concluded imminent failure is unlikely at 
either project. These instruments indicate, however, that seepage is 
slowly increasing and continued erosion is occurring. The probability 
of ultimate failure is unacceptably high, particularly given the 
consequences of failure. Therefore, the Corps has implemented an 
aggressive risk management program designed to ensure the safety of the 
dams. This program includes increased inspection, monitoring, public 
awareness, emergency preparedness, pool reductions and accelerated 
design and construction of the remedial repairs. Until such time as 
permanent repairs are made, the dams are being characterized as unsafe.

    Question 2. I understand that you have recently lowered water 
levels at Wolf Creek and Center Hill dams and that the reduction in 
water levels at the dams will result in an extra cost of $100 million a 
year in replacement of power costs. I also understand that repairs at 
Wolf Creek and Center Hill will take approximately 6 to 7 years. Is 
that true? Should or can anything be done to accelerate the repairs at 
Wolf Creek and Center Hill?
    Response. General Strock.--The Corps has lowered Lake Cumberland 
(Wolf Creek Dam) to elevation 680, 43 feet below normal summer pool. 
Center Hill Dam is currently maintained about 10 to 15 feet lower than 
normal. This is entirely a risk management decision because it is 
impossible to predict, with certainty, the extent of the ongoing 
effects that continued seepage is having on the foundation. This is one 
more step in a monitoring process that has been ongoing for years. We 
constantly monitor and assess the condition of the dam and will take 
all necessary measures to ensure public safety. The Southeastern Power 
Administration estimated the lowered pools would increase the cost of 
power $100 million per year due to the need to use fossil fuel as a 
replacement for lost hydropower.
    The repairs for Wolf Creek and Center Hill will take 6 to 7 years, 
but our team is currently looking for options to expedite the 
construction with anticipation of reducing the total time required. The 
length of construction is not a function of funding, but a function of 
physically carrying out the design and construction. Repairing these 
dams is a high priority with the Administration and, to date, we have 
received all funds needed to progress at the fastest pace feasible.

    Question 3. Are these repairs classified as safety repairs for 
flood control or project repairs for production of hydroelectric power? 
If the repairs are classified as safety related, does that affect the 
costs born by ratepayers? Do safety repairs result in a different cost 
share relationship between the Corps of Engineers and the power 
distributors?
    Response. Mr. Woodley.--The Corps has two programs under which 
safety-related remediation above a certain cost threshold may be 
performed. These are the Dam Safety Assurance (DSA) program, carried 
out pursuant to section 1203 (a) of Public Law 99-662 (Water Resources 
Development Act of 1986), and the Major Rehabilitation program, carried 
out under the authority of the Chief of Engineers to maintain projects 
constructed by the Corps. Within the Major Rehabilitation program is a 
subset of activities called the Dam Safety-Related Major Rehabilitation 
(DS Major Rehab) program, which includes control of seepage and 
instability and is treated with the same priority as the DSA program. 
Funds are available in the Construction account's ``Dam Safety and 
Seepage and Instability Corrections'' line item for both the DSA 
program and the safety-related projects under the DS Major Rehab 
program to ensure that critical work is not delayed due to lack of 
funding. Wolf Creek Dam and Center Hill Dam currently are being 
remediated under the DS Major Rehab authority. The main differences 
between the two programs are the types of dam deficiencies they address 
and the cost-sharing terms. Since the 1986 enactment of section 1203, 
the Army has implemented the DSA authority for modifications to address 
new hydrologic or seismic data, although the authority also may be used 
to address changes in the state-of-the-art design or construction 
criteria deemed necessary for safety purposes. For modifications 
addressed under the DSA authority, fifteen percent of the modification 
cost is recovered from Non-Federal interests in accord with the cost 
sharing in effect at the time of initial project construction. For 
modifications addressed under the Major Rehabilitation program, 
including seepage and instability corrections under the DS Major Rehab 
program, 100 percent of the costs are assigned to project purposes and 
recovered from Non-Federal interests in accord with the cost sharing in 
effect at the time of initial project construction. For the Wolf Creek 
Dam project, for example, the share of costs assigned to hydropower is 
55 percent. Since the modification is under the DS Major Rehab program, 
the amount to be recovered from non-Federal hydropower interests is 
$170 million. If the modification were carried out under the DSA 
program, the amount to be recovered from hydropower interests would be 
$25.5 million.
                                 ______
                                 
  Responses by Hon. John Paul Woodley and Lieutenant General Carl A. 
           Strock to Additional Questions from Senator Cardin
    Question 1. Mr. Woodley, I have a very parochial issue that I'd 
like to raise with you. To some this may seem like a minor issue, but 
to the people affected, I can assure you that it is important indeed. 
The Town of Chesapeake City, Maryland, sits astride the Chesapeake and 
Delaware Canal, which is the shipping channel that connects Delaware 
Bay to the Chesapeake Bay. Originally, Chesapeake City had a drinking 
water line that ran under the C&D Canal. When the Corps of Engineers 
deepened and widened the Canal several decades ago, the Corps removed 
Chesapeake City's water line, essentially leaving the community with 
two separate water treatment and distribution systems. In the 1999 WRDA 
bill, Congress authorized the Corps to evaluate the town's claim of 
damage to its water supply system. The Philadelphia District Engineer 
determined in September 2003 that replacing the water line and making 
the system whole again was appropriate and he recommended that 
mitigation package. Since that time, Corps Headquarters has refused to 
compensate the Town pending ``additional documentation to support its 
claim.'' Mr. Woodley, the Town of Chesapeake City has a population of 
735 people. Some of the issues surrounding this issue go back decades, 
and the tiny town staff does not have the resources to undertake 
extensive additional research. You already have a District Engineer 
report that clearly determined the validity of the compensation. That 
report contains a statement from Corps Counsel that the report was 
fully reviewed and approved. Can I have your assurance that the Corps 
will waive any additional requests for documentation and get on with 
making Chesapeake City's water system whole again?
    Response. The specific issue at hand is not whether the Town of 
Chesapeake City deserved compensation for damages to its water system. 
As compensation, the Corps, at Federal expense, provided the town with 
a water tower and a modification to its distribution system. The issue 
raised with the 1999 authority is whether additional compensation is 
necessary. In January 2004, as part of the review process for the 
decision document under the 1999 authority, the Corps headquarters 
(HQUSACE) determined that the information provided in the report did 
not adequately support the recommendation that additional compensation 
is required. Recently, the Corps, the Town, and your staff have been 
working to bring this matter to closure. Information that has been 
provided by the Town is being used to address the outstanding HQUSACE 
review comments. I am hopeful that the information provided is 
sufficient to reach closure. Should the Corps provide the report to me 
for a decision, I assure you that I will act quickly on the 
recommendations.

    Question 2. General Strock, what is the status of the feasibility 
study on the Mid-Chesapeake Bay Island Ecosystem Restoration Project? 
Specifically, I would like to know: Aside from questions which may 
arise during your considerations, do you have all information, reports 
necessary for processing a Chief's Report for the Mid-Bay Islands 
project? What procedural steps remain before the Corps can issue a 
Chief's Report? What is your current schedule for issuing a Chief's 
Report for the Mid-Bay Islands project, and if the project is reviewed 
by the Review Board on July 19th, can you issue a Chief's Report before 
Labor Day?
    Response. Sir, we do not have sufficient information to process a 
Chief's Report at this time. The Corps of Engineers, Baltimore 
District, is currently addressing comments from our Headquarters and 
modifying the information included in its draft feasibility report. 
This revised information will be included in a presentation before the 
Corps of Engineers Civil Works review Board. Subject to approval by the 
Board, the feasibility report is distributed for a 30-day State and 
agency review. Once any comments are addressed, the final Chief's 
Report is prepared and signed. This process will likely take longer to 
produce a final report than by Labor Day; however, I am committed to 
ensuring that this process moves forward as expeditiously as 
practicable.

    Question 3. One of the many lessons of Hurricane Katrina was the 
tremendous cost, both human and financial, associated with the failure 
to make timely investments in hurricane protection. More than two 
decades ago, local, state, and Federal officials reached an agreement 
to share in the costs of providing hurricane protection to the Town of 
Ocean City on Maryland's Atlantic Coast. The purpose of the Atlantic 
Coast of Maryland Hurricane Protection Project is not to protect a 
recreational beach, but to provide hurricane protection for the 
citizen's of Worcester County and the $3 billion in public and private 
infrastructure in the area. Since its completion in 1991, the project 
has repeatedly demonstrated its worth by preventing an estimated $230 
million in damages from storms over the years. Without this project, 
the Federal government would have been faced with the financial 
responsibility of helping to rebuild Ocean City and its infrastructure 
after storms. Why does the Administration keep cutting funding for the 
annual surveys and periodic re-nourishment of this project, even though 
the project is not a recreational ``beach'' project?
    Response. Mr. Woodley.--The Administration continues to support 
Federal participation in initial construction, but not in re-
nourishment. The Administration's position is that such re-nourishment 
is more appropriately a non-Federal responsibility, except in the cases 
of projects authorized to mitigate the shoreline impacts of Federal 
navigation projects.

    Question 4. State and local authorities made the initial financial 
investments in the project and executed agreements committing to a 47 
percent non-federal share of the periodic nourishment costs in good 
faith and according to law, with the expectation that the Federal 
government would meet its commitment to the project. Don't you think 
that changing the rules at this time and terminating federal support is 
unfair to the State and local community?
    Response. Mr. Woodley.--Funds available for the Civil Works program 
are limited, and re-nourishment at storm damage reductions is a low 
budget priority. This policy is applied uniformly to all projects in 
like circumstances.
                                 ______
                                 
  Responses by Hon. John Paul Woodley and Lieutenant General Carl A. 
            Strock to Additional Questions from Senator Bond
    Question 1. Questions during the hearing were raised to suggest 
that upstream lake levels are low. Is it not true that there currently 
is an historic drought in the basin and can you describe the extent of 
the drought?
    Response. General Strock.--The Missouri River Basin is currently 
experiencing the 8th year of drought conditions, the worst drought 
since the Missouri River Mainstem Reservoir System (System) was filled 
in 1967. Total System storage reached a record low of 33.9 million 
acre-feet (MAF) on February 9, 2007. The three upper mainstem 
reservoirs, Fort Peck, Garrison, and Oahe, have experienced record low 
pool levels of 2196.2 mean sea level (msl), 1805.8 msl, and 1570.2 msl, 
respectively.

    Question 2. Is the historic drought a reality that the Assistant 
Secretary may consider mentioning when discussing the current 
predicament faced by the entire basin?
    Response. Mr. Woodley.--Yes, this historic drought is a reality 
based upon data I have seen, and I frequently mention the length and 
scope of the drought when discussing the current challenges faced by 
the entire Missouri River Basin.

    Question 3. The Corps undertook a decade-plus long process to 
revise the Master Manual. Did the Corps not modify the manual to 
provide additional water for lake storage at the expense of traditional 
downstream needs deemed priorities by the 8th Circuit Court of Appeal 
in the case of Operation of the Missouri River System Litigation 
decided on August 6, 2005, which the Supreme Court refused to consider 
on appeal and issued that decision on April 24, 2006?
    Response. General Strock.--The Corps is authorized to manage the 
water in the System for multiple project purposes including navigation, 
flood control, hydropower, fish and wildlife, water supply, irrigation, 
recreation, and water quality. The level of service to be provided to 
the various project purposes was the subject of intense study for more 
than 14 years during the Master Water Control Manual Review and Update 
(Review and Update) process. The Master Manual includes what are termed 
``drought conservation measures'' designed to conserve water in the 
System during extended drought. The ``drought conservation measures'' 
include shortening the navigation season length and reducing releases 
to support navigation during extended droughts, and suspending 
navigation service when the volume of water stored in the System is 
below what is termed the ``navigation preclude'' level.
    The Master Manual was revised in 2004 to include more stringent 
drought conservation measures. Since 2004, this has resulted in shorter 
navigation seasons and lower releases to support navigation as compared 
to what would have occurred under the provisions of the previous Master 
Manual. The shorter navigation seasons and lower releases have retained 
more water in the System since 2004 than would have been the case under 
the previous Master Manual.
    The navigation preclude level in the previous Master Manual was set 
at 21 MAF. The 2004 Master Manual revision increased that level to 31 
MAF. The water stored in the System has not fallen below the 31 MAF 
navigation preclude since the revision in 2004. Therefore, that change 
to the previous Master Manual has had no effect during the current 
drought.
    The Master Manual was again revised in 2006 to include provisions 
for a `spring pulse', as required by the 2003 Amended Biological 
Opinion for the Missouri River Mainstem System.
    On June 21, 2004, the United States District Court for the District 
of Minnesota issued a decision in a series of consolidated cases by 
Basin states, tribes and stakeholders challenging the 2004 Revised 
Master Manual and the 2003 Amended Biological Opinion for the Missouri 
River Mainstem System. The District Court's decision by Judge Paul A. 
Magnuson upheld both the revised Master Manual and 2003 Amended 
Biological Opinion. On August 6, 2005 the United States Court of 
Appeals in a consolidated opinion affirmed Judge Magnuson's decision. 
Subsequent petitions for certiorari were denied by the United States 
Supreme Court.

    Question 4. It was suggested that water releases exist to provide 
Missouri River navigation. While that is also true, can you please 
describe how releases are also provided to support endangered species 
protection, drinking water supply, hydro energy production, downstream 
energy production cooling capacity and Mississippi River navigation not 
only Missouri River navigation as suggested?
    Response. General Strock.--Releases are made from the System to 
support numerous downstream economic uses and support environmental 
resources, including Federally listed species and the habitats they 
use. Along with navigation, economic uses include river recreation, 
municipal and industrial water supply (including cooling water for 
thermal power plants), and irrigation. The availability of sufficient 
quantities of water to meet all of the authorized and required economic 
and environmental uses has been a significant challenge to manage 
during the current 8-year long drought. The resulting low water levels 
in the mainstem reservoirs and river stretches in between have led to 
concerns about the ability of thermal power plants to meet water 
quality standards for cooling water discharges to the river. 
Considerable investments have been made by several power plant 
operators to modify their intake structures so that they can function 
under low water conditions. System water releases are also managed to 
protect threatened and endangered bird species that nest primarily on 
river islands below the reservoirs during the summer months. The extent 
to which low water levels affects the pallid sturgeon is not well 
known, however, in accordance with a Biological Opinion developed by 
the U.S. Fish and Wildlife Service under certain hydrological 
conditions water is pulsed from System reservoirs to simulate a 
``spring rise'' that would have occurred pre-impoundment condition. 
This action is thought to trigger the pallid sturgeon to mate and 
reproduce.

    Question 5. Are these multiple uses a reality that the Assistant 
Secretary may consider mentioning when discussing the suggestion that 
lake levels should be maximized?
    Response. General Strock.--Yes, the multiple uses are a reality and 
are included in discussions regarding reservoir levels because the 
System must be managed to serve the multiple project purposes as 
authorized by Congress.

    Question 6. During this drought, is it true that significant 
reductions have imposed upon navigation, and that pain in not limited 
to recreational fishing tournaments?
    Response. General Strock.--The extended drought has negatively 
impacted all project purposes throughout the Basin, with the exception 
of flood damage reduction, and likewise has affected many of the people 
that live and work in the Basin. There have been impacts to commercial 
and recreational navigation, water supply from both the river reaches 
and the reservoirs (including irrigation), hydropower, upstream 
fisheries and general recreation along river reaches and the 
reservoirs.

    Question 7. During this drought, is it true that reductions have 
placed burdens on large urban downstream water supply and all other 
downstream needs?
    Response. General Strock.--Considerable investments have been made 
by water supply entities in the lower river to modify their intake 
structures to function during the low water conditions that exist 
during a drought. Water supply entities in St. Joseph, Missouri and in 
both Kansas City, Missouri and Kansas City, Kansas have modified their 
intakes to ensure operation at lower river levels.
                                 ______
                                 
  Responses by Hon. John Paul Woodley and Lieutenant General Carl A. 
           Strock to Additional Questions from Senator Inhofe
    Question 1. General Strock, we heard some comments at the hearing 
explaining a belief that we must legislatively ``reform'' the Army 
Corps of Engineers. Could you please describe any internal changes that 
have already been taking place at the Corps during your tenure as 
Chief?
    Response. General Strock.--The Corps has taken significant internal 
steps to improve our processes and products. What follows is a brief 
description of some of these actions:
    We have embraced External peer review. In May 2005, we published 
external review guidance as required by the Office of Management and 
Budget bulletin on independent peer review.
    The most significant features of this guidance are:
    <bullet> External review is required for projects that involve high 
risk, complexity, or precedent-setting approaches. The decision to 
subject a particular study to external review is made within the Corp's 
vertical chain of command, with consideration given to public comment. 
The decision ultimately rests with the Chief of Engineers.
    <bullet> When appropriate, external review will be built into a 
study through a review plan that is integral to the overall study plan. 
Review Plans are established early in the study process, and adapted as 
warranted throughout the life of the study.
    <bullet> Review plans are to be posted on a web site for public 
review and scrutiny. If the public believes external review is 
appropriate they will be able to tell us that.
    <bullet>  When external review will be incorporated into a project 
study, the selection of reviewers will follow National Academy of 
Science procedures (this follows directly with guidance in the OMB 
bulletin).
    <bullet>  We are currently working on a contract to get a third 
party independent organization in place to run the selection and 
administration of external panels completely independent of the Corps.
    <bullet> Technical review that takes place within the Corps is 
executed through the Planning Centers of Expertise, outside of the home 
district responsible for the project study.
    <bullet>  All review and response must be completed prior to 
release of the report for State and Agency Review.
    We have also been incorporating external reviews into significant 
water resources projects where the nature of the project setting or the 
path-breaking nature of the activity demand using external review: Some 
notable examples are: the navigation studies on the Upper Mississippi 
River System, Columbia River, Delaware River, and the Port of Iberia; 
the ecosystem restoration studies in the Louisiana Coastal Area and 
Everglades (both have extensive peer review organizations established 
and have had NRC reviews as well); and the Seven Oaks Dam and Folsom 
Dam. Each external review process has been unique, tailored to the 
specific circumstances of the study.
    We are moving forward on fish and wildlife mitigation reforms.
    <bullet> We are developing a mitigation tracking system that will 
effectively track compensatory mitigation required for Civil Works 
projects. This mitigation tracking system will use the new system and 
concepts developed for the Corps Regulatory Program. Regulatory program 
and Corps project mitigation would be tracked in a comparable manner. 
For both regulatory and Civil Works projects, the system is focused on 
the future. The full capability of the system will be utilized on new 
actions and projects. However, we will also work to capture historic 
and on-going mitigation activities to the extent practicable.
    <bullet> We will use the tracking system to monitor the 
accomplishment of concurrent mitigation, as required by WRDA 86.
    <bullet> Through this tracking system we will also assure that 
mitigation is concurrent as required by WRDA 86. We will monitor 
project development to assure that mitigation is completed as nearly as 
possible currently the primary project features but certainly no later 
than the next construction season in cases where the nature of the 
project and mitigation features make concurrence physically 
unachievable.
    We now have a decade and half of Corps project development guidance 
reform.
    <bullet> Our guidance modernization began when Congress added 
environmental protection and restoration as our mission in 1990. That 
was our first step beyond the sole use of economic criteria. We have 
been formulating water resource plans under environmental criteria 
since the early 1990s. We have some of the largest restoration projects 
ongoing such as the Everglades, Coastal Louisiana and a comprehensive 
restoration effort on the Upper Mississippi.
    <bullet> In response to General Flowers' Environmental Operating 
Principles we added guidance for the formulation and recommendation of 
multipurpose projects based on environmental and economic criteria.
    <bullet> In May 2005, we issued guidance to move beyond national 
economic and environmental criteria and added construction criteria 
that include: regional economic, environmental and social objectives. 
We don't give one objective priority over the others, but seek to work 
collaboratively with sponsors to achieve the best balance of all these 
criteria.
    <bullet> Our current project development model is one that seeks 
comprehensive solutions to the range of community problems touching 
water resources. We are looking to bring in other Federal agencies and 
define all agency roles in the process. We are founding our planning on 
systems and watershed approaches to develop holistic and contemporary 
solutions.
    We have implemented and continue to pursue an aggressive program of 
improvements to our planning procedures and methods. The main features 
of this initiative are:
    <bullet> Intensive training of all our planners and planning 
disciplines of economics, environmental compliance, plan formulation 
and planning management
    <bullet> Revival of our Planning Associates Program to give 
planning leaders intensive year long training in the full range of 
planning activities throughout the Nation.
    <bullet> Alliances with several universities to develop Masters 
programs in Water Resources. Six of our employees have already 
completed these graduate degrees and over eight more are nearing 
completion.
    <bullet> Creation of six planning centers of expertise to ensure 
competent planning capacity in difficult and challenging planning 
fields
    <bullet> Creation of the Office of Water Project Review in the 
Headquarters, but with complete independence from project development 
functions
    <bullet> Established a standing Washington-level Civil Works Review 
Board comprised of General Officers and Headquarters Senior Executives, 
Chaired by the Deputy Chief of Engineers, to review each pre-
authorization project proposal before it is determined to be ready for 
formal State and Agency review.
    <bullet> Creation of a model certification program to ensure 
external review of our planning models.
    We have learned from the painful experiences of Katrina and Rita 
and have embarked on fundamental changes in the Corps. In August 2006, 
I outlined 12 interrelated actions to improve public safety and the 
quality of the Nation's Corps of Engineers water resources 
infrastructure, the quality of life for our service personnel and their 
families, and the way we communicate risk to our stakeholders and 
customers. These 12 Actions for Change will involve changing our 
methods and thinking and will require devoting resources to improve our 
products and services. These 12 Actions are grouped in three 
overarching themes: Implementing a Comprehensive Systems Approach; 
Communications; and Reliable Public Service Professionalism.

    Question 2. Secretary Woodley's testimony notes that the budget 
request does not include funding for projects outside the main mission 
areas of the Corps and cites wastewater treatment activities as an 
example. While I certainly agree that there is an incredible amount of 
need for environmental infrastructure across the country, I have 
maintained that the Corps is not the most appropriate agency to handle 
these needs. Is there in fact any reason why the Corps would be 
uniquely well-suited, from either a technical or policy perspective, to 
play a large role in this area? Or would it make more sense to leave 
this as a state and local responsibility with some financial assistance 
from the EPA and to a lesser extent USDA for small communities?
    Response. General Strock.--It is true that the Corps technical 
expertise to execute these types of programs is not unique, and that 
there are numerous Federal programs involved in helping to address 
community water supply and water treatment needs.

    Question 3. This year's budget includes $10 million to continue to 
inventory and assess the nation's levees. Last year's WRDA bill 
included authorization language for this purpose. Could you please 
discuss how you are proceeding with this inventory and assessment and 
how that does or does not match up with the Senate's authorizing 
language?
    Response. General Strock.--The initial funding for the inventory 
and assessment were provided by Public Law 109-148, ``Department of 
Defense, Emergency Supplemental Appropriations to Address Hurricanes in 
the Gulf of Mexico and Pandemic Influenza Act, 2006.'' The additional 
$10 million proposed for FY 2008 would be carried out in accordance 
with Section 105, a general provision proposed in the budget, which 
would provide as follows: ``The Secretary of the Army, acting through 
the Chief of Engineers, is authorized to inventory Federal and non-
Federal flood and storm damage reduction projects across the nation; 
develop and test a methodology to assess the structural and operational 
integrity of such projects and the associated risks; and establish and 
maintain a database of such projects, including information on their 
structural and operational integrity and the parties responsible for 
their operation and maintenance.'' Carried-over funds in FY 2007 and 
$10 million in the FY 2008 budget would enable the completion of the 
inventory for approximately 90 percent of the Corps program levees 
(levees that are operated and maintained by the Corps, levees that were 
federally authorized and transferred to others for operation and 
maintenance, or private levees where the owner has met the requirements 
to participate in the Corps Rehabilitation and Inspection Program), 
development and beta testing of the levee assessment methodology, and 
initiation of assessments for a few high risk levees.
    From our interpretation, the $50 million proposed for authorization 
in the WRDA bill would be to ``develop, maintain, and periodically 
publish an inventory of levees?'' and would be used to complete an 
inventory of not only the Corps program levees as defined above, but 
also to inventory private levees not in the Rehabilitation and 
Inspection Program, levees owned by other federal agencies, and non-
Corps program levees in the National Flood Insurance Program. It is 
also our understanding that the funding in WRDA would be for levee 
assessments, which would be conducted using the assessment methodology 
developed with funds in 2006-2007. The assessments would be performed 
using the levee inventory data collected using the 2006 supplemental, 
2008, and proposed $50M funding.

    Question 4. Secretary Woodley, it is now nearly 9 months after the 
Supreme Court's Rapanos decision regarding the definition of navigable 
waterways. The Corps has been working with EPA to develop a guidance 
document interpreting the decision. When will the guidance be issued?
    Response. Mr. Woodley.--Interagency guidance was released on June 
5, 2007 by my office and the U.S. Environmental Protection Agency. In 
addition to the guidance itself, the agencies also released key points, 
a news release, a Jurisdictional Determination Form and Instructional 
Guidebook (with photographs and drawings), a Regulatory Guidance Letter 
on documenting jurisdictional determinations under the Rapanos 
Guidance, and a memorandum to the field that establishes an expedited 
process for elevating any interagency disputes over jurisdictional 
determinations.

    Question 5. I am very supportive of the concept mentioned in your 
testimony of allowing the Corps to use the fees it collects to operate, 
maintain and improve recreation opportunities. In fact, we had language 
to do just that in the WRDA bill reported from this Committee last 
Congress. Unfortunately, we ran into budget scoring problems and had to 
remove it during floor consideration. I don't expect those scoring 
issues to disappear, so maybe we need to look at other ways of 
improving the recreation experience, such as through public-private 
partnerships.
    <bullet> Could you please describe how the Corps can or does 
encourage such partnerships?
    <bullet> What Corps policies or procedures do you see as the 
biggest inhibitors to such partnerships and what can be done to 
overcome these obstacles? Can it be done administratively or do you 
need legislative guidance?
    Response. Mr. Woodley.--Public-private partnerships can be 
important elements that support the needs of our natural resources 
management and recreation programs. When crafted appropriately, they 
can provide a means of enriching services to the public and fostering 
long term stewardship for public lands and waters. Public-private 
partnerships build positive relationships and are useful in leveraging 
funds. We need to be sure that the overall public interest is best 
served in any public-private partnership.
    It is the Corps policy to use partnerships to enhance its programs 
and to help achieve excellence.
    The Corps has the authority to enter into agreements with 
cooperating associations in an effort to aid operations related to 
natural resources management, interpretive and visitor service 
activities. For example, associations operate bookstores on-site, 
purchase equipment and materials for use at Corps projects, and conduct 
and/or fund programs. By having associations, the Corps has developed 
partnerships with communities and improved communication among local 
constituencies. As an example, one community donated conceptual 
drawings for an amphitheater and raised funds, donated materials and 
successfully secured grants to assist in its construction.
    The Corps has authority to accept contributions, donations, 
volunteer services, supplies, and enter into challenge partnership 
(cost-share) agreements with non-federal public and private groups and 
individuals to participate in the operation and/or management of 
recreation facilities and natural resources at Corps water resource 
development projects. Examples include construction of various types of 
trails, universally accessible facilities and wetland restoration.
    The Corps also uses memorandums of understanding to work with 
national organizations like The Nature Conservancy, the International 
Mountain Bicycling Association and U.S. Coast Guard Auxiliary on 
mutually beneficial programs and projects.
    These authorities are not being applied in a consistent manner 
throughout the Corps, resulting in confusion and discouragement among 
potential partners. The Corps also lacks partnership authorities 
available to other federal natural resources agencies. A more 
comprehensive, coherent and consistent approach to this program is 
currently under development to eliminate these issues as impediments to 
an effective program. As part of this effort, the Corps is exploring 
both administrative and legislative means that may be needed to enhance 
public-private partnerships. Well-defined authorities that establish 
consistent legal and policy interpretations and result in a streamlined 
process are the goals of this effort.

    Question 6a. Your testimony identified a few items the 
Administration intends to send to the Congress at some point in the 
future. Could you please give me at least a rough estimate of when you 
expect to send the following documents to us: The Five-Year Development 
Plan?
    Response. Mr. Woodley.--We plan to submit the plan in the third 
quarter of FY 2007. The plan was delayed by the extraordinary work load 
associated with the various continuing resolutions.

    Question 6b. Legislation to require barges on the inland waterways 
to pay a user fee?
    Response. Mr. Woodley.--The proposal is still under development. We 
plan to submit a legislative proposal to the authorizing Committees, 
following consultation with users of the system and other Federal 
agencies.

    Question 6c. The legislative framework reflecting the 
Administration's priorities for a WRDA bill?
    Response. Mr. Woodley.--The Administration plans to issue a 
``Statement of Administration Position'' (SAP) before floor 
consideration in both the House and Senate. Additionally, we look 
forward to working with the House and Senate conferees during the 
conference process.

    Question 7. Your testimony notes that the budget request does not 
include funding for projects outside the main mission areas of the 
Corps and cites wastewater treatment activities as an example. While I 
certainly agree that there is an incredible amount of need for 
environmental infrastructure across the country, I have maintained that 
the Corps is not the most appropriate agency to handle these needs. Is 
there in fact any reason why the Corps would be uniquely well-suited, 
from either a technical or policy perspective, to play a large role in 
this area? Or would it make more sense to leave this as a state and 
local responsibility with some financial assistance from the EPW and to 
a lesser extent USDA for small communities?
    Response. Mr. Woodley.--I agree with the Chief's assessment that 
the Corps technical expertise to execute these types of programs is not 
unique, and that there are numerous other federal programs that address 
community needs for water supply and water quality infrastructure.

    Question 8. There has been discussion about which Federal Agency 
should pay for the Modified Water Deliveries project in Florida. Does 
the Administration still propose to have the Corps and the National 
Park Service share equally in the cost of this project? I see that the 
Corps budget includes $35 million--is there a similar amount included 
in the Parks Service budget this year?
    Response. Mr. Woodley.--The Administration has not proposed to have 
the Corps and the National Park Service share equally in the costs of 
this project. For example, the National Park Service (NPS) Fiscal Year 
2008 budget for the Modified Water Deliveries project is $14,536,000, 
while the amount for the Corps is $35 million. As indicated in the 
Corps budget justification for this project, the Administration has not 
yet decided how to propose allocating the costs beyond FY 2008.

    Senator Baucus. I appreciate that. To be candid, I am a bit 
disgusted and certainly disappointed at the trend often of 
major witnesses to say virtually nothing, because they don't 
want to get in trouble and say things that might be 
controversial and so forth, and just wait for Senators to ask 
questions.
    I don't know if that is the intent or not, but it is a 
trend I have noticed over the years, with lots of 
Administration officials in the last 3, 4 or 5 years. I will 
strike the word ``disgusted,'' but I am disappointed as one 
member of the U.S. Senate.
    I would like to talk to you a little bit, Mr. Secretary, 
about the Missouri River.
    Mr. Woodley. We could get into some controversy over that, 
Senator.
    Senator Baucus. Yes, but you didn't say anything about it.
    Mr. Woodley. I have plenty to say.
    Senator Baucus. The problem is this. According to the 
Corps' own estimates, recreation in the Upper Missouri River 
Basin generates about $87 million a year in economic activity. 
By contrast, according to the Corps' own studies, navigation on 
the Lower Missouri generates only $7 million a year--$87 
million to $7 million. We in Montana are in the seventh year of 
drought. In fact, there is a joke in Montana that if the boat 
ramps out to the lake, because it is so low now, at Fort Peck 
get any longer, we will have to apply for funding under the 
Highway bill. It is almost a mile long at some places, the boat 
ramps, because the water levels are so low. They are just 
dropping, dropping, dropping.
    In fact, the water level right now on that lake, I think it 
is about, I don't have the figures right here. According to the 
Corps' rules, our current storage of 34 million acre-feet is 
just 2 million lower than last year, and it is 20 million acre-
feet below average. The Fort Peck water levels are expected to 
be 33 feet below average, a record low, this year. That is 
because you are dropping the water out of it for the barge 
folks downstream.
    Your own studies show that recreation upstream is $87 
million, whereas barge economic value downstream is only $7 
million.
    Now, this is a little bit like what Senator Voinovich is 
saying about the Great Lakes in the Missouri. It sounds to me 
that your priorities are out of whack. Right now, the Corps' 
general rule is 8- to 6-month navigation season on the river, 
and right now the master manual calls for an 8-month navigation 
season on the river. If the total storage system falls below 
36.5 million, the season can be shortened to 6 months, and the 
navigation season is canceled if the water storage falls below 
31 million.
    I might also add that fishing is a huge, big recreation on 
the Fort Peck Reservoir. We have the annual walleye tournament. 
It has fallen 50 percent. You can't fish on the lake any more, 
for all intents and purposes, because you have lowered the lake 
pool levels so low to accommodate barge traffic downstream.
    So I am asking you, doesn't it make more sense to devote 
your resources according to your studies that show that the 
economic value of higher pool levels is a lot higher than the 
economic value of the low pool levels?
    Mr. Woodley. Senator, that is something that will have to 
be addressed constantly and continually looking into the 
future. The last action that we took was in 2004 to amend our 
master manual in a way that we feel, objectively speaking, 
provided a lot more support to our ability to support 
recreation over time, than it did to navigation.
    Under that master manual, we believe this year we will 
curtail the navigation season by a full 61 days, and that if 
trends continue, next year under that master manual, that is to 
say in calendar year 2008, what we hope for is a good season of 
precipitation, but if we do not receive that, then navigation 
will not be supported in calendar year 2008 under our current 
master manual.
    Now, have we struck the right balance, Senator? That is for 
Congress to determine and for the stakeholders and Governors of 
the region to determine over time. We are always interested in 
understanding how we can strike a better balance, but we are 
very much aware of the imbalance that you described, and are 
addressing it under our current master manual which provides 
our authority to act.
    Senator Baucus. So you do agree there is an imbalance?
    Mr. Woodley. I think it is fair to say that there is an 
imbalance, yes, sir.
    Senator Baucus. Which is to say that the priorities should 
be changed. If there is an imbalance, the priorities should be 
changed.
    Mr. Woodley. I think we should constantly examine whether 
or not that should be, and I must say that the people in the 
basin should be heard from in that regard.
    Senator Baucus. If you agree that there is an imbalance, by 
definition you should agree that on pure policy levels, the 
priorities should be changed, if I hear you correctly.
    Mr. Woodley. I think we should always be looking at whether 
we have the right balance, yes, sir.
    Senator Baucus. Well.
    Mr. Woodley. I can't declare today that I believe there is 
an imbalance, because that would take----
    Senator Baucus. You said there was. I don't mean to be 
argumentative, but you said there is an imbalance. Didn't you 
say there is an imbalance?
    Mr. Woodley. I think that the question of whether or not we 
are in the right balance should constantly be examined. It may 
be that we are in the wrong balance. That may be. I will admit 
to that possibility. That is the most I can do.
    Senator Baucus. Usually first impressions count, and two or 
three times you have said ``we are imbalanced.'' So I will take 
you for your word that you think we are imbalanced.
    Thank you very much.
    Mr. Woodley. Yes, Senator.
    Senator Baucus. Senator Isakson.
    Senator Isakson. Thank you, Mr. Chairman.
    Secretary Woodley, I read in part the announcement between 
Georgia and South Carolina with regard to Jasper County. They 
have both agreed to a bi-State compact in anticipation of 
developing a bi-State ports authority. They are willing to put 
the money up and pay the cost of a feasibility study. Is there 
any reason why the Corps cannot, since it is being paid for by 
the States and they have reached that agreement, and 
memorialized it, immediately initiate that study?
    Mr. Woodley. No reason at all, Senator. I am very, very 
pleased, as you are, to receive news of that agreement. That is 
an historic act on the part of the Governors and we welcome it. 
We will take immediate steps to implement the feasibility 
study.
    Senator Isakson. Thank you very much.
    You and I have had, and I know you hate to see me coming 
because of the water control plan.
    Mr. Woodley. Not at all, Senator.
    Senator Isakson. We have had numerous conversations. I want 
to approach it from a little bit of a different perspective 
than the past. On Monday, I met with 150 residents of the 
middle Georgia, western Georgia area of LaGrange-Troup County, 
which shares with Alabama the West Point Lake. The West Point 
Lake's winter pool is supposed to be 635. The lake on Monday 
was at 627. As was expressed by Senator Baucus regarding the 
Missouri River, all the boats were on dry land. All the docks 
were on dry land, and the mussels are dying, which are the 
system that really cleans the water.
    In part, the reason for that is the Chattahoochee River and 
that entire basin is being operated under an interim 
operational plan as a response to an endangered species case 
regarding a sturgeon in Florida. We have the largest water 
supply in the Southeast United States for three States being 
managed by an intermediate operational plan, and have waited 17 
years for modernization of the water control plan.
    To dramatize the difficulty, the deviations at West Point 
Lake are now 7 feet. The deviations at Lanier are at 1 foot, 
and at Walter George, 2 feet. Now, I don't know what the right 
deviation should be, but I know those three all share the same 
source of water. Without a coordinated plan, the operation for 
all three of those is in danger, but in particular right now 
West Point Lake is going dry.
    Now, historically, and I know the Corps controls that for 
flood purposes, but West Point Lake by definition was built as 
a recreation and economic development entity or infrastructure 
for that part of the State. It is also a flood control, which 
is a concern, and the water levels south in the Chattahoochee 
River are going toward Bainbridge, and then to Florida.
    But it seems to me like, well, it doesn't seem to me like, 
if you study rainfall and the history of that lake, there was a 
2-day period where they had 15 inches of rain, when the lake 
was at full pool, 635. They had 15 inches of rain in a 24-hour 
period of time, which was a 200-year rainfall, and the lake did 
not flood.
    Now, the lake is 7 feet lower now than it was then, which 
tells me it could take a whole lot more than is necessary to 
retain for flood control. I know I am making a speech and not 
asking a question, and I apologize, but I want to get this 
information in the record because I think those people, just 
like the people in metropolitan Atlanta and just like the 
people in Alabama, everybody deserves a water supply management 
program that balances the needs of everybody on the river. It 
means each community has to understand the other community, if 
for no other reason but because of riparian rights, deserves 
the right to be represented.
    So you and I talked privately. We don't have to get into 
it. I am going to try to address the question you raised to me 
about the plan, but we have to get a water control plan done. 
The two States are not in court right now. The two Governors 
have started writing letters jointly to the Corps in support of 
getting the water compact. We know we have difficulties, but we 
know this: Without a water control plan, there can't be a 
compact. It takes 18 months to 24 months to do a water control 
plan, which means today the compact would only be doable by 
2009.
    So in the interests of the people of Alabama and Georgia, 
and in particular today, in the interest of that West Point 
Lake situation, please do everything you can to instigate that 
water control plan and prioritize it in the Corps.
    Thank you.
    Mr. Woodley. Thank you, Senator. I have long advocated 
that, and I will continue to.
    Senator Baucus. Thank you very much.
    Senator Vitter.
    I am sorry. Chairman Boxer?
    Senator Boxer. Yes, thank you so much.
    Mr. Woodley, I would like to take a moment and talk about a 
critical public health and safety issue in my State: the threat 
of catastrophic flooding faced by the people of Sacramento. I 
am sure you are familiar with it.
    Mr. Woodley. I am very familiar with it, Senator.
    Senator Boxer. Sacramento is situated at the confluence of 
two great rivers, the American and the Sacramento. This large 
floodplain is home to nearly 500,000 people and contains 
165,000 homes, 1,300 Government facilities, including our 
State's capitol, and businesses providing 200,000 jobs.
    Throughout its history, Sacramento residents have lived 
with devastating flooding. The last one was in 1986. The cost 
was enormous then, and we know a future major flood could cause 
between $7 billion and $16 billion in direct property damage.
    Thankfully, the people of Sacramento, including the Mayor 
and city officials, have worked together with the Corps to help 
develop a plan to greatly improve Sacramento's flood control. 
It is the joint Federal project at Folsom Dam. We address it in 
this bill.
    I understand the proposed Folsom Dam improvement project is 
in its final stages of review. I have been told that for a long 
time. I need to get you on the record today. Please, I am 
begging you, what date are you going to give us for the final 
plan, the final project plan?
    Mr. Woodley. Let me ask that question, Senator.
    Senator Boxer. Maybe General Strock has the answer.
    Mr. Woodley. It is something we are going to do as quickly 
as possible. If you wanted a precise date, I will have to ask 
the General to address that.
    Senator Boxer. Yes, would you do that?
    Thank you, General.
    General Strock. Yes, ma'am. We do not have a precise date. 
For that, I will have to get back to you on the record on that.
    Senator Boxer. Well, we have been told over and over again, 
May, June. We were told before. We can't wait anymore. So you 
cannot give me a date. Is it going to be within the next 2 
months, 3 months? What is your outside date?
    General Strock. Ma'am, I don't know the answer to that. We 
will just have to take that for the record, ma'am.
    May I inquire specifically which report you are referring 
to?
    Senator Boxer. The Folsom Dam improvement project, the 
joint Federal project.
    General Strock. The joint Federal project with the Bureau 
of Reclamation?
    Senator Boxer. Correct. The local people are telling us 
May, June.
    Mr. Woodley. That is also what I have heard, Senator, but 
to get you a commitment or a firm date, we will do that. I 
should be able to do that by tomorrow.
    Senator Boxer. Thank you so much.
    Mr. Woodley. I can tell you that we are very anxious to get 
that report done. It is a very big and complex project and 
complex report. That is very high on our priority list. I have 
spent a lot of time in Sacramento discussing this with the 
leadership there. We are working on it. There are no holdups 
that I know of that are holding it up.
    Senator Boxer. Thank you, Mr. Woodley, for your positive 
response. I can only just say, I look over at David Vitter 
there, and I know what he has gone through. I know what Mary 
Landrieu has gone through on behalf of the people. I just know 
we have to get this done. We can get this done. We must get it 
done. The local people seem ready to go. So I am counting on 
you.
    Mr. Woodley. Yes, ma'am.
    Senator Boxer. I have to ask Mr. Woodley a question. I 
think that Senator Vitter would be interested in this because 
this is responding to the issue of the 17th Street Canal.
    As you know, our committee did go down to New Orleans. We 
went to the 17th Street Canal, the London Avenue Canal, and the 
Orleans Canal. These canals, we understand the Associated Press 
ran a story about the inadequacy of the pumps installed there, 
and that the canals could not have operated at full capacity in 
the event of a hurricane, even if the pumps worked perfectly.
    The Corps' plan to repair the pumps that are necessary for 
hurricane protection is kind of like changing a flat tire while 
the car is moving down the freeway. What is the timeframe for a 
fully operational system of drainage pumps that you can state 
without reservation will work? And when can we tell the people 
of New Orleans that their hurricane and flood protection 
systems will work when they are needed?
    Mr. Woodley. We will have the pumping capacity up at full 
capacity by July of this year.
    Senator Boxer. OK.
    Mr. Woodley. My impression of the reports were that they 
are based on a quality control and quality assurance report 
that was issued by a Corps official herself as part of our 
normal process of quality control, and that the actions 
recommended were in fact taken. But the context in which those 
pumps were being done was in a context of creating a maximum 
level of protection for the 2006 hurricane season, which began 
on the first of June.
    Senator Boxer. OK. You gave me a good answer. You said 
July. Now, that is already hurricane season. Is that right? So 
we can't slip. So we can tell the people of New Orleans that 
their hurricane and flood protection systems will work in those 
areas because you are fixing the pumps by July.
    Mr. Woodley. Not only fixing those pumps, but installing 
other pumping capacity.
    Senator Boxer. Good. OK. Well, don't let it slip because 
then obviously it is going to be too late.
    Last question, and then I will be leaving my Chairman of 
the subcommittee and his distinguished Ranking Member to have 
all the witnesses to themselves. I hope that you will support 
the WRDA bill. This is really important. We need the 
Administration to back us, to be with us.
    I am going to have a bipartisan strong vote coming out of 
this committee for WRDA. That is why we are not changing it 
dramatically. We will have a few little adjustments around the 
edges, but even though members are coming up to me and saying, 
``Please, Senator, we need to do more,'' we will do more 
eventually and soon, but we have to get your support.
    Do I have that support from this Administration to get the 
WRDA bill done?
    Mr. Woodley. Yes, Senator, you do. The concerns that we 
expressed in a letter I wrote to conferees last fall still 
express the views of the Administration, which are that we see 
a lot to support in the various versions that were being 
considered in conference. We had some reservations as to 
aspects of it that we were asking the conferees to consider, 
but we were very pleased that the process had gone so far as to 
enter conference.
    Senator Boxer. Well, if you could just tell the folks over 
at OMB and the rest that we owe this to the American people to 
protect them. The people in Louisiana, they can't take any more 
failures. We need this bill. The people in all of our States 
represented up here, we need the projects. This is not pork. 
This is necessary work that has to be done, and 6 years in the 
making. So I hope and I pray that we can be bipartisan in this, 
because this has got to get done.
    My last point is a good one, Mr. Chairman. I want to tell 
Senator Voinovich we just did a little homework. We got over to 
the Budget Committee. The Chairman's mark restored all of the 
Army Corps cuts, so we are going to have a budget that has 
restored these cuts. I am just pleased to inform you of that.
    OK. Thank you.
    General Strock. Senator Boxer, if I might, I have the 
answer to your question. I was confused on exactly which 
project you were talking about.
    Senator Boxer. OK.
    General Strock. We are doing a post-authorization change 
order on the modifications. That will be ready in June. That 
will allow us, then to process what is called a 902 request 
when a project exceeds more than 20 percent of its base cost, 
we must come back to you and request a cost increase.
    Senator Boxer. Yes.
    General Strock. We expect to be able to bring that forward 
in the July to October timeframe, to let you know exactly how 
much it is going to cost us in addition to what is already 
authorized. So that is the timeframe we are working in.
    Senator Boxer. Thank you.
    General Strock. We have a very important part of that 
project with the initiation of the bridge that will allow other 
components of the project to move ahead. So the project is 
moving ahead in the right way.
    Senator Boxer. That makes me very pleased. I thank you so 
much.
    Mr. Chairman, I leave you with these words. Thank you for 
our leadership in this area as usual.
    Senator Baucus. Thank you, Madam Chairman.
    Senator Vitter, you are next.
    Senator Vitter. Thank you, Mr. Chairman.
    I wanted to focus on two issues specifically: the budget 
shortfall issue, No. 1; and the pumps that we have been talking 
about, No. 2.
    So first, the budget shortfall issue. Mr. Secretary, just 
so everybody is clear, we are talking about emergency post-
Katrina work in Southeast Louisiana that the President has 
clearly committed to, and that Congress has clearly committed 
to, basically, the current 100-year standard. Is that correct?
    Mr. Woodley. Yes, Senator.
    Senator Vitter. Isn't it correct that the very clear 
timetable that the President committed to is by 2010?
    Mr. Woodley. Yes, Senator.
    Senator Vitter. OK.
    Mr. Woodley. I am sorry. Excuse me. I need to be more 
specific on that. The President is committed to the 100-year 
level of protection. Our goal set by General Strock is to reach 
that goal if possible in the year 2010, and we are straining 
every nerve and every effort to do so. So if there is a 
difference, that is our operational goal to get there. The 
President wants us to get there as soon as possible. We believe 
we can get there in 2010, but the President has not personally 
committed to 2010. I want to be very clear on exactly what the 
nature of our commitment is.
    Senator Vitter. But it is clearly a stated goal of the 
Administration to get there by 2010.
    Mr. Woodley. Yes, sir, absolutely.
    Senator Vitter. OK. In that context, of course, we now 
realize, it is fair to say, that there is a significant 
shortfall of funds required to do that. Is that fair to say?
    Mr. Woodley. Yes, sir.
    Senator Vitter. At an absolute minimum, it seems to me, you 
have said that it is at least $1.3 billion because that is the 
amount you are proposing to move around from one project to 
another. Is that fair to say?
    Mr. Woodley. You could draw that inference, yes, sir.
    Senator Vitter. OK. Now, as I understand it, you all are 
working on the exact number. You say you might have it in July. 
My information is that it is certain to be well over $1.3 
billion. Would you agree that that seems to be where we are 
going?
    Mr. Woodley. That would not surprise me, Senator.
    Senator Vitter. In all of that context, I am very concerned 
that you are not asking for more money in the fiscal year 2008 
budget, and you are not asking for more money for this in the 
supplemental. Is that right?
    Mr. Woodley. Yes, Senator, that is correct.
    Senator Vitter. So under normal circumstances, the next 
opportunity to ask for this money, billions which will be 
necessary, would be the fiscal year 2009 budget, and under 
normal circumstances the first moment you could possibly get it 
is October 1, 2008. But if recent history is a guide, it could 
well be into 2009 before you get the extra money, if it is 
asked for in that fiscal year 2009 budget. Is that correct?
    Mr. Woodley. I would hope that there would be opportunities 
in the meantime. I am not in control of those opportunities, 
but I would hope to be in a position to work with you and to 
create some of those opportunities.
    Senator Vitter. That opportunity would have to be another 
supplemental.
    Mr. Woodley. Yes, sir.
    Senator Vitter. OK. That is clearly not announced or not in 
sight yet.
    Mr. Woodley. That is correct.
    Senator Vitter. OK. So based on what we know, normal 
regular order would be trying to get this money in the fiscal 
year 2009 budget. If that is true, the first moment you would 
see it is October 1, 2008, maybe into 2009, to do all this 
work, by 2010. It seems to me if that is your plan, you should 
start admitting that this work cannot possibly be done and be 
completed by 2010. Am I missing something?
    Mr. Woodley. I hope that there will be other opportunities 
to, and I expect that there will be other opportunities to 
proceed with the funding on this project in an orderly way. As 
you mentioned, I will not know until July. I cannot determine 
until July.
    Senator Vitter. The exact total amount?
    Mr. Woodley. Yes, sir.
    Senator Vitter. But we certainly know it is over $1.3 
billion.
    Mr. Woodley. And so, I have basically two options. One is 
to seek additional funding in a piecemeal fashion, and the 
other is the one that we have proceeded with, which is to seek 
to reprogram funds so that we can avoid immediate delays that 
we now face the potential of right now. Then seek, when I have 
a full lay down that I can give you and everyone else, of 
funding and schedule that I need to complete the work that we 
have all, I believe, committed to. Then I can present that as a 
comprehensive package that we can have some confidence in, and 
ask the Congress and the other members and people in the 
Administration exactly how they wish to proceed on that.
    Senator Vitter. In closing on this topic, I would just make 
two points. First of all, there are in fact White House public 
documents, White House fact sheets, not Corps fact sheets, but 
White House fact sheets that clearly identify 2010 as the goal. 
We will submit those for the record in the next few days.
    Second, it seems an enormous mistake and missed opportunity 
not to begin to solve this problem now, because it is going to 
be a big number problem, and we have a supplemental opportunity 
now. You are talking about maybe a supplemental in the future. 
We don't know that. It is certainly not planned as of now. So I 
just think it is an enormous mistake and missed opportunity not 
to begin solving this problem now. I am hopeful that Congress 
will in fact do that.
    Mr. Chairman, if I could just have two more minutes on the 
pumping question.
    Senator Baucus. This is important.
    Senator Vitter. It is very important. I appreciate it.
    On the pumps, under the original contracts for these pumps, 
they were required to be tested and passed according to 
Hydraulic Institute standards under the contracts. How many of 
those pumps have been tested and have passed according to those 
HI standards to date?
    General Strock. Sir, I don't know the specific answer to 
that question, but I can get it for the record. What we were 
faced with here was being required to deliver a system in less 
than a year that normally, following normal processes of 
sequential testing, design and installation, would have taken 3 
years. We understood that we were taking a risk in putting some 
system in place, and we did the very best we could on this one. 
But I will get the specific answer on that contractual 
requirement and how we accomplished that.
    Senator Vitter. OK. My information is there are about 40 
pumps total and that at most 4 have been tested and passed that 
standard. I would invite you to either confirm that, or give us 
some other numbers.
    General Strock. I will do that, sir. At any point where the 
contractor is not meeting contractual obligations, we withhold 
funds until he meets those obligations. So we are managing this 
very closely.

    [The information follows:]

    Testing of the full-size pumps in strict accordance with HI 
standards could not be achieved in the factory. However, full-scale 
testing of pumps with diameters over 48 inches is not the industry 
standard so is not normally required or conducted. As examples, none of 
the pumps we have installed in Jefferson and Orleans Parishes have 
undergone full-size testing. Corps design criteria and the Guide 
Specifications recommend that, for pumps having a diameter of 48-inches 
or greater and a discharge rate of 75 cfs or greater, model tests shall 
be used in lieu of full-scale testing.
    In this case, model test results in strict accordance with HI 
standards were used. The pump manufacturer provided certified pump 
performance curves based on a 16-inch model. Therefore, any pump scaled 
up and manufactured based on the certified model, is in accordance with 
HI standards.
    There were four pumps which did undergo full-scale performance 
tests to verify pump design capacities. The Corps' Engineer Research 
and Design Center (ERDC), in conjunction with the manufacturer, 
performed a full-size performance test on one of those pumps. From 
observation of the tests and analysis of the test data, ERDC determined 
that the test measurements were valid and within +/5 percent of the 
actual discharge.
    We are currently field-testing the pumps. In recent field tests for 
vibration, 18 of the 40 pumps tested to date have operated without 
problem. We are continuing to test the remaining pumps at a rate of 
four per week.

    Senator Vitter. OK. Were those testing requirements, and 
that standard, Hydraulic Institute standard, changed or lowered 
in any way since the initial execution of the contract?
    General Strock. Sir, I don't know the answer to that. I 
will have to answer for the record.
    Senator Vitter. OK. Thank you. My information is that they 
were changed and lowered for some significant period after the 
initial execution of the contract. So again, if you could 
confirm that or give us some other information on it.
    General Strock. Sir, I will confirm that. I would not be 
surprised if there was some modification, again, based on the 
urgency of the situation to have something in place without 
perhaps going through all the requirements. We may have well 
modified the contract to allow us to at least have some 
capability in place.

    [The information follows:]

    There were changes, but standards were not lowered. The testing 
procedures were changed to bring the testing requirements in compliance 
with the Corps' Engineer Manuals and Guide Specifications. A model test 
certified by the manufacturer to be in accordance with HI standards was 
accepted, as recommended by the Corps guidelines and consistent with 
industry standards. Full-size pump testing determines the amount of 
discharge, but it does not identify problems with particular component 
parts. Consequently, additional testing requirements were added, 
specifically to test the drive units to insure their mechanical 
integrity.
    Senator Vitter. OK. Final question on this. As you know, 
General, at the 17th Street Canal, which is one of these vital 
canals, what we are trying to get to in terms of these pumps is 
7,200 CFS, while the capacity at the canal in the heart of the 
city that feeds that stream is in fact over 10,000, and while 
the Corps' own long-term plan for the pumps at the lake are 
over 10,000. That is, as you know, an issue that has been 
causing me a lot of heartburn.
    Why shouldn't we be concerned about this gap between 7,200 
CFS and the Corps' own long-term goal, which is over 10,000 
CFS?
    General Strock. Sir, the current projection is by July or 
August of this year, we will have 7,600 cubic feet per second 
in there. It is a concern that we have about our inability to 
match the nameplate capacity of pumping station six, but we are 
working very closely with the Water and Sewage Board to try to 
mitigate any potential problems as a result of that. But it 
certainly is a concern that we are unable to match the capacity 
of the fixed pumping station.
    Senator Vitter. And it is in fact the Corps' long-term goal 
to match that 10,000-plus?
    General Strock. Yes, sir. Under the fourth supplemental, we 
have the authority to construct permanent pump stations at the 
face of the levee which will have that kind of capacity.
    Senator Vitter. Thank you very much.
    My apologies to the Senator.
    Senator Baucus. Do you accept those apologies, Senator?
    Senator Voinovich. Absolutely. David has really been 
working.
    Senator Baucus. Thank you, Senator Vitter. I appreciate the 
point you are making very strongly. In fact, I might say it is 
a great opportunity for the Corps and for the Administration, 
frankly, to just do a bang-up job down there in New Orleans. It 
is so needed, and it would be just great, for lack of a better 
expression, for the good will I think the Corps and the 
Administration could get with all that. I just encourage you to 
take advantage of this opportunity.
    Thank you very much, Senator.
    Senator Voinovich.
    Senator Voinovich. My comment is that I know that Senator 
Vitter gets up every morning and goes to bed late at night 
thinking about trying to respond to remedying the situation 
caused by Katrina. I have talked to him many times. This is 
something that he is very emotional about. I think that we 
should give him as much time as we can, because if we were in 
the issue, I think that we would feel the same way that he 
does.
    I recently shared my concerns with General Berwick in 
regard to the Great Lakes and the Ohio River Division Office 
about the dredging backlog in the Great Lakes. Would you be 
willing to work with the Division and consider changes to the 
Corps' budgeting guidelines to provide more equitable funding 
allocations such as to Great Lakes?
    Mr. Woodley. Yes, Senator. We are very interested, very 
concerned about the shortfall in maintenance dredging for 
harbors. Great Lakes is a particular case, but this is true 
across the Country. I would like to see a lot more done in the 
way of harbor maintenance dredging. As of right now, that is in 
a harbor maintenance trust fund that is fed by a particular 
tax. The balances are adequate in the fund, but we are not able 
to tap them appropriately because they are on budget and they 
score on budget.
    And so in order to do a package of maintenance dredging 
somewhere, we have to forego other critical maintenance in 
another part of the system. So I am very anxious to work over 
the next year to vastly increase our capacity for harbor 
maintenance dredging in the Great Lakes and elsewhere.
    Senator Voinovich. OK. What you are saying, if I am not 
mistaken, is that they are on budget, meaning the people 
putting the budget together want to keep them there because if 
they started to spend them, that they would have to find some 
other money to make up for the fact that they are taking it out 
of that fund. Is that right?
    Mr. Woodley. They can't be spent except by direct 
appropriation as part of the energy and water appropriation. 
That is what I meant by that.
    Senator Voinovich. But the fact is that it is a budgetary 
consideration that is the reason why.
    Mr. Woodley. It is a scorekeeping issue.
    Senator Voinovich. Sure. It just underscores the fact that 
the Administration is unaware or doesn't care about the 
infrastructure needs of this Country that are so important to 
the competitiveness of the United States of America. I think 
that you have an obligation to stand up.
    I don't know what you say when you meet with OMB people or 
when you meet with the President or anybody else, but I think 
you have an obligation in your capacity to share that 
information with the members of this Administration, because we 
have a very, very significant challenge.
    If we keep going the way we are, we are going to see some 
real disruption in the movement of commerce in this Country 
that is going to negatively impact upon our competitiveness in 
that global marketplace and impact upon jobs in various regions 
of this Country.
    Mr. Woodley. I take that very seriously, Senator, and I do 
advocate for this program within the Administration.
    Senator Voinovich. How do you explain that the construction 
account has fallen from $4 billion average in the mid-1960's to 
$1.5 billion average for 1996 through 2005? I have been working 
on this now, this is my ninth year. I was Chairman of the 
subcommittee, as I said, in my first 2 years here as a freshman 
and somehow lucked out, I guess. But we had a big chart up here 
and we showed the Army Corps not only has the traditional 
responsibilities that they have had before, but we have now 
loaded them up with restoration projects. You just can't do it 
all.
    Logic would say that if it was $4 billion in the mid-
1960's, that it ought to be--mid-1960's, $4 billion--maybe it 
is $20 billion. I don't know the number. In other words, it 
shouldn't have fallen down to $1.5 billion average from 1996 to 
2005.
    Don't you think that that defies logic?
    Mr. Woodley. I think that there is no question that neither 
the budget nor any recent appropriation has funded all of the 
good things that the Corps of Engineers could do.
    Senator Voinovich. But it is ongoing. What is this, the 
seventh year of this Administration?
    Senator Baucus. Yes.
    Senator Voinovich. The seventh year. Again, it just is an 
indication that somebody doesn't pay attention. What do they 
say to you about how this is going to be taken care of? Do they 
say that this is a federalism issue and that the State should 
step forward and put the money in? Or the private sector should 
come in and we should privatize? What is the answer?
    Mr. Woodley. Well, sir, I think we are trying to do as much 
as we can with the priorities that we have.
    Senator Voinovich. Give it a number.
    Last question is, we put provisions in the WRDA bill last 
year in terms of prioritization. Mr. Chairman, according to 
Chairman Boxer, we are going to keep that same WRDA language in 
there in terms of prioritization?
    Senator Baucus. That is unclear.
    Senator Voinovich. Well, the Administration did come 
forward with a positive recommendation there in terms of 
prioritization, didn't they? In the last WRDA bill, the 
Administration said that their recommendation was that we ought 
to prioritize these projects.
    Mr. Woodley. Yes, sir.
    Senator Voinovich. Can you share what that prioritization 
is? Or maybe the real question is: How does what the 
Administration wants to do with this prioritization fit in with 
the language that was in the WRDA bill, but came out of the 
Senate?
    Mr. Woodley. I am not sure that we agree that there should 
be a commission or some outside group to make those 
determinations outside the normal channels of Government. But 
clearly, we feel there is a definite need for prioritization 
and that the priorities ought to reflect the Corps' core 
mission of flood control, navigation and environmental 
restoration.
    Senator Voinovich. OK. In other words, you are saying that 
the Administration didn't come forward with recommended 
language to deal with the issue of prioritization?
    Mr. Woodley. I don't recall that, Senator.
    Senator Voinovich. General Strock, do you remember anything 
about that?
    General Strock. No, sir, I do not recall.
    Senator Voinovich. OK. Well, I would be interested to know 
what this Administration thinks about the language that is in 
the WRDA bill that we got passed out of the Senate. How do you 
feel about it?
    Mr. Woodley. As it passed out of the Senate, our concerns 
were expressed in the letter that I sent to the conferees last 
fall.
    Senator Voinovich. Do you remember anything about the 
problems that you may have had with the language?
    Mr. Woodley. Yes, sir. I remember that we were concerned 
about those aspects of it that interfered with the Secretary's 
capability to manage the program. I remember that we were 
concerned about the aspects of the authorizations that were 
outside of the core mission areas of the Corps of Engineers. As 
I recall, we indicated our very positive reaction to the 
concept of independent review of Corps projects, but indicated 
that the way it was embodied should be flexible and should be 
incorporated early in the process--I think that was a point 
Senator Vitter made--rather than being tacked onto the end of 
the process. So those were the main items that we addressed in 
our letter.
    Senator Voinovich. Were those items in that letter, General 
Strock, pretty much generated by the Corps, who would have to 
deal with this? Did you have any input in the letter that was 
sent in regard to this prioritization? Did anybody consult with 
you about whether it made sense or not, or did they just come 
out of OMB?
    General Strock. Sir, personally, I did not participate in 
that, and I don't think my staff participated.
    Sir, if I might, we are adjusting our prioritization 
processes by going to performance-based mission area funding, 
so that we understand the full life cycle of a project, as 
outlined in studies and construction in O&M.
    We look across the business line in all those areas. I 
think to an extent, the six budgeting principles we use do 
represent a method of prioritization. We began with dam safety. 
We then focused on national priority projects. We focused on 
projects with a substantial life-saving benefit. We focused on 
projects with mitigation or environmental requirements we had 
to meet under ESA and other laws. We focused on high-performing 
projects, those that returned at least a three to one benefit 
on the investment, with continuing contracts or contracts that 
needed to be continued.
    And then we focused on another set of projects that are 
underway that had at least a 1.5 to 1 benefit-cost ratio. So 
there was a form of prioritization in this budget.
    Senator Voinovich. Mr. Chairman, the safety issue, prior to 
Katrina, wasn't one of the considerations, was it? I think that 
we met and I was kind of shocked.
    General Strock. Sir, it has always been a consideration 
specifically under the dam safety, and in other projects we do 
evaluate it. But it is not one of the driving criteria, because 
in most cases we assume that our projects will perform for what 
they are designed to do to the given level of protection.
    But if the threat is larger than that as it was in Katrina, 
that the area will have been evacuated. We are looking at ways 
to accommodate a consideration of life and property. That is 
one of the major outcomes of our review of Katrina is how to do 
evaluation of risk and consequence in decisionmaking, but it 
has not been a principal factor in the past.
    Senator Voinovich. Thank you, Mr. Chairman.
    All I will say is this, it would be interesting to get the 
Corps' impression of the language that we are going to put in 
the WRDA bill, because they are the people where the rubber 
meets the road, whether it is realistic, or whether they can 
work with it.
    Senator Baucus. OK. The language we are talking about, I 
don't know where it exists right now at this point. But 
whatever it is, I think it makes sense for us to have at least 
an informal conversation about the language so we can try to 
work it out so we can agree, rather than having a big 
confrontation, if we possibly can. Let's work to make that 
happen.
    Mr. Woodley. I hope that will be possible, Mr. Chairman.
    Senator Baucus. Good.
    I would like to just pick up on a quick point on Senator 
Voinovich's point about infrastructure in this Country. My 
personal view is that we are slipping dramatically with the 
competition. What is the competition? Other countries overseas.
    Have you been to Shanghai and Shanghai Harbor? Have you 
seen it?
    Mr. Woodley. I have not, but I have had it described to me, 
Senator.
    Senator Baucus. I suggest you go. I suggest you go over to 
Shanghai and you see it. I was stunned when I saw it about 2 
years ago, roughly. I was talking to a bunch of businessmen 
here on Capitol Hill about American competitiveness and 
infrastructure needs in this Country, and how the United States 
responded very well to other challenges--World War II, the 
Depression, Sputnik. But I also feel that even though we 
responded to Sputnik with a man on the moon very quickly, with 
great American know-how and tradition and so forth, it is hard 
to respond to the current challenge because it is kind of like 
a stealth challenge. It is kind of hard to see it, immediately 
and graphically, as we could Sputnik.
    I mentioned that to the businessmen and we were talking 
about it. One CEO of a very major U.S. company who would be 
recognized immediately, said, ``Senator, I have seen Sputnik. 
It is Shanghai Harbor.'' It scared the bejeebies out of him, 
what they are doing and the huge, big infrastructure they are 
building, with the ships and railroads and the ports and 
dealing with the cargo ships that are coming in. It is just 
stunning what they are doing.
    I just urge you, in fact, I think if more people go over to 
Shanghai and see what the Chinese are doing, that it will scare 
us into doing something a little more than we should be doing, 
but are not doing so far.
    Mr. Woodley. Thank you, sir.
    Senator Baucus. I suggest you go to Shanghai.
    Mr. Woodley. Thank you.
    Senator Baucus. Just look.
    Mr. Woodley. I appreciate that. At the risk of being 
controversial, I would like to associate myself with your 
remarks.
    Senator Baucus. Thank you.
    One quick question about Fort Peck. We talked about the 
lake. No one talked about the cabins. We in Montana sometimes 
we are a little stubborn. Even though the lake level is going 
down, we want to have our cabins on the lake.
    Mr. Woodley. Oh, absolutely. Yes, sir.
    Senator Baucus. Could you give me some assurance we are 
going to finally get those sales completed very quickly? 
Because as you know, it has been since the year 2000, 367, I 
think, cabin sites, revenue from the sales is going to go to 
the resource issues in Montana, the wildlife refuge, for 
example. The Corps said, well gee, they can't get going because 
they need appraisals and so forth.
    The Fish and Wildlife Service has stepped up and 
contributed $100,000 in that regard. There was money in the 
2007 appropriations. That dropped out, as we all know, but 
there is no request in 2008. So I wish you could just sit down 
with those folks that want to own those cabins. They really, 
really care. All they want to do is buy them. It has been 7 
years now. So can you give the cabin owners, and some who want 
to own cabins, some assurance here?
    Mr. Woodley. I share your concern about that, Senator. We 
have a process. We need to work it. I think we need a little 
bit of help on the funding, but we very much would like to 
complete that in the next fiscal year.
    Senator Baucus. If you could in the next fiscal year, that 
would be great. So is it 2008 you are talking about?
    Mr. Woodley. Yes, sir.
    Senator Baucus. OK. You have not made a request.
    Mr. Woodley. I think we are not funded for that, though.
    Senator Baucus. But you have not made a request for it 
either.
    Mr. Woodley. It is not a priority within the budget.
    Senator Baucus. Well, can you make it one?
    Mr. Woodley. I will make it a priority within the program.
    Senator Baucus. Let's get it in the budget.
    Mr. Woodley. If we can achieve some consensus.
    Senator Baucus. You have not gone to Shanghai. Have you 
gone up to Fort Peck?
    Mr. Woodley. I have, sir. Yes.
    Senator Baucus. Have you seen the cabins there?
    Mr. Woodley. I did not. I visited the visitors center.
    Senator Baucus. There are people currently with leases who 
want to buy them.
    Mr. Woodley. Yes, sir.
    Senator Baucus. Well, if you could just look in their eyes, 
you would want to do something.
    Thank you very much.
    Senator Isakson, any questions?
    Senator Isakson. No. Thank you.
    Senator Baucus. Thank you, Mr. Secretary.
    Mr. Woodley. Thank you.
    Senator Baucus. Oh, sorry.
    Senator Whitehouse?
    Senator Whitehouse. Thank you.
    I just wanted to thank Secretary Woodley for accompanying 
the committee members who took the tour down to New Orleans to 
see the damage that had been sustained and the unfortunate rate 
of progress in rebuilding that was demonstrated to us. It was 
good for us to have you there, and I very much appreciated that 
you took the trouble.
    One quick and very local matter I would love to have you 
take a look at and get back to me on. We have done considerable 
work on dredging in Rhode Island. As a result, a lot of the 
private marinas have gone in and dredged in order to be able to 
accommodate the slips and so forth that they have authorization 
to maintain, but they don't have the depth to effectively moor 
boats there.
    They have done it, and considerable money has been spent, 
but what has not been done is the channels dredged that will 
allow those marinas to have access to the main channel. So they 
are hemmed in right now and sort of locked in by a wall of mud 
that needs to be moved. We would love to have your attention to 
that and work out a plan so that the private investment that 
has been made by these marinas in the hope and expectation that 
they would be connected to the wider ocean with an appropriate 
level of channel can be performed.
    Mr. Woodley. Thank you, Senator. That is a constant problem 
within our program. We are underfunded for harbor maintenance 
in general. We are working on it, as I mentioned earlier. I 
intend to work very hard over the next year to find a way to 
improve that situation.
    Senator Whitehouse. It is particularly tough when small 
business owners, marina owners are not gigantic corporations. 
They are people who really are making their livelihood in a 
very, very difficult way, a lot of hard work, a seasonal 
business. For them to put the kind of money that they have into 
the dredging that they have had to do, and then find that they 
can't be connected to the waterways of Rhode Island is a very 
great disappointment to them.
    Senator Baucus. Thank you, Senator, very much.
    And thank you both very, very much. Thank you, General. I 
know how hard you work. I appreciate it very much. Thank you.
    OK, next panel.
    Ms. Pam Pogue is hazards program manager for the Rhode 
Island Emergency Management Agency. Mr. Doug Marchand is 
executive director of the Georgia Ports Authority. Did I get 
that correct?
    Mr. Marchand. You got it right.
    Senator Baucus. Good. Thank you.
    And Mr. Jamie Williams who is State Director of GNC of 
Montana and also with the Nature Conservancy of Montana.
    OK, Ms. Pogue, why don't you begin? Go ahead.

   STATEMENT OF PAMELA POGUE, HAZARDS PROGRAM MANAGER, RHODE 
     ISLAND EMERGENCY MANAGEMENT AGENCY, ON BEHALF OF THE 
         ASSOCIATION OF STATE FLOODPLAIN MANAGERS, INC.

    Ms. Pogue. I would like to thank Chairman Baucus and 
Senator Isakson, as well as Madam Chairman Boxer and Senator 
Inhofe, for inviting me to testify today. We look forward to 
working with you to develop a much more effective approach to 
flood risk identification and damage reduction.
    My name is Pam Pogue, and I am the chair of the Association 
of State Floodplain Managers. My other job is the State 
Floodplain and disaster manager for the State of Rhode Island.
    We appreciate the initiative of this committee under the 
strong leadership of Madam Chairwoman Boxer. ASFPM supports the 
Water Resources Development Act in general, but we would like 
to provide you with some suggestions on how we feel it can be 
better strengthened.
    Due to my time limit of a 5-minute sound bite, I am only 
going to go through only a couple of points, but as you know, 
we submitted written testimony which goes into it in much 
greater detail.
    Let me say something about ASFPM. We represent over 9,000 
individual members with 25 State chapters. We represent State 
and local officials and other professionals engaged in all 
aspects of flood loss reduction, floodplain management and 
hazard mitigation. This includes risk identification, 
management mapping, engineering, planning, community 
development, hydrology forecasting, emergency response, flood 
protection projects, and insurance much of what you guys have 
been just discussing about all morning long.
    Many of our members work in communities impacted by 
Hurricanes Katrina, Rita and Wilma, and we work with 
organizations assisting those communities to rebuild. All ASFPM 
members are concerned with working to reduce our Nation's 
flood-related losses and in rebuilding a safer, more resilient 
community. Our State and local officials are the Federal 
Government's partners in implementing programs and working to 
achieve effectiveness in flood loss reduction.
    I would like to initiate, or basically speak on only three 
points right now in the next probably 3\1/2\ minutes.
    No. 1, there is a great need for a paradigm shift in how 
this Nation deals and manages with flood risk. No. 2, in the 
shorter term, we must address the consequences to our Nation 
lacking a comprehensive approach to levee safety. Finally, we 
must and would like to identify budget priorities for WRDA, the 
Corps of Engineers' programs for this fiscal year 2007-2008.
    On the first point, we must change how the Nation manages 
flood risk. A paradigm shift is needed to place more 
responsibility on States. The catastrophic events of 2005 
affecting most of the Gulf and Southeast Coast and the 
increasing flood damage elsewhere in this Nation are reminders 
that we continue to be susceptible to natural hazards, 
especially flooding.
    We must have programs, policies and initiatives that can 
adequately handle these events, efficiently use taxpayer money, 
and build resilient communities with a more sustainable future. 
Nothing less than our Nation's prosperity and viability are at 
stake.
    Yet despite the 75 years of water resources and floodplain 
management policy, simply stated, Katrina showed us and it 
dramatically demonstrated it is just not working. What basic 
programmatic changes have taken place in the last year and a 
half to address the devastating impacts from Katrina? From 
Rita? From Wilma? Nothing.
    One of the most devastating natural disasters in our time, 
Hurricane Katrina, ravaged our community business districts, 
waterways, neighborhoods, critical facilities, natural 
resources, and human spirit. Yet what really has been 
accomplished, programmatically speaking, since Katrina landed 
on the shores of the Gulf Coast over 19 months ago, nearly 2 
years ago? Very little. Are we any better prepared? Are there 
any national policies, programs and initiatives that will allow 
us to be able to handle those same issues that we are so 
frightfully unprepared for? No.
    We need to change the Nation's top-down model of flood risk 
management. States should become the focal point for managing 
flood risk. The logic behind this is that in order to more 
effectively manage and reduce flood risk, we must rely on the 
authorities that are reserved solely for States under the 
Constitution, namely land use management, building codes, 
community planning for development, mitigation and resource 
protection. The ASFPM written testimony addresses in detail 
some of these principles that we speak about.
    The second point, what are the consequences to this Nation 
should we lack a comprehensive approach to levee safety? Make 
no mistake about it, the potential for levee failure with 
catastrophic consequences and human suffering is not just a New 
Orleans problem. Levees in California are a disaster waiting to 
happen, complicated, of course, by the earthquake risk. Every 
single one of these folks from their States have levees. We in 
our State have a levee that is about to be decertified.
    States do not know the magnitude of the problem we are 
facing. We don't know where the levees are. We don't know the 
physical condition of these structures, the number of people 
and structures and the critical facilities at risk behind them.
    All of this points to the need for a comprehensive levee 
safety program for the Nation and for a national inventory of 
levees.
    ASFPM believes that a properly designed State levee safety 
program is absolutely critical. The levee program must be 
integrated with State floodplain management to avoid the 
stovepiping effect we might have in other programs, which in 
the case of levee safety could effectively separate levee 
safety and the ``management'' from floodplain management.
    The effectiveness and object of this program would be to 
become not a permit function, rather but to integrate the 
management between levee safety and floodplain management.
    Finally, third point, budget priorities for the Corps of 
Engineer programs for this fiscal year. Two relatively small 
programs of the Corps of Engineers Civil Works have nationwide 
benefits. These are the Floodplain Management Services Program, 
FPMS, and the Planning Assistance to States Program. The 2008 
administrative budget request for these programs is $5.6 
million and $4.5 million respectively. These amounts represent 
a decrease or hold in these programs. Sadly, they fall short of 
the authorized level for these programs and will not allow the 
Corps to apply them in appropriate and innovative ways to 
assist communities throughout this Nation struggling with how 
we are going to address repeated flood losses, and this means 
to identify actions toward the recertification of levees within 
our own communities.
    Overall, the Association of State Floodplain Managers is 
disappointed with the budget request for FPMS and the PAS 
programs. ASFPM respectfully requests funding to the full 
authorized level to meet the current and anticipated demand for 
these programs.
    We particularly note the two events that have reinforced 
the need for these programs: Hurricanes Katrina and Rita, where 
numerous levees failed. These events have shown where these two 
programs could have been critically important to assessing the 
protection level of levees, and ultimately the risk of flooding 
behind these levees, and using that data to support accurate 
flood maps nationwide.
    The Corps of Engineers' planning assistance to State----
    Senator Baucus. I am going to have to ask you to summarize 
if you could, as well as you possibly can.
    Ms. Pogue. I have two paragraphs.
    Senator Baucus. Great.
    Ms. Pogue. OK.
    In terms of PAS, in our own State we are personally feeling 
the pain because we have had six flood events since 2003, and 
despite programs that might be available to be funded, we have 
absolutely no technical or planning experience to come up with 
projects that might mitigate future funding.
    Therefore, we would suggest the best hope is to provide 
technical assistance to the communities with the levee 
recertification program. Also, we respectfully ask that the 
committee fully support the funding for PAS to its authorized 
level of $10 million, and we would also support the President's 
budget for 2008 for $10 million for the Corps of Engineers to 
move forward with its inventory of the Nation's levees and 
their status.
    In conclusion, ASFPM has a mission to reduce the cost of 
flood damages in this Nation, which prior to 2004 and 2005 
hurricane seasons exceeded $6 billion per year. We have reached 
new thresholds. Today, we once again stand at a crossroads in 
the aftermath of a catastrophic flood disaster, with an 
opportunity to refine our Nation's policy for managing flood 
hazards.
    Thank you, sir, for the opportunity to provide our thoughts 
on these important issues. We look forward to working with you.
    [The prepared statement of Ms. Pogue follows:]
   Statement of Pamela Pogue, Hazards Program Manager, Rhode Island 
  Emergency Management Agency, on behalf of the Association of State 
                       Floodplain Managers, Inc.
                              introduction
    The catastrophic events of 2005 affecting most of the Gulf Coast 
and the increasing flood damage elsewhere in the nation are reminders 
to the nation that we are susceptible to natural hazards--especially 
flooding--and that we must have programs, policies, and institutions 
that can adequately handle these events, efficiently use taxpayer 
money, and build a more sustainable future. Nothing less than our 
nation's prosperity and viability are at stake. The Congress and this 
committee will be at the epicenter of this discussion, with an 
opportunity to make policy changes that can have importance and 
relevance far into the future.
    The Association of State Floodplain Managers, Inc. (ASFPM), and its 
25 Chapters represent over 9,000 state and local officials and other 
professionals who are engaged in all aspects of flood loss reduction 
and floodplain management and hazard mitigation, including management, 
mapping, engineering, planning, community development, hydrology, 
forecasting, emergency response, water resources projects, and 
insurance. Many of our members work with communities impacted by 
hurricanes Katrina, Rita and Wilma; or work with organizations that are 
assisting those communities in rebuilding. All ASFPM members are 
concerned with reducing our nation's flood-related losses. Our state 
and local officials are the federal government's partners in 
implementing programs and working to achieve effectiveness in meeting 
our shared objectives of reducing the suffering and costs associated 
with flooding. For more information on the Association, please visit 
http://www.floods.org.
    ASFPM has been involved in numerous national policy dialogues with 
partner organizations in the past year. These have included the Flood 
Risk Policy Summit involving 60 experts from many different groups such 
as homebuilder, realtors, lenders, environmental organizations, 
academia and others. We co-sponsored this Summit with the National 
Association of Flood and Stormwater Management Agencies (NAFSMA), with 
strong support from the Corps of Engineers and FEMA. We also 
participated in the American Water Resources Association's National 
Water Policy Dialogue; and held discussions with the leadership of 
numerous agencies, the White House and Congressional staff, researchers 
and others.
    ASFPM appreciates the leadership of this Committee, under the 
strong leadership of the Chair, Senator Boxer. The ASFPM also 
appreciates the important contributions made by Senators Russ Feingold 
and John McCain and a number of members of the Senate Environment and 
Public Works Committee to start to address the need to modernize the 
Corps planning process and to address issues raised by the systemic 
failures identified in the wake of Hurricanes Katrina and Rita. We look 
forward to working with you to develop a more effective approach to 
flood risk reduction.
    Thank you for inviting us to offer our recommendations on flood 
risk reduction. The following testimony addresses:
    a. Changing how the nation manages flood risk--the Federal/State/
local partnership
    b. The History of levees in the nation--how we got in this 
predicament
    c. Consequences to a Nation Lacking a Comprehensive Approach to 
Levee Safety
    d. The need for data showing where levees exist or the population 
at risk behind levees
    e. Overarching suggestions for Reducing Future Flood Damages caused 
when levees fail
    f. Measures to improve effectiveness of the policy nexus between 
USACE & FEMA programs
    g. Budget priorities for Corps of Engineers programs for FY 08
A. Changing how the Nation Manages Flood Risk--The Federal/State/Local 
        Partnership
    An overarching and critical issue to all our efforts as we work to 
change policies that led to the catastrophic consequences from program 
failures in Hurricane Katrina--is the understanding we need to change 
the nation's top-down model of flood risk management. One concept that 
is receiving more and more support in these discussions is to design 
the system to have states become the focal point for managing flood 
risk. The logic behind this is that in order to more effectively manage 
and reduce flood risk we must rely on authorities that are reserved to 
the states under our Constitution, namely land use management, building 
codes, and community planning for development, mitigation, and resource 
protection.
    A number of principles necessary for improved flood risk management 
have emerged, which this testimony will address:
    <bullet> Flood protection provided by levees is a double-edged 
sword, providing significant protection, but also leading to severe 
flood impacts when levees fail or are overtopped. Wise flood risk 
management must include use of a menu of floodplain management options 
and cross integration of those options.
    <bullet> The nation is urgently in need of data showing where 
levees exist, their condition and the population and critical 
facilities at risk behind those levees.
    <bullet> An effective levee safety program must be developed, 
building off the land use authorities of the states. Incentives and 
disincentives for states must be incorporated to foster action.
    <bullet> The need to periodically update and modernize the planning 
Principles and Guidelines and other critical guidance that is used to 
plan and implement water resources development projects.
    <bullet> Integrated watershed planning for water resources projects 
is essential for effective flood risk management. To accomplish this, 
states must be encouraged to play an integral role through a system of 
incentives using cost-shares and discounts.
    <bullet> The Army Corps of Engineers can play a key role in 
fostering watershed and ``bottom up'' project development by providing 
states and local jurisdictions with technical assistance and consensus 
building assistance. (See the related budget discussion on page 11).
    <bullet> For Corps projects, we must agree on a process for 
independent review of some projects that will help insure tax dollars 
are spent on appropriate, cost effective projects that reflect the true 
federal interest.
    Why aren't states and locals doing more to manage flood risk? What 
factors would encourage or induce states to step up to the plate? This 
is a critical part of the ongoing discussion. For the past 70 years, 
starting with the 1936 Flood Control Act through the 1968 National 
Flood Insurance Program Act and its reforms, along with various 
versions of the Disaster Relief Act, those national programs and 
policies have led state legislatures, Governors and local decision 
makers to believe that flooding is the problem of the federal 
government. Over the decades this has resulted in many states and 
locals putting little or no resources or effort into reducing flood 
risk, believing the federal government would bail them out after flood 
events. There are few incentives or disincentives for states and locals 
to take action on their responsibility to reduce flood risk.
    What is the appropriate model to devolve flood risk and floodplain 
management programs to the states? Almost none of the current federal 
flood risk programs are delegated to the states, and that includes 
water resource development programs, the NFIP, and flood mitigation. 
Many of these programs have some state involvement or some contractual 
arrangement with states, but do not delegate authority or decision 
making to the states. Few governors or legislatures are interested in 
those non-delegated approaches, and they continue to view such efforts 
as federal programs, and with federal disaster assistance as a backdrop 
removing the need for state or local priorities or leadership. Models 
of programs that actually delegate authority for decision making and 
funding to states include the Clean Water Act and the federal highway 
programs. Under these models, the state works with federal programs to 
reach agreement on the state-specific goals of the program, then 
designs the state program to achieve those goals. The program is not 
delegated to a state until appropriate state laws and capabilities are 
in place. The federal program then has oversight and auditing functions 
to ensure the goals are being met, and can and does withhold federal 
funds if the state does not uphold its end of the agreement.
    What incentives might be most effective? ASFPM has long advocated 
that federal programs use a sliding cost share to reward positive state 
and local actions. A sliding cost share could apply to disaster 
assistance payments, which might keep the 75 federal/25 state/local as 
a base, but the federal share could increase as states undertake more 
and more actions that will reduce their risk to flooding and other 
natural hazards. This is cost effective for the federal government 
since it reduces federal disaster assistance from many programs. The 
same sliding cost share approach could apply to water resources and 
flood mitigation projects. Another approach would be that, when states 
invest in important flood risk activities, such as flood mapping, that 
amount of money could be ``banked'' toward the non-federal share of the 
next disaster. In this way, state legislators and governors can see the 
benefit of a ``pay now or pay later'' scenario, and in the meantime 
their citizens are safer, suffer fewer flood losses and trauma, and 
future disasters are reduced. As a start, the sliding cost share could 
be linked to the Community Rating System (CRS) used in the National 
Flood Insurance Program (NFIP). The CRS program has a list of 18 
activities a state or community can undertake that go beyond national 
minimum standards that will all further flood loss reduction. Certain 
points are given for each activity, and the number of total points 
determines how much incentive is given for discounted rates. In that 
way, the federal, state and local governments will be integrating their 
actions to reduce losses, and we will be rewarding those states and 
communities who do more, instead of the current system that provides 
more federal money to those states and communities who do less to 
reduce flood risk.
B. The History of Levees in the Nation--How we got in this predicament
    Levees have existed in this nation since early times. Those early 
levees were simply mounds of dirt thrown up by farmers or property 
owners to prevent frequent flooding of their property or crops. Most of 
the population lived near rivers or the coast, since waterways were our 
highways and the rivers were our source of water for human and 
livestock consumption. The federal government got into the levee 
business in an organized way when Congress asked the Corps to become 
involved in the levees in Sacramento in 1917. The Flood Control Act of 
1936 provided authority for the Corps of Engineers to be the lead 
agency on Flood Control projects in the nation. That authority has been 
used extensively for structural projects such as levees, dams and 
channelization, which modify our natural waterway systems to 
accommodate human needs. While the Corps has authority to also perform 
non-structural projects such as elevation or relocation of at risk 
buildings, the vast majority of projects have been structural. The 
evolution of responsibility for flooding and its consequences that has 
focused on federal structural projects has led states and communities 
to view flooding as a federal problem, not a state and local problem. 
It is important all federal legislation on levees and disaster 
assistance establish a shared responsibility for damages when a levee 
fails, and for implementing a levee safety and flood mitigation 
approach.
    Thousands of miles of levees have been constructed by the Corps, 
most with a non-federal sponsor that provides cost sharing for 
construction and accepts responsibility for operation and maintenance. 
The location of those levees is known to the Corps, although many of 
them may not be in a geo-spatial database. Many other levees have been 
constructed by communities or private individuals or levee groups. We 
know where some of these are, especially those who apply for and 
participation in the Corps PL 84-99 rehabilitation program, which 
allows federal money to be used to reconstruct the levees after failure 
or damage from a storm event. Many private levees were built to protect 
farmland from frequent flooding in order to make it economic to crop 
the land. Over time, development of homes or other building has taken 
place in that area which would be inundated if those levees overtop or 
fail. Many of the property owners behind those levees may not even be 
aware the levee ``protecting'' them is poor and likely to fail.
    Levees have been built to various heights to contain storms of 
various frequencies. In the early years levees may have been built to 
contain the Probable maximum flood, the 500- or 200-year flood, etc. In 
the past few decades most levees have been ``dumbed down'' to only 
contain the 1 percent chance flood (100-year flood). That is an 
unintended consequence of combining the Corps NED policies with FEMA's 
policy for the flood insurance where areas protected by the 100-year 
flood are not required to carry flood insurance or be subject to any 
land use regulations for protection from flooding. Mapping those 
residual risk areas and requiring flood insurance in them is essential. 
Levee standards for protection on urbanized areas and critical 
facilities like hospitals, emergency operation and shelters must be 
protected to at least the 0.2 percent (500-year) flood event and in 
coastal areas a category 5 storm surge.
C. Consequences to a Nation Lacking a Comprehensive Approach to Levee 
        Safety
    We do not know the amount of population or structures at risk 
behind levees that would suffer damages or loss of life when those 
levees overtop or fail. We have no data on the population behind most 
of the levees in the nation, let alone how many of those people would 
be able to evacuate in the event that levee or floodwall overtops or 
fails during a storm event. Damage data on the cost of the structures 
or the infrastructure in those levee or floodwall inundation areas is 
needed in order to asses the exposure of the Disaster programs for both 
property damage and infrastructure.
    What is the risk associated with each levee? Risk is determined by 
multiplying the probability of failure of the levee or floodwall times 
the consequences when that levee fails. Which of our levees is high 
risk, moderate risk or low risk? We need all these answers in order to 
proceed wisely.
    Based on the data that a well designed levee inventory would 
produce, Congress can ask the agencies to design levee safety programs 
that would prioritize the nation's efforts to protect people and 
property. Without that data the size of the problem and costs of future 
events like Katrina-Rita are not known. To start fixing the problem 
before we know the magnitude or cost does not seem to be an efficient 
use of taxpayer dollars.
D. The Need for Data Showing Where Levees Exist and the Population at 
        Risk Behind Levees
    Levees can be grouped in 4 categories:
    1. Federally built and operated
    2. Federally built and locally maintained
    3. Locally built and locally maintained
    4. Privately built and hopefully maintained
    Information on Corp of Engineers constructed levees (category 1) is 
now being gathered in a geo-spatial database that can provide 
cumulative data such as miles of levee, condition of the levees, etc. 
That did not previously exist, and that data for the other classes of 
levees is more problematic, with data on even the location of private 
levees being almost non-existent.
    Data on the adequacy of the levee for (1) hydraulic capability 
(height to contain a certain level of storm) (2) structural stability 
(is it geo-technically sound and structurally stable) is similar to the 
above. Data on the population at risk when the levee overtops or floods 
or the cost of the structures and infrastructure likely to be damaged 
is also not known to any reasonable extent. The concern is that without 
this data, the Congress, the agencies, the states and communities or 
the public has any idea of the magnitude of the problem.
    ASFPM surveyed the states to determine if states had an inventory 
of levees in their state. Only two states have a geospatial data base 
of their levees, and less than a dozen have even a listing of levees 
within their states. Other data indicates less than half of the states 
have implemented their authority to regulate levee design, construction 
or maintenance of levees.
E. Overarching Suggestions for Reducing Future Flood Damages Caused 
        when Levees Fail-Key Provisions of any National Levee Inventory 
        and Safety Program
    Some basic principles should be included in addressing the levee 
problem in the nation. Those include:
    1. Congress should decide if this bill should focus first on an 
inventory of levees so that we have enough data to determine the 
magnitude and potential solutions to the problem. Subsequent 
legislation could then design a levee safety program based on the data. 
We recommend you consider this approach.
    2. The federal government (Corps of Engineers as lead) should 
develop the initial levee inventory in cooperation with states, which 
must collaborate with local and regional entities in their state.
    3. Any long term levee program must use the states as a focal 
point. States are the only entity that has authority to regulate the 
design, construction, operation and maintenance of levees. The federal 
government can encourage those things and offer incentives, but cannot 
mandate it.
    4. Incentives must be built into the program to encourage states to 
undertake levee safety programs in conjunction with their regional and 
local governments. Monies states spend on effective levee safety 
programs will result in reduced federal tax spending for disaster 
relief. Thus, incentives could consider that appropriate state expenses 
could be banked against the non federal share of future disaster costs 
in that state.
    5. Guidance must be developed that establishes criteria and 
definitions for high, moderate and low risk levees in order to set 
priorities for the assessment and future mitigation actions.
    6. The federal government should not be performing detailed 
engineering analysis of levees or designing engineering remedies for 
non-federal levees. That is the function of levee owners and sponsors.
    7. The levee inventory and any follow up assessment and levee 
safety program must be clearly coordinated with related mitigation 
programs of the Corps of Engineers and other federal agencies such as 
FEMA, NRCS, Bureau of Reclamation, etc. and especially with the flood 
mapping programs of FEMA. Additionally this program must be done in 
collaboration with state programs, which in turn must involve regional 
and local related programs.
    8. Federal and State policy groups and Boards must be charged with 
recommending appropriate levee standards for various levees in the 
nation. Those standards must be improved to use 500-year levees for 
protecting urban areas and critical facilities. This moves from the 
current 1 percent (100-year) standard generally used, which is 
inadequate for protecting highly urbanized areas or for critical 
facilities like hospitals, drinking water, fire stations, etc.
    9. ASFPM finds that future flood losses can be reduced if levees 
are never used to protect undeveloped land. Levees may be a viable last 
resort option for mitigating damages to existing urbanized areas if 
properly designed, constructed, operated and maintained, but only if 
proper warning and evacuation procedures can assure protection of lives 
for those living at risk behind those levees.
F. Measures To Improve Effectiveness of the Policy Nexus between Corps 
        of Engineers and FEMA programs
    There are a number of places where policies of the Corps and FEMA 
intersect. As explained above in the discussion of levee risk, 
sometimes those policy nexus results in unintended negative 
consequences. In addition to those mentioned above, the following 
suggestions come from the Flood Risk Policy Summit this past December 
involving many experts representing various interests:
    <bullet> Public safety must become a default standard in 
determining the design of and priorities for flood mitigation projects 
above and beyond the benefit/cost analysis and any other objectives in 
the NED or Principles and Guidelines.--We cannot in good conscious be 
designing and building flood mitigation projects with Federal tax 
dollars that result in (avoidable) loss of life.
        <bullet> Levees must be designed to protect urban areas and 
        critical facilities to the 500-year flood
    <bullet> Federal monies should not place people and structures at 
risk, nor contribute to the increased flood risk of other structures 
and people.--Many agencies will spend billions of taxpayer's monies in 
our efforts to rebuild the Gulf coast. This includes the Corps of 
Engineers, FEMA, HUD, EDA, EPA and DOT. It is imperative those agencies 
do not increase flood risk, or cause flood risk to be transferred to 
others through their actions. Federal Executive Order #11988 directs 
all federal agencies to analyze their actions to avoid increasing flood 
risk as they assist to build, finance or provide technical assistance. 
We urge this Subcommittee to condition each program authorization on 
compliance with this Executive Order.
    <bullet> Operation and Maintenance of flood control structures must 
be ensured through strong federal and state oversight.--No federal 
assistance for flood control structures should be provided without 
upfront assurance of financial capability for ongoing O&M of the 
structure.
    <bullet> The O&M requirements of the PL 84-99 program must be tied 
to the criteria for certifying levees under FEMA's flood mapping 
program.
    <bullet> Identify residual risk structures and lands that will be 
flooded when levees fail or overtop; and require flood insurance for 
structures in those areas.
    <bullet> Integrate planning and program requirements for flood 
mitigation and water resource planning and projects between the two 
agencies, using holistic, watershed approaches.
    <bullet> Require a level of protection commensurate with the risk--
in the Corps and FEMA programs the map and manage flood risk, 
especially for flood control structures where the consequence of 
failure is catastrophic.
    <bullet> Flood control structures should not be built with federal 
dollars in communities which do not join the National Flood Insurance 
Program, nor should those communities be eligible for federal disaster 
assistance for damage to public infrastructure.
    <bullet> Levees should be considered an option of last resort and 
used only to protect existing communities. Levees should not be used to 
protect undeveloped land with the speculation new development will be 
placed at risk behind those levees.
G. Budget Priorities for Corps of Engineers Programs for FY 08
    Two relatively small programs of the Corps of Engineers Civil Works 
Program have nationwide benefits--these are the Floodplain Management 
Services Program (FPMS) and Planning Assistance to States Program 
(PAS). The 2007 budget request for these programs is $5.6 million and 
$4.5 million respectively. These amounts represent a decrease or hold 
in these programs. Sadly they fall far short of the authorized level 
for these programs and will not allow the Corps to apply them in 
appropriate and innovative ways to assist with recovery needs in the 
Gulf Coast region and throughout the Nation. ASFPM respectfully 
requests funding to the full authorized levels to meet the current and 
anticipated demand for these programs.
    Overall, he Association of State Floodplain Managers is 
disappointed with the budget request for the FPMS and PAS programs. We 
particularly note that two events have reinforced the need for these 
programs--Hurricanes Katrina/Rita, where numerous levees failed and the 
efforts to modernize the nation's flood maps. Combined, these events 
have shown where FPMS and MS could be critically important--through 
assessing the protection level of levees, and ultimately the risk of 
flooding behind levees, and use that data to support accurate flood 
maps nationwide. Communities who face the threat of having their levees 
decertified need technical assistance to explore their flood mitigation 
options related to those levees. The FPMS program provides support and 
the ability of Corps stair to travel to and assist those communities. 
However, proposed funding levels will not even meet current needs 
expressed by states and communities for technical assistance from the 
Corps.
    <bullet> The best hope for providing technical assistance to 
communities with levees that must be certified for flood mapping and 
compliance with Operation and Maintenance (O&M) criteria rests with 
adequately funding the FPMS and PAS programs.
                 floodplain management services program
    The Corps of Engineers Flood Plain Management Services Program is a 
Continuing Authority program authorized under Section 206 of the 1960 
Flood Control Act. The program provides funding to each district office 
to provide coordination with States, local communities, Native American 
Tribes and other entities. Coordination and technical assistance is 
provided to assure wise use of the nations flood plains for new 
development and assistance in mitigating future flood hazards.
    The program also provides for specific special studies for a wide 
range of flood related projects. Typical special studies would include 
flood plain analyses for communities where there is no existing data, 
flood preparedness plans, hazard mitigation plans and flood mitigation 
conceptual plans where other Corps programs are not justified. These 
studies generally promote a more non structural approach to flood 
hazard mitigation.
    Based on discussions with communities there is a huge increase in 
interest brought on by the Gulf Coast hurricanes. All communities are 
extremely concerned about reevaluating their flood risk and many are 
requesting levee certification. This request is important in two 
aspects. First, as a nation, we do not even have a complete inventory 
of levees and also do not know the safety level that these levees 
provide. Second, providing technical assistance with certification of 
levees in the Gulf Coast and throughout the nation (the State of 
California is currently facing significant issues with levees and 
certification) will help communities and states determine where future 
needs are and improve the quality of our nations flood maps. Without 
counting levee certification the Corps FPMS program needs could be over 
$20 million in FY 07.
    <bullet> ASFPM urges the Committee to prove for the full 
authorization of the FPMS program to $15 million in FY 08, and to 
consider a substantial increase in the annual authorization ceiling for 
this program to at least $50 million in the upcoming WRDA.
    <bullet> ASSFPM urges the Committee to direct the Corps to explore 
how it can utilize the FPMS program to assist communities and states to 
evaluate existing levees and assist with certification of them as 
safely providing protecting to a specific flood level. Additionally the 
Corps should he encouraged to work closely with FEMA to utilize this 
information to help develop more accurate flood maps for the nation 
that reflect the location and safety level of existing levees.
                 planning assistance to states program
    Section 22 of the Water Resources Development Act (WRDA) of 1974. 
as amended, provides authority for the Corps of Engineers to assist the 
States, local governments, and other non-Federal entities, in the 
preparation of comprehensive plans for the development, utilization, 
and conservation of water and related land resources. Federal 
allotments for each State or Tribe from the nation-wide appropriation 
are limited to $500,000 annually, but typically are much less. 
Individual studies, of which there may be more than one per State or 
Tribe per year, generally cost $25,000 to $75,000.
    One innovative use of PAS funds is currently occurring in Ohio 
where the Huntington District has initiated a project called the Silver 
Jackets that is focusing on comprehensive solutions to flooding issues 
through the coordination of federal agencies and pooling of resources. 
Currently, the City of Marietta is a pilot community which was flooded 
severely in September 2004 and then again in January 2005. One of the 
needs identified is to do a comprehensive risk assessment and 
vulnerability analysis on flood prone structures in the downtown area 
and suggest some possible non-structural and structural solutions to 
mitigate against future flooding. It is important to note this effort 
employs a comprehensive planning process to involve all sectors of the 
public and is led by the community.
    Every year there are more requests for PAS assistance than funds 
appropriated leaving many needs unmet.
    <bullet> ASFPM urges the Committee to fully fund PAS at its 
authorized level of $10 million and also to consider an increase in 
this program's annual authorization ceiling to at least $30
    <bullet> The ASFPM supports the President's budget for FY 2008 of 
$10 million for the Corps of Engineers to move forward with its 
inventory of the nation's levees and their status.
                               conclusion
    The ASFPM has a mission to reduce the costs of flood damages in the 
nation, which prior to the 2004 and 2005 hurricane seasons exceeded $6 
billion/year. Today, we once again stand at a crossroads--in the 
aftermath of a catastrophic flood disaster with an opportunity to 
refine our nation's policy for managing flood hazards. Thank you for 
the opportunity to provide our thoughts on these important issues. The 
ASFPM and its members look forward to working with you as we move 
towards a common goal of reducing flood losses. For more information, 
please contact:
    Larry Larson, ASFPM Executive Director, (608) 274-0123, 
(<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2844495a5a51684e4447474c5b06475a4f">[email&#160;protected]</a>) or Pamela Pogue, ASFPM Chair, (401) 946-9996 
(<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="fe8e9f93d08e91998b9bbe8b8dd09f8c9387d0939792">[email&#160;protected]</a>).
                                 ______
                                 
 Response by Pamela Pogue to an Additional Question from Senator Inhofe
    Question. I noticed that one of your recommendations for a levee 
safety program is that the Federal Government should NOT perform 
detailed engineering analysis of levees or design engineering remedies 
for non-Federal levees. As a staunch proponent of limited government, I 
tend to agree with that position. Last year when we were developing our 
Senate levee safety program provision, however, I was persuaded to 
include language directing the Corps to perform the first round of 
assessments for all levees, not just Corps or other Federal levees. I 
insisted that all subsequent rounds for non-Federal levees would be the 
responsibility of the states, though. Could you please expand a bit on 
why you believe the Federal Government should not be involved in even 
these initial assessments?
    Response. ASFPM has a position that the cost of performing detailed 
engineering analysis of existing levees is the responsibility of the 
owners of those levees. Where the owner is the Federal Government, the 
Corps of Engineers should perform those analyses. Where the owner is a 
non-Federal sponsor, the owner should be responsible for those 
analyses.
    Our logic is that these non-Federal sponsors chose the levee as 
their mitigation approach. Federal programs of a number of agencies 
cost share mitigation approaches, which can include acquisition and 
relocation of structures out of flood hazard areas, elevation of 
structures above the predicted 100-year flood level, floodproofing of 
individual structures; or a levee. No matter which option a community 
chooses, the cost of operating and maintaining that mitigation option 
is the responsibility of the non-Federal sponsor or partner.
    Communities who choose elevation, relocation or other options do 
not come back to the Federal Government seeking future costs to operate 
or maintain their selected option, and neither should communities who 
choose levees as their option. The community signed an agreement at the 
time the levee was constructed that they would be responsible for 
future operation and maintenance of the levee. Determining whether the 
levee is adequate to provide the protection it was designed for is part 
of that O&M. As such, the levee owner should be responsible for the 
detailed engineering analysis.

    Senator Baucus. Thank you. Thank you very much.
    Mr. Marchand.

  STATEMENT OF DOUG J. MARCHAND, EXECUTIVE DIRECTOR, GEORGIA 
PORTS AUTHORITY, ON BEHALF OF THE AMERICAN ASSOCIATION OF PORT 
                          AUTHORITIES

    Mr. Marchand. Thank you.
    Mr. Chairman, Ranking Member Senator Isakson, and 
subcommittee members----
    Senator Baucus. I don't know if your microphone is on. Is 
there a button there or something?
    Mr. Marchand. There it is. Got it.
    Senator Baucus. Good. Thank you.
    Mr. Marchand. I am extremely grateful for the invitation to 
appear today, and also for the determination of the 
subcommittee to move forward with enactment of the Water 
Resources Development Act.
    And thank you, Senator Isakson, for your hard work for our 
ports, going back to your earliest days in the Georgia General 
Assembly.
    Mr. Chairman, the Georgia Ports Authority is one of the few 
public ports in the Nation which both owns and operates our 
port property and facilities. We have enjoyed historic 
increases in ocean commerce. Savannah is now the second largest 
container port on the East Coast, and the fourth largest in the 
Nation.
    What distinguishes port operations in Georgia and the 
entire Nation is that how well we do our job has a direct and 
immediate impact on how well others can do theirs. If American 
businesses large or small are expected to stimulate new 
employment and generate increased tax revenues through world 
trade, then our ports must be a leader in productivity and 
efficiency.
    Our biggest barrier to increased efficiency in the maritime 
transportation system is the shortfall of Federal resources. 
This includes lack of assurance of adequate channel maintenance 
dredging and the lack of sufficient authorization and funding 
for new projects to modernize our harbor channels.
    Here are my suggestions: pass WRDA. It is a roadmap for the 
future of marine transportation and the key to improving 
productivity and lowering transportation costs. When it moves 
in orderly fashion, roughly every 2 years, it gives direction, 
commitment and accountability. So pass WRDA, even if it is not 
the perfect bill that we would all aspire to have.
    Do not think that by delaying WRDA, as has been done for 
more than 6 years now, you are simply putting off problems to 
another year. Delay actually creates new problems, while not 
resolving the old. It sows the seeds of doubt, confusion and 
inflation-driven higher cost. We need a tough system to 
guarantee wise stewardship of tax dollars and wise stewardship 
of our environment.
    But the system must be free of conflicting regulations and 
repetitive layers of review. An example of the glacial pace of 
action is the reconnaissance study for the Savannah Harbor 
expansion project, our pending harbor deepening project. A 
Federal interest for deepening was established in 1996. Eleven 
years and almost $30 million in State-funded studies later, the 
draft report is not slated to be out for public review until 
January 2008.
    Mr. Chairman, it should not take a dozen years to do a 
study to deepen an existing channel. Either spend the money in 
the Harbor Maintenance Trust Fund or dissolve the fund. That 
fund, as you are aware, contains more than $3 billion. We have 
a documented core capability for fiscal year 2008 of as much as 
$1.3 billion. But the request for appropriations in fiscal year 
2008 for operations and maintenance is only $735 million. In 
the words of my colleague, Warren McCrimmon of the Toledo-Lucas 
County Port Authority, we ought to put the ``trust'' back in 
the trust fund, or make the tax go away.
    Third, modernize the Corps of Engineers and its work 
process. The American Association of Port Authorities has 
identified several proposals to do that. These recommendations 
range from revising the cost sharing formula for deep draft 
harbor projects, to providing a more accurate assessment of the 
true costs and benefits of the Corps' dredge fleet.
    Mr. Chairman, with your permission, I ask that along with 
my statement, your record include a fact sheet from the 
American Association of Port Authorities on WRDA, with all of 
their recommendations, as well as recent testimony in the House 
on behalf of AAPA concerning port needs and dredging 
requirements.
    Senator Baucus. Without objection.
    [The referenced documents follow on page 115.]
    Mr. Marchand. Finally, Mr. Chairman, in this room I know I 
am preaching to the choir, but more of your colleagues need to 
recognize that river and harbor development is not a luxury in 
the new millennium. It is the blood supply for the growth of 
our economy and all of the economic opportunities and benefits 
that come with international trade. We need your help.
    Thank you for your time and the honor of being here with 
you today.
    [The prepared statement of Mr. Marchand follows:]

   Statement of Doug J. Marchand, Executive Director, Georgia Ports 
  Authority, on Behalf of the American Association of Port Authorities

    Mr. Chairman, Ranking Member Senator Isakson, and 
subcommittee members, I am Doug Marchand, Executive Director of 
the Georgia Ports Authority. I am very grateful for your 
invitation to appear today, and also for the determination of 
the subcommittee to move forward with enactment of the Water 
Resources Development Act.
    First, if I may display a little home state bias, I also 
would like to thank you, Senator Isakson, for your tireless 
work and interest in behalf of our ports going back many, many 
years. That work began in your days with the Georgia General 
Assembly, then in the U.S. House of Representatives, and now in 
the U.S. Senate.
    Although you represented an urban District in the Atlanta 
area in both the state legislature and the U.S. House, you have 
always looked beyond the borders of your District to help our 
ports time and time again. We very much appreciate your 
commitment, and I can attest to the fact that you and Senator 
Chambliss speak with the voice of authority in this and many 
other arenas of policy.
    Mr. Chairman, the Georgia Ports Authority is one of the few 
public authorities in the nation in which we both own and 
operate our port property and facilities. This gives us a 
unique vantage point from which to survey the challenges and 
opportunities of modern ocean commerce.
    Savannah is the second largest container port on the East 
Coast, and the fourth largest in the nation. In the 5-year 
period from 2001 to 2006, Savannah has experienced 100 percent 
growth, making it the fastest growing container port in the 
nation. Our Port of Brunswick is the sixth largest auto port in 
the nation. The Georgia Ports Authority directly employs 870 
people, and Georgia maritime activities support more than 
275,000 jobs in the state, contribute some $10.8 billion in 
income, $35.4 billion in revenue, and $1.4 billion in State and 
local taxes each year.
    As the subcommittee well knows, this is a complicated 
business with many moving parts: ocean commerce handles 99 
percent of our nation's overseas trade by volume, it operates 
within a complex web of local, state, and federal regulations, 
and it is on the front lines of homeland security in the post-
9/11 world.
    What distinguishes port operations in our economy is that 
how well we do our job has a direct and immediate impact on how 
well others can do theirs. If American businesses--large or 
small--are expected to stimulate new employment, and generate 
increased tax revenues through world trade--then our ports must 
be a leader in productivity and efficiency.
    I must say, however, that the biggest barrier to increased 
efficiency in the maritime transportation system is the 
shortfall and uncertainty of federal resources. That includes 
the lack of assurance of adequate channel maintenance dredging, 
and the lack of sufficient authorization and funding for new 
projects to modernize our harbor channels. That is why the 
pending WRDA authorization, and full and fair appropriations 
for Fiscal Year 2008, are so important.
    Here are my key points:
    <bullet> Pass WRDA. It is the road map for the future of 
marine transportation, and the key to improving productivity 
and lowering transportation costs. When it moves in orderly 
fashion--every 2 years--it gives direction, commitment and 
accountability. So pass WRDA, even if it is not the perfect 
bill that we would all aspire to have.
    <bullet> Do not think that by delaying WRDA--as has been 
done for more than 6 years now--you are simply putting off 
problems to another year. Delay actually causes new problems 
while not resolving the old. It sows the seeds of doubt, 
confusion, and inflation-driven higher costs. And it increases 
daily operating costs. For example, according to the U.S. Army 
Corps of Engineers, more than 30 percent of the 95,000 vessels 
that call at U.S. ports each year are light loaded. We need a 
system that protects the environment and assures the cost 
effectiveness of projects, but not a system that creates 
conflicting regulations and repetitive layers of review. A 
Reconnaissance Study for the Savannah Harbor Expansion 
Project--our pending harbor deepening project--identified a 
federal interest for deepening in 1996. After 11 years and 
almost $30 million in largely state-funded studies since then, 
the draft report is not slated to be out for public review 
until January 2008. Let me emphasize that most of the funding 
for this study has been advanced by the State of Georgia, so we 
have not been waiting on Federal appropriations--we have been 
waiting to get every block checked in the study requirements. 
Mr. Chairman, it should not take a dozen years to do a careful 
study of deepening an existing channel.
    <bullet> Either spend the money in the Harbor Maintenance 
Trust Fund, or dissolve the fund. As you know, that fund 
currently contains more than $3 billion. We have a documented 
Corps capability for Fiscal Year 2008 of as much as $1.3 
billion, but the request for appropriations in FY 2008 for 
operations and maintenance is only $735 million. In the words 
of my colleague Warren D. McCrimmon of the Toledo-Lucas County 
Port Authority, ``we ought to put the trust back in the trust 
fund, or make the tax go away.''
    <bullet> Modernize the Corps of Engineers. The American 
Association of Port Authorities has identified several 
proposals to do that: improve partnership relationships between 
the Corps and local sponsors; revise the WRDA 1986 definition 
of deep-draft harbor and cost sharing formula to reflect the 
changes that have taken place in the world cargo fleet, and 
thus make the federal-local cost share more equitable; provide 
credit for in-kind work during construction; give ports broad 
authority to levy fees for raising the local share of federal 
dredging; give the Corps direction to exercise its authority to 
direct that removal and/or relocation of utilities within 
navigation channels at 100 percent of the owner's expense; and 
provide language to allow ports to purchase, as an allowable 
project cost, indemnification insurance for both the federal 
government and local sponsors. Finally, I also support the AAPA 
initiative to have greater freedom in the operation of the 
Corps dredge fleet to permit an accurate assessment of the 
fleet's true costs and benefits.
    <bullet> Pass the appropriations bills, and pass them at an 
adequate level to get the job done. I know that appropriations 
are not a matter under the direct control of this subcommittee 
and full committee, but without the orderly flow of funding, we 
tie our port system in knots, we unduly burden the Corps of 
Engineers and local sponsors, and we increase costs.
    In this room I am preaching to the choir, but more of your 
colleagues need to recognize that river and harbor development 
is not a luxury in this new millennium--it is the blood supply 
for the growth of our economy and all of the economic 
opportunities and benefits that come with international trade.
    I applaud the subcommittee for moving out early in this 
session to bring the bill to a vote in committee and in the 
Senate. I urge the House to follow your lead in moving forward, 
and I urge both bodies to give your very best effort to 
resolving disagreements and move to enactment.
    Finally, Mr. Chairman, with your permission, I ask that 
along with my statement, your record include a fact sheet from 
the American Association of Port Authorities on WRDA, as well 
as Warren McCrimmon's recent testimony in the House on behalf 
of AAPA concerning port needs and dredging requirements. Thank 
you for your time and the honor of being with you this morning.

    Senator Isakson. Mr. Chairman, I want to apologize to Mr. 
Williams. I have a 12 o'clock appointment that I cannot miss. 
So when I get ready to get up, which is right now, and leave, 
it is not because I don't want to hear your testimony. I read 
your brochure on the Penobscot River in Maine, and your 
testimony. We appreciate very much the contribution of the 
Conservancy, in particular to the Chattahoochee National River 
Forest effort in Atlanta, GA, which is now the largest urban 
river park in America. So thank you, and I apologize I cannot 
stay.
    Doug, thank you very much for what you and Senator 
Mattingly are doing for our State. We appreciate your being 
here to testify today.
    Ms. Pogue, likely as well. We appreciate your being here.
    Thank you, Mr. Chairman.
    Senator Baucus. You bet. Thank you, Senator.
    Mr. Williams.

    STATEMENT OF JAMIE WILLIAMS, STATE DIRECTOR, THE NATURE 
                     CONSERVANCY OF MONTANA

    Mr. Williams. Mr. Chairman and members of the subcommittee, 
thank you for the opportunity to testify before you today. 
Again, I am Jamie Williams, State Director for the Nature 
Conservancy of Montana, as you well know. I am here to provide 
the subcommittee with my perspective on some ecosystem 
restoration successes with the Corps of Engineers, and to offer 
some suggestions on legislative and funding needs, with the 
strong hopes that WRDA passes this year.
    The Nature Conservancy is dedicated to the conservation of 
ecologically important places for nature and people. Our on the 
ground conservation work is carried out in all 50 States and 30 
foreign countries. In Montana, we have a 30-year track record 
of helping local landowners and communities sustain Montana's 
working landscape, legendary wildlife, free-flowing rivers, and 
recreational access--all of which, as you well know, Mr. 
Chairman, is so central to Montana's special quality of life.
    The Corps of Engineers has been the key conservation 
partner for the Nature Conservancy, as we have expanded our 
efforts to restore large ecosystems such as the Upper 
Mississippi River, the Everglades, as well as many numerous 
smaller projects.
    Drawing on this experience, I would like to share two 
success stories that demonstrate how we can meet the Nation's 
most challenging environmental problems, while also providing 
for flood control, irrigation, navigation and other water 
resource needs.
    The Yellowstone River is one of the Conservancy's top 
conservation priorities in Montana. It is the longest remaining 
free-flowing river in the lower 48 States. The 671-mile-long 
Yellowstone is a rare model of the structure and function of 
large Western rivers. It continues to support extensive 
cottonwood forests and over 60 fish species, including a small 
population of pallid sturgeon, one of the last strongholds in 
the Missouri River Basin.
    Just 70 miles above the river's mouth, however, lies a low-
head diversion dam called Intake Dam. While critical for 
irrigation, Intake Dam prevents the Yellowstone's warm water 
fish species from reaching their native spawning grounds 
upstream. With only about 350 pallid sturgeon left in the Upper 
Missouri, fixing Intake is the keystone to their recovery in 
the Upper Basin.
    To this end, the Nature Conservancy has been involved with 
a tremendous collaborative effort with the Army Corps of 
Engineers, the Bureau of Reclamation, the U.S. Fish and 
Wildlife Service, Montana Fish Wildlife and Parks, Montana's 
Governor and congressional delegation, and most importantly the 
Lower Yellowstone Irrigation Districts, to find a way of 
providing fish passage at Intake, while ensuring continued 
water delivery to over 52,000 acres of irrigated agricultural 
land which is key to Montana's sugar beet industry.
    After studying many alternatives, a plan was developed to 
retrofit Intake Dam with a long rock ramp that will not only 
allow for fish passage, but also upgrade a deteriorating 
century old dam, ensuring water delivery for the next century. 
The project also complements other local efforts already 
underway upstream on one of the Yellowstone's key tributaries, 
the Tounge River, to modify three irrigation structures with 
``fish friendly'' management. Once completed, the Intake 
project would immediately reopen 167 miles of spawning habitat 
on the Yellowstone, and another 375 miles of major tributaries, 
providing the best and cheapest alternative to restore these 
fish in the Upper Basin.
    The project represents a creative way to meet restoration 
and economic needs, and has very broad local, State and Federal 
support.
    The Conservancy is also a partner on the Hamilton City 
Flood Damage Reduction and Ecosystem Restoration Project in 
California, which is a model for meeting both human and 
ecosystem needs. Hamilton City is located on the Sacramento 
River, the largest river in California.
    Historically, the river was lined by 800,000 acres of 
riparian habitat, over 90 percent of which has been lost. 
Hamilton City and surrounding agricultural lands are only 
marginally protected from flooding by a degraded private levee 
called the ``J'' Levee. As a result, Hamilton City has been 
evacuated due to flooding six times in the last 20 years.
    For over 25 years, the community has attempted 
unsuccessfully to secure Federal engagement in efforts to 
reduce their risk of flooding. It was not until habitat 
restoration was incorporated into the project that the cost-
benefit ratio justified Federal participation. When complete, 
this project will replace the existing ``J'' Levee with a 
structurally sound setback and reconnect 1,500 acres of 
floodplain to the Sacramento River. By meeting the flood 
control needs of the community, while restoring riparian 
habitat to the river processes, this innovative effort, which 
enjoys broad bipartisan support, is a true win-win.
    While the Corps has been an excellent and willing partner 
on the projects I have just described, policy and fundraising 
constraints threaten the success of these and many other 
important restoration efforts. We recognize that tight budgets 
require difficult funding decisions, but with that said, the 
Conservancy believes that Congress must make ecosystem 
restoration a top water resource funding priority.
    In addition, many of our projects, including our work on 
the Yellowstone and the Sacramento River I just described, are 
awaiting authorization in WRDA in order to move forward.
    In conclusion, the Corps and its partners are developing 
remarkable projects that achieve significant economic and 
environmental gains, and are highly responsive to local 
interests. Congress should support this innovative work by 
passing WRDA and making ecosystem restoration a funding 
priority.
    Thank you.
    [The prepared statement of Mr. Williams follows:]
        Statement of Jamie Williams, State Director, The Nature 
                         Conservancy of Montana
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to testify on America 's Water Resources needs, and in 
particular, the ecosystem restoration needs of our country. I am Jamie 
Williams, State Director for The Nature Conservancy in Montana. My 
comments today will focus on three areas:
    <bullet> examples of successes in ecosystem restoration;
    <bullet> policy and funding needs to move forward; and
    <bullet> highlights of some of the nation's most significant 
ecosystem restoration priorities.
    The Nature Conservancy is an international, nonprofit organization 
dedicated to the conservation of biological diversity. Our mission is 
to preserve the plants, animals and natural communities that represent 
the diversity of life on Earth by protecting the lands and waters they 
need to survive. Our on-the-ground conservation work is carried out in 
all 50 states and in 30 foreign countries and is supported by 
approximately one million individual members. The Nature Conservancy 
has protected more than 117 million acres of land and 5,000 miles of 
river around the world. Our work also includes more than 100 marine 
conservation projects in 21 countries and 22 US States. In Montana, we 
have a 30-year track record of helping local landowners and communities 
sustain Montana's working landscapes, legendary wildlife, free flowing 
rivers, and recreational access--all of which are so central to Montana 
's special quality of life.
    The Conservancy owns and manages approximately 1,400 preserves 
throughout the United States--the largest private system of nature 
sanctuaries in the world. We recognize, however, that our mission 
cannot be achieved by core protected areas alone. Therefore, our 
projects increasingly seek to accommodate compatible human uses, and 
especially in the developing world, to address sustained human well-
being.
    As the Conservancy has increased its engagement in a variety of 
restoration projects ranging from large-scale efforts in the Upper 
Mississippi River and Everglades to smaller scale projects under 
continuing authority programs, the Corps has become an important 
conservation partner. By number of projects, the Conservancy is now the 
Corps' largest non-federal sponsor of ecosystem restoration projects. 
This expanding partnership is reflected in our Sustainable Rivers 
Program, a joint effort focusing on dam re-operations on 10 
ecologically significant river systems across the country. At another 
39 sites we are collaborating with the Corps under the sections 1135 
and 206 Continuing Authority Programs (CAPs), and other Corps 
authorities, to protect and restore areas of critical ecological 
concern.
                 i. successes in ecosystem restoration
    The past century has witnessed a decline in the ecological health 
of many of our nation's rivers and streams. Much of this decline is the 
unintended consequence of federal water development projects designed 
to provide public benefits such as flood control, electricity and 
irrigation. As a result, ecosystem restoration has become a critical 
component of the Corps' Civil Works mission. Drawing on the 
Conservancy's growing experience with ecosystem restoration, I would 
like to share with you three success stories that demonstrate how we 
can meet some of the nation's most challenging environmental problems 
while continuing to provide for water resource needs such as flood 
control, irrigation and navigation.
    The Yellowstone River is one of the Conservancy's top conservation 
priorities in Montana. As the longest remaining free-flowing river in 
the lower 48 States, the 671-mile Yellowstone is a rare model of the 
structure and function of large western rivers. It continues to support 
healthy riverside cottonwood forests and over 60 fish species, 
including a small population of endangered pallid sturgeon, one of the 
last strongholds in the Missouri River Basin.
    Just 70 miles above the river's mouth with the Missouri is a low-
head diversion dam, called Intake Dam. While critical for irrigation in 
the region, Intake Dam prevents the Yellowstone 's warm water fish 
species from reaching native spawning grounds upstream. There are only 
about 350 pallid sturgeon left in the upper Missouri-Yellowstone 
Recovery Area, and the Yellowstone presents the best functioning river 
system to recover this endangered fish. Right now, the fish collect at 
the base of Intake dam during their spawning run only to turn around 
without success. The sturgeon population is aging, and biologists 
estimate they only have about 10 years left to successfully reproduce 
naturally. The Conservancy has been involved with a tremendous 
collaborative effort of the U.S. Fish and Wildlife Service, the Army 
Corps of Engineers, the Bureau of Reclamation, Montana Fish Wildlife 
and Parks, Montana's Governor and Congressional delegation, and most 
importantly, the local Lower Yellowstone Irrigation Districts to find a 
way of providing fish passage at Intake while ensuring continued water 
delivery to over 55,000 acres of irrigated agricultural land critical 
to Montana's sugar beat industry.
    After studying many alternatives, a plan was developed to retrofit 
Intake dam with a long rock ramp that will not only allow for fish 
passage but also upgrade a deteriorating, century-old dam, ensuring 
water delivery for the next 100 years. The project also compliments 
other local efforts upstream on one of the Yellowstone's key 
tributaries, the Tounge River, to modify 3 irrigation structures with 
``fish friendly'' management. Once completed, the Intake project would 
immediately reopen up to 175 miles of spawning habitat on the 
Yellowstone River and another 375 miles of major tributaries once the 
Tounge projects are completed, providing the best and cheapest 
alternative to restore these fish in the Missouri Basin (see attached 
map).
    The project represents a great, creative way to meet ecosystem 
restoration and economic needs, and has very broad local, State, and 
Federal support. In fact, it has resulted in basin-wide support, which 
is remarkable given that the water politics of the Missouri River basin 
are extremely complicated. To ensure that success is realized, we urge 
Congress' continued support by providing authorizing language in WRDA 
and necessary federal funding for this project.
    The Conservancy is also a partner on the Hamilton City Flood Damage 
Reduction and Ecosystem Restoration project in California, which is a 
model for what can, and should, happen elsewhere. Hamilton City is 
located on the Sacramento River--the largest river in California, 
draining approximately 24,000 square miles and supplying 80 percent of 
the freshwater flowing into the Sacramento-San Joaquin Delta. 
Historically, the river was lined by 800,000 acres of riparian habitat. 
Over 95 percent of this habitat has been lost. The remaining mosaic of 
riparian and aquatic habitats along the Sacramento River is home to 
several listed threatened and endangered species, including neotropical 
migrant birds, all four runs of chinook salmon, and steelhead trout.
    Hamilton City and surrounding agricultural lands are only 
marginally protected from flooding by a degraded private levee (circa 
1904) called the ``J'' Levee. The ``J'' Levee does not meet any formal 
engineering standards and provides only a 66 percent chance of passing 
a 10-year flood. As a result, Hamilton City has mounted flood fights 
and has been evacuated due to flooding six times in the last 20 years. 
In the winter of 2005-2006, flood conditions prompted delivery of 
60,000 sandbags to Hamilton City. Surrounding agricultural lands also 
receive little protection from flooding.
    For over 25 years, the community attempted--unsuccessfully--to 
secure federal engagement in their efforts to reduce the risk of 
flooding to the town and the surrounding agricultural lands that are 
important to the town's economy. It was not until habitat restoration 
was incorporated into the project that the benefit of the project was 
deemed sufficient to justify the cost. Project partners collaborated to 
conduct a feasibility study, which produced a plan with broad 
bipartisan support. The plan involves construction of a new set-back 
levee and reconnection of about 1,500 acres of floodplain to the river, 
which will simultaneously facilitate restoration of riparian habitat 
and significantly enhance flood protection for the community.
    This dual purpose project has the potential to be a true ``win-
win"--by meeting the flood-control needs of the local community while 
restoring riparian habitats and natural river processes. The local 
community is working hard to uphold its part of the bargain. Its 
citizens have raised over $100,000 in donations and proceeds from 
annual levee festivals held since 1998 to contribute toward the 
project's nonfederal cost share. To continue to move forward, this 
project needs the continued support of Congress to provide federal 
funding and authorizing language in WRDA.
    Lastly, I would like to highlight an innovative and cooperative 
project to restore over 1,000 miles of river habitat on the Penobscot 
River in Maine. The Penobscot is Maine's largest river and second 
largest in New England. Historically, runs of Atlantic salmon, American 
shad, alewife and nine other migratory fish species streamed from the 
Gulf of Maine to spawning habitats up river. These native fisheries 
thrived in a complex ecosystem supported by diverse and abundant 
invertebrate life, fertile wetlands and varied spawning. However, over 
the last two centuries, construction of a series of dams along the 
river has created impassable barriers to many of these native sea-run 
fish.
    The restoration of the Penobscot River is an unprecedented effort 
to remove two dams and build a state-of-the-art fish bypass around a 
third to open up historic spawning habitat for endangered Atlantic 
salmon and six other species of sea-run fish. The seeds of the project 
were sown in 1999 when PPL Corporation (formerly Pennsylvania Power and 
Light) purchased a series of dams in Maine. PPL approached the 
Penobscot Indian Nation and several conservation organizations in hopes 
of creating a cooperative model for the dam relicensing process. The 
project is the result of a groundbreaking agreement among diverse 
parties, including PPL Corporation, the State of Maine, the Penobscot 
Indian Nation, the U.S. Department of the Interior and several 
conservation groups. An innovative part of the agreement allows the 
power company to increase energy production at five other hydro 
facilities on the river thus replacing the energy that would otherwise 
be lost from the decommissioning of three dams.
    The Penobscot River Restoration Project resolves longstanding 
disagreements over how best to restore native sea-run fish and their 
habitat while balancing the need for hydropower production. The 
environmental and economic goals of the project include restoring self-
sustaining populations of native sea-run fish, maintaining hydropower 
resources, renewing opportunities for the Penobscot Indian Nation to 
exercise sustenance fishing rights, and avoiding future uncertainties 
over regulation of the river. The project also promises to expand 
recreational fishing and boating opportunities, creating new 
opportunities for tourism and local economic growth.
    The total cost for this restoration is estimated to be $50 million. 
To date, the project has raised $7.5 million from non-federal sources 
and $4.5 million from federal sources. The President's FY08 budget 
requests at least $10 million in support of the acquisition of the dams 
and for pre- and post-removal monitoring. In addition, this project 
requires authorizing language in WRDA to enable the Corps to become a 
fully integrated partner in the restoration work.
    Much of our experience in ecosystem restoration, including our work 
on the Yellowstone, Sacramento and Penobscot Rivers, has shown how 
traditional water resource goals such as flood protection, irrigation 
and navigation can be met while providing for ecosystem needs. These 
success stories and many others like them demonstrate why ecosystem 
restoration must remain a top priority in legislation and funding.
                      ii. policy and funding needs
    While the Corps has been an excellent and willing partner on the 
projects described above, policy and funding constraints threaten the 
success of these and many other important restoration efforts. We 
recognize that in tight budget times difficult funding decisions must 
be made. With that said, we urge Congress to make the restoration of 
ecosystems that contribute to the safety, welfare and livelihoods of 
local communities one of the nation's top water resource funding 
priorities. In addition to funding needs, many projects, including the 
successes just described, are awaiting authorization in WRDA to move 
forward. To ensure that we continue to build on past successes in 
ecosystem restoration, Congress must quickly pass WRDA and return to 
the bi-annual reauthorization of this critically important legislation.
    Specific recommendations for WRDA authorization and ecosystem 
restoration funding are outlined below.
Programmatic Funding
    The Conservancy supports well-funded, robust programmatic 
authorities to restore functioning, sustainable ecosystems. However, 
funding shortfalls in existing restoration programs have hindered a 
number of our restoration projects. In addition, there are a number of 
ecosystem restoration needs that are not adequately addressed by 
current restoration authorities. We offer the following programmatic 
funding recommendations:
    Raise the programmatic funding ceilings for sections 206 and 1135 
Continuing Authority Programs (CAP) from $25 million to $100 million 
per year nationally, and the per project ceilings from $5 million to 
$10 million.
    Under the Section 1135 and 206 Continuing Authority Programs (CAP), 
the Conservancy has been the lead non-federal sponsor on 17 projects. 
These projects seek to achieve an array of ecosystem restoration goals 
ranging from coastal shoreline stabilization to fish passage and 
floodplain reconnection. CAP 1135 and 206 projects are producing many 
success stories around the country, and as a result, demand now exceeds 
even the annual authorized limits for these programs.
    Oversubscription of these programs has halted a number of projects 
that enjoy strong support from the local community and Corps District. 
In an attempt to address this problem, the FY06 Energy and Water 
appropriations bill implemented a ban on new starts and advancement of 
existing projects. Despite significant investment of both Federal and 
Conservancy resources in feasibility studies and project design, this 
situation left many of our projects languishing without funding. In 
some cases, this moratorium has forced the Conservancy's state chapters 
to either abandon work on the projects or seek other funding outside of 
the Corps budget. Increased authorization and full funding is needed to 
move these worthwhile projects forward and to continue the positive 
work that has been started under these ecosystem restoration 
authorities.
    In addition to increasing overall program funding, adjustments are 
needed to the per project funding limits under these authorities. While 
the relatively small size of CAP projects provides distinct advantages 
for the Corps and project sponsors, the typical costs associated with 
ecosystem restoration such as re-vegetation or channel reconstruction 
can easily eclipse the Federal limit of $5 million per project. 
Increasing the per project authorization to $10 million will help 
alleviate this problem.
    Create a new Small Dam Removal Continuing Authority Program 
authorized at $25 million per year.
    Currently, there are tens of thousands of small, privately-owned 
dams nationwide. These dams were built to meet public needs such as 
flood control, irrigation and hydropower. While many are still serving 
these purposes, a large number no longer perform as they were 
originally intended and many have aged beyond their planned life 
expectancy, causing safety risks for communities downstream. As we have 
learned from our work on the Yellowstone and Penobscot Rivers, many 
dams also cause ecological harm to rivers by altering the natural 
chemical, physical and biological characteristics of the waterway and 
limiting access to important habitat for a number of fish species. 
While there is often strong support for removal of small dams that have 
outlived their usefulness, a dedicated funding source for this purpose 
does not yet exist. A new small dam removal continuing authority 
program would go a long way to help to fulfill this unmet need.
    Reauthorize the Estuary Restoration Act
    In approving the Estuary Restoration Act (ERA) in 2000, Congress 
recognized the importance of a nationwide, strategic plan and multi-
level partnerships for effectively addressing the problems plaguing our 
nation's estuaries. By setting a goal to restore one million acres of 
estuary habitat by 2010, the Act encourages coordination among all 
levels of government, and engages the unique strengths of the public, 
non-profit, and private sectors.
    At this time, a number of improvements are necessary to the Act, 
including funding reauthorization for the Army Corps of Engineers, as 
well as new authority for the partner federal agencies on the Estuary 
Council the Environmental Protection Agency, National Oceanic and 
Atmospheric Administration, U.S. Fish and Wildlife Service, and U.S. 
Department of Agriculture to request funding and coordinate with the 
Army Corps through cooperative agreements to implement estuary 
restoration projects. Additionally, in order for the Estuary 
Restoration Program to become more effective, small projects language 
must be enacted to complement these cooperative agreements, thereby 
allowing projects under $1 million to move forward through the 
assistance of the partner agencies.
    The Conservancy supports the inclusion of language in this year's 
WRDA to reauthorize the Estuary Restoration Act (ERA, P.L. 106-457). We 
applaud the committee for including reauthorization language for the 
ERA in the Senate WRDA 2006 legislation, and we encourage the committee 
to support maintaining the ERA language in the WRDA 2007 legislation.
Policy Constraints
    Through our on the ground experience delivering ecosystem 
restoration projects we have identified a number of programmatic or 
policy changes that are needed to improve the implementation of these 
projects. The recommendations below will help improve efficiency and 
expedite project delivery by removing some of the policy barriers to 
successful implementation.
    Permit credit for ecosystem restoration work that is related to a 
flood control project and is locally implemented prior to project 
authorization.
    Presently, the Corps may credit non-federal sponsors for early 
implementation of flood walls, levees or other features that reduce 
flood damages if built to Corps standards and ultimately included in 
the authorized project. However, no similar authority exists for early 
implementation of floodplain or ecosystem restoration. In cases where 
flood control projects include a restoration component, allowing early 
restoration means implementation can proceed more quickly, perhaps 
accelerating the schedule by years.
    Permit NGOs to serve as the non-federal sponsor of General 
Investigations Studies
    The Nature Conservancy has been an integral partner in many 
ecosystem restoration efforts involving General Investigation studies, 
but currently, non-governmental organizations cannot serve as the non-
federal sponsor. Where the Conservancy or another NGO is the lead 
partner in an ecosystem restoration project, this policy limits the 
non-federal funding and in-kind support that can be brought to a 
project. Allowing NGOs to be non-federal sponsors will expedite project 
delivery and ensure that NGOs can continue to play an active role in 
ecosystem restoration projects.
    Permit pre-Project Cooperation Agreement (PCA) credit in the 
Section 206 and 1135 programs for necessary project elements performed 
by the non-federal sponsor.
    The PCA occurs after all of the Corps studies, planning, and 
designs are completed and the non-federal project sponsor commits to 
the non-federal share of the project. All of the Corps costs prior to 
signing the PCA are included in the cost of the project, while any work 
the non-federal sponsor does prior to the PCA is not included or 
credited. The Conservancy proposes the local Corps District be 
permitted to give cost-share credit for work undertaken by the non-
federal partner within 5 years prior to signing the PCA and after the 
initial letter of intent. This credit could include such activities as 
pre-project monitoring and restoration activities. Credit will not be 
recognized beyond the non-federal sponsor's cost share requirement and 
the Corps will not be liable for funds if the PCA is not ultimately 
signed.
    Correct unlimited liability for non-federal sponsor in Project 
Cooperation Agreements (PCA).
    Presently, PCAs permit either party to stop a project if it exceeds 
agreed project costs. The unlimited liability problem is a clause in 
the PCA that permits the District Engineer to require a project to be 
completed at statutorily required cost share for the purposes of public 
health and safety, and if the project exceeds the statutorily 
determined cap for federal share, then all additional costs become the 
responsibility of the non-federal partner. The Conservancy proposes 
that in the event that the District Engineer determines a project needs 
to be continued for the purpose of public health and safety, the non-
federal sponsor will be responsible for increased project costs up to 
20 percent over the original estimated project cost at the statutorily 
determined cost share. The Corps will assume all costs exceeding 20 
percent of the original estimated project cost, notwithstanding the 
statutorily determined federal share cap.
                 iii. ecosystem restoration priorities
    In addition to the projects highlighted above, the Conservancy is 
actively involved in a variety of restoration efforts across the 
country. As the committee evaluates the President's FY08 Budget for the 
Corps of Engineers and considers a new WRDA bill, we ask you to take 
into account these significant ecosystem restoration needs. Our top 
priorities are outlined below.
    The Conservancy has a long history of working with partners on 
conservation projects within the Upper Mississippi River and Illinois 
River basins. To further these efforts the Conservancy and the U.S. 
Army Corps of Engineers Mississippi Valley Division signed a regional 
memorandum of agreement to promote collaborative water management of 
the Mississippi River. The Conservancy's goal is to conserve and 
restore the ecological structure, function and dynamics of the Upper 
Mississippi and Illinois Rivers' basins and their diverse freshwater 
and terrestrial ecosystems. Key strategies for accomplishing this 
include naturalizing flows, restoring floodplains in these river 
valleys and promoting compatible agricultural and forestry practices 
within their basins. Two important restoration authorities are 
contributing to our restoration work in the Upper Mississippi River 
basin.
    The Upper Mississippi River System Environmental Management Program 
(EMP) is a Corps program that constructs habitat restoration projects 
and conducts long-term resource monitoring of the Upper Mississippi and 
Illinois Rivers. The EMP operates as a unique federal-state partnership 
involving five states (Illinois, Iowa, Minnesota, Missouri, and 
Wisconsin). We applaud the committee for authorizing NGOs to be non-
federal sponsors for this program in the 2006 WRDA bill, which will 
increase ecosystem restoration opportunities within the basin. We 
encourage the committee to maintain this language in this year's WRDA 
bill. The Conservancy also supports full funding of $33.2 million for 
EMP in FY 2008, an increase over the President's $23.464 million 
request.
    The Enhanced Navigation Capacity Improvements and Ecosystem 
Restoration Plan for the Upper Mississippi River and Illinois Waterway 
System is a comprehensive ecosystem restoration program that recognizes 
the Upper Mississippi and Illinois rivers as multi-purpose rivers that 
provide important economic and ecological benefits, enriching the 
quality of life for millions of people. However, regularly and at great 
cost, ecological functions and benefits have been compromised for 
economic development. This program will allow the Corps and its 
partners to begin the task of restoring the ecological health of the 
Upper Mississippi and Illinois rivers.
    The Nature Conservancy strongly supports a well-funded, robust 
ecosystem restoration program for the Upper Mississippi River basin. We 
would like to commend the Committee for including provisions in WRDA as 
it passed the Senate last year that promote a science-based approach to 
restoring the upper Mississippi River basin and emphasize a healthy 
ecosystem through effective and adaptive restoration and management. We 
ask you to retain these forward-looking provisions as you consider WRDA 
this year.
    The Missouri River Fish and Wildlife Recovery Program supports 
projects that mitigate for fish and wildlife habitat losses resulting 
from past channelization efforts on the Missouri River. The Missouri 
River has an array of aquatic and terrestrial systems containing more 
than 500 species of mussels, fish, amphibians, reptiles, birds and 
mammals, five of which are either listed or candidates for listing 
under the Endangered Species Act. The Corps has completed 30 projects 
along the river in the lower four states (Iowa, Kansas, Missouri and 
Nebraska) resulting in more than 40,000 acres of restored aquatic and 
floodplain habitat. The Missouri River Fish and Wildlife Recovery 
Program will not only enhance these restoration efforts, but complement 
protection and restoration efforts across the basin by the Bureau of 
Indian Affairs, Bureau of Land Management, Bureau of Reclamation, 
Department of Defense, U.S. Forest Service, U.S. Fish and Wildlife 
Service, National Park Service and the Natural Resources Conservation 
Service.
    The Conservancy is in agreement with the Basin states Governors 
that program funding should be used basin-wide, including funding for 
the Yellowstone River Intake project in Montana. The Conservancy also 
supports the establishment of the Missouri River Recovery 
Implementation Committee to oversee and coordinate restoration efforts. 
We commend the Committee for including these provisions in last year's 
Senate-passed WRDA and request that they be retained as you consider 
WRDA this year. The Conservancy also supports $85.0 million in FY 2008 
for the Missouri River Fish and Wildlife Recovery Program.
    The South Florida Everglades Ecosystem Restoration Program includes 
a collection of restoration authorities that function together to 
restore one of our nation's most precious natural resources. The 
Everglades are home to a profusion of bird species, with 347 species 
recorded within Everglades National Park alone. The ecosystem provides 
breeding habitat for roseate spoonbills, snail kite, southern bald 
eagle, Cape sable seaside sparrow, wood stork, white ibis, glossy ibis 
and eleven species of egrets and herons. For the last 60 years, the 
Corps has built projects for human benefit that shunted water away from 
the Everglades. Many factors, including these flood control projects 
and agricultural and urban development, have contributed to the 
reduction and degradation of the wetlands ecosystem. Restoration of 
this globally significant region is a priority for the Conservancy. The 
Conservancy continues to support robust funding for these efforts and 
recommends $249.1 million in the South Florida Everglades Ecosystem 
Restoration Program in FY 2008. This funding will support the following 
suite of restoration programs:
    <bullet> Modified Water Deliveries to Everglades National Park ($35 
million): This project balances fresh water crossing Tamiami Trail and 
entering the park. Completing this project is a pressing concern to 
restore habitat and stave off the danger of an estuarine collapse in 
Florida Bay.
    <bullet> Critical Projects Construction ($8.3 million): This 
special program is made up of nine projects that are critical to the 
future of the entire ecosystem's restoration
    <bullet> Kissimmee River Restoration Construction ($50 million): 
This project involves restoring water-level fluctuations and seasonal 
discharges from Lakes Kissimmee, Cypress and Hatchineha in the upper 
basin. This project features 22 miles of canal backfilling and 
structure removal along with land acquisition of over 100,000 acres.
    <bullet> Comprehensive Everglades Restoration Plan (CERP) Project 
Construction ($35 million): Components of this plan include aquifer 
storage and recovery; construction of surface water storage reservoirs; 
construction of storm water treatment areas; seepage management; 
removal of 240 miles of barriers to sheet flow; and reuse of wastewater 
at two regional plants.
    <bullet> Central and Southern Florida Project to include the C-111, 
CERP, and STA 1 East projects ($120.8 million): This program includes 
the Upper St. Johns, Manatee Protection, C-51 and STA-1E, C-111, Miami 
Canal Study and 10 initial projects of the CERP. Recent progress 
includes initial construction of manatee pass gates, with all gates 
expected to be completed this year; completed construction on the C-51 
and transfer of operations to the South Florida Water Management 
District; and continuing design for the next phase of buffer 
construction for the C-111 project.
    The Puget Sound and Adjacent Waters Program provides funding for 
early action projects to preserve, protect and restore critical 
ecosystem processes, habitats, and functions within the Puget Sound 
basin. A Puget Sound Nearshore Marine Habitat Restoration General 
Investigation study is also underway to examine the needs of the Puget 
Sound Basin and determine how large-scale management measures, 
including restoration actions, can benefit the environment. These two 
efforts are closely coordinated, as the Nearshore study is informing 
the selection of critical projects for implementation through the 
Adjacent Waters Program.
    Initial assessments of nearshore habitat by the Puget Sound Ambient 
Monitoring Program indicate that the ecological health of the nearshore 
ecosystem is in steep decline with more than a third of the system 
directly impacted by development. This situation is much worse near 
urban centers and large river deltas, where habitat loss approaches 100 
percent. The Puget Sound Basin is home to more than 220 species of 
fish, 26 different kinds of marine mammals, 150 species of birds and 
thousands of species of invertebrates. This includes federally-listed 
Southern resident orcas, Puget Sound chinook and Hood Canal summer chum 
salmon, bull trout, Stellar sea lion, marbled murrelet, bald eagle, and 
more than 100 other species of rare plants and animals.
    Resources for conservation in this region are limited, urban areas 
are expanding, and an extraordinary heritage of native species and 
ecosystems is at risk. The Puget Sound restoration efforts are designed 
to provide an ecosystem approach to the ongoing Endangered Species Act 
and other species-specific restoration and recovery initiatives with 
the goal of achieving a healthy and sustainable Puget Sound basin. The 
Conservancy supports continued funding for these important restoration 
efforts and recommends $5 million in FY 2008 for the Puget Sound and 
Adjacent Waters Program as well as $1.9 million in FY 2008 for the 
Puget Sound Nearshore Marine Habitat Restoration General Investigation 
Study.
    The Louisiana Coastal Area study (LCA) represents a committed 
effort to establish highly productive, cost-effective, and long-term 
coastal restoration projects that are essential to saving Louisiana's 
coastal wetlands. The Louisiana coastal plain remains the largest 
expanse of coastal wetlands in the contiguous United States. The 
coastal wetlands, built by the deltaic processes of the Mississippi 
River, contain an extraordinary diversity of habitats that range from 
forested swamps to freshwater, brackish, and saltwater marshes. These 
habitats comprise one of the nation's most productive and important 
natural resources. Coastal Louisiana produces 20 percent of the seafood 
in the United States and includes deep-draft ports that handle 16 
percent of the Nation's waterborne commerce by tonnage. Coastal 
wetlands also provide critical stopover habitat for neotropical 
songbirds on their migration between North and Central America.
    Cosatal Louisiana is home to over 2 million people, representing 46 
percent of the State's population. In addition to providing vital 
habitat to commercial and recreational wildlife and fishery resources, 
the coastal wetlands protect an internationally significant commercial-
industrial area from the destructive forces of coastal storms. The need 
for the storm mitigating capacity of healthy coastal wetlands was 
highlighted by the devastation of the 2005 hurricanes that struck the 
Louisiana coast.
    The Nature Conservancy strongly supports authorization and funding 
of a large-scale program for restoration of this nationally important 
resource. We applaud the committee for including provisions in WRDA as 
it passed the Senate last year that promote a science-based program to 
support the restoration and recovery of Louisiana's coastal wetlands. 
We ask you to retain these forward-looking provisions as you consider 
WRDA this year, and we call for continued commitment to funding for 
restoration of the Louisiana coast.In conclusion, our experience 
suggests that ecosystem restoration should be one of our Nation's top 
water resource priorities. The Corps and its partners are developing 
remarkable projects that achieve significant economic and environmental 
gains and are highly responsive to local interests. Congress should 
support that innovative work by passing WRDA and making ecosystem 
restoration a funding priority.
    I would like to thank the Chairman and the entire subcommittee for 
the opportunity to share this testimony with you today.
    [The referenced documents follow on page 143.]
    Senator Baucus. Thank you, Jamie.
    We have spoken often about some of the projects in our 
State. I am very impressed with the cooperative efforts of lots 
of different people, whether it is the Blackfoot Challenge, or 
all the various different projects in the State. It is my 
experience, frankly, that they have been successful basically 
because of the hard work of a lot of people, and also 
individuals spending a lot of time listening to another 
person's point of view, whether it is a landowner, or whether 
is somebody at Trout Unlimited, or whatever it is, just to get 
the thing put together in a way that everyone can work with and 
appreciate and champion, and be very proud of.
    For the benefit of this committee, could you tell us what 
tends to work and what doesn't work? I know dollars are 
important, but just anything based upon your experience that 
this committee can benefit from as you in the Conservancy try 
to protect wildlife and recreational needs.
    Mr. Williams. Mr. Chairman, I think probably the most 
important thing you mentioned there was listening. That is a 
hard trait for many folks. You know, there are amazing people 
in each of these landscapes we work that have really terrific 
ideas about how to achieve conservation.
    And so, I would say collaborating with all the stakeholders 
and understanding what their interests are and where they are 
coming from, and collaborating on creative solutions that meets 
multiple interests. That has really been the key to 
conservation successes in Montana, and certainly the key to the 
success of this project.
    The Intake project is a win-win for everybody and it meets 
all of their needs, 450 farming families, conservation 
interests, as well as avoiding a major regulatory train wreck, 
because we got proactive early and found a creative solution. 
Of course, at the end of the day, funding is very important.
    Senator Baucus. Right. Thank you very much. I commend you 
for what you are doing, you and all your colleagues. It is very 
impressive, the success that you are reaching, at least in 
Montana.
    Mr. Williams. Thank you.
    Senator Baucus. Senator Whitehouse?
    Senator Whitehouse. Thank you, Mr. Chairman. I want to 
particularly thank the Chairman for his courtesy in having me 
join his subcommittee, of which I am not an ordinary member, 
but I didn't want Ms. Pogue to be the only member of the panel 
who did not have their home State Senator present. So I felt it 
was advisable to stop by, and I want to commend her here for 
her strong leadership on so many environmental issues in Rhode 
Island.
    Senator Baucus. That is a good thing to do.
    Senator Whitehouse. I did want to mention one piece of her 
testimony, where she says in the early years, levees may have 
been built to contain the probable maximum flood, the 500- or 
200-year flood, et cetera. In the past two decades, most levees 
have been dumbed down to only contain the 1 percent chance 
flood, the 100-year flood.
    I wanted to ask to what extent we need to be looking at 
revising those 100-year flood level estimates, some of which 
may have been developed 10 or 15 years ago. In the wake of new 
information, we are finding out about climate change driven by 
global warming and its effect on the severity of anticipated 
storms.
    Ms. Pogue. Yes, thank you, Senator Whitehouse. There are a 
couple of points to be made with that, and that is that one of 
the things that needs to be looked at, and I am sure we will 
find as we progress I hope through the levee inventory, is that 
oftentimes levees were built perhaps with that 100-year 
standard in agricultural or open areas way back then.
    What has happened, and we have seen it in our own State 
with dams, the 587 that we have, is that once that levee fills, 
and it might have initially been intended for agricultural 
purposes, but lo and behold you have urban sprawl and you have 
development and you have residential areas all of a sudden on 
the other side of the levee, so that 100-year standard may not 
be adequate.
    The other point we try to make in our testimony is that 
what is the most adequate standard, and that is trying to make 
a point for, for example, critical facilities are an example of 
something that should perhaps be built to a 500-year standard, 
or a higher standard than a 100-year standard.
    So I think that when we look at levees, and obviously we 
are not advocating that levees be built. There are other 
floodplain management solutions out there, but that in the 
event of improving levees or building levees, you need to 
really look at a more comprehensive approach, as opposed to 
project-directed, and that is, what is going to be on the other 
side of that levee? What type of land are you trying to 
protect?
    We strongly advocate on behalf of the Association in the 
event there is no development around, there should be no levee 
built.
    Senator Whitehouse. Thank you, Mr. Chairman.
    Senator Baucus. Thank you, all of you. Maybe we can get 
WRDA enacted this year. That would just be wonderful, and also 
an updated WRDA, too, and not just an old WRDA, but an updated 
WRDA.
    Thank you very much. I appreciate all the time you have 
taken.
    One final point, Senators will want to ask questions, and 
they will be submitted for all of you to answer. I would urge 
you to respond on a very timely basis. I think we have 3 days 
for Senators to submit questions to you, and again, if you 
could get them back on a very timely basis, that would be very 
helpful.
    Thank you very much.
    The hearing is adjourned.
    [Whereupon, at 12:10 p.m., the subcommittee was adjourned, 
to reconvene at the call of the Chair.]
    [Additional statements submitted for the record follow:]
    Statement of Benjamin L. Cardin, U.S. Senator from the State of 
                                Maryland
    Mister Chairman:
    Thank you for holding this hearing today.
    I represent a state which relies heavily upon the Army Corps of 
Engineers' water resource programs.
    Maryland has 31 miles of Atlantic Ocean coastline, which are the 
site of two critical Corps projects--a hurricane protection project at 
our premier beach resort community, Ocean City, and a mitigation 
project at Assateague Island National Seashore.
    The Chesapeake Bay is America's largest estuary. The Corps' oyster 
and habitat restoration, shoreline protection, and sediment management 
programs are integral to our efforts to restore the Bay.
    We have a geography and topography which makes the Chesapeake Bay 
particularly susceptible to erosion. This erosion contributes millions 
of cubic yards of sediment annually to the bay, adversely affecting 
water quality and clogging navigation channels.
    The Port of Baltimore is one of the largest ports on the east coast 
and a vital engine of economic activity, contributing $2 billion to the 
State's economy and employing 18,000 Marylander's directly and tens of 
thousands more indirectly.
    There are 126 miles of shipping channels leading to the Port of 
Baltimore. Maryland also has more than 70 small navigation projects 
around the Chesapeake Bay and Atlantic Ocean. These navigation projects 
are critical to commercial and recreational fisherman, to local and 
regional commerce and to local economies.
    We rely heavily on the U.S. Army Corps of Engineers for flood 
protection in communities in Western Maryland and for water supply.
    In short, the Corps of Engineers has projects and provides 
assistance to virtually every jurisdiction in the State of Maryland.
    This partnership would not exist but for the authorities and 
funding provided in previous Water Resources Development Acts.
    Our efforts in Maryland focus on four principal areas:
    maintaining the navigational channels serving the Port of Baltimore 
and numerous communities in our state, and finding responsible and 
environmentally sound solutions for disposing of the dredged material 
from these channels,
    restoring the Chesapeake Bay and the rivers and streams which flow 
into the Bay,
    addressing the shoreline erosion problems on Maryland's Atlantic 
Coast, and
    mitigating for previous construction of civil works such as the 
rewatering of the C&O Canal in Cumberland.
    Because of the cuts in the President's budget for the Army Corps of 
Engineer's civil works program in recent years and the failure to reach 
an agreement on the reauthorization of WRDA, many of these priorities 
are at risk.
    The President's budget for fiscal 2008 once again cuts essential 
Corps' programs and projects. It terminates federal support for the 
Chesapeake Bay's oyster restoration project and environmental 
protection programs; it zeroes out the periodic re-nourishment required 
for the hurricane protection project at Ocean city; it provides no 
continued funding for the flood mitigation project at Cumberland; and 
it significantly reduces funding for many small navigation projects.
    We need a WRDA and a budget that will help move forward on all 
these fronts and address critical water resource infrastructure needs 
in Maryland.
[GRAPHIC] [TIFF OMITTED] T5921.001

[GRAPHIC] [TIFF OMITTED] T5921.002

[GRAPHIC] [TIFF OMITTED] T5921.003

[GRAPHIC] [TIFF OMITTED] T5921.004

[GRAPHIC] [TIFF OMITTED] T5921.005

[GRAPHIC] [TIFF OMITTED] T5921.006

[GRAPHIC] [TIFF OMITTED] T5921.007

[GRAPHIC] [TIFF OMITTED] T5921.008

[GRAPHIC] [TIFF OMITTED] T5921.009

[GRAPHIC] [TIFF OMITTED] T5921.010

[GRAPHIC] [TIFF OMITTED] T5921.011

[GRAPHIC] [TIFF OMITTED] T5921.012

[GRAPHIC] [TIFF OMITTED] T5921.013

[GRAPHIC] [TIFF OMITTED] T5921.014

[GRAPHIC] [TIFF OMITTED] T5921.015

[GRAPHIC] [TIFF OMITTED] T5921.016

[GRAPHIC] [TIFF OMITTED] T5921.017

[GRAPHIC] [TIFF OMITTED] T5921.018

[GRAPHIC] [TIFF OMITTED] T5921.019

[GRAPHIC] [TIFF OMITTED] T5921.020

[GRAPHIC] [TIFF OMITTED] T5921.021

[GRAPHIC] [TIFF OMITTED] T5921.022

[GRAPHIC] [TIFF OMITTED] T5921.023

[GRAPHIC] [TIFF OMITTED] T5921.024

[GRAPHIC] [TIFF OMITTED] T5921.025

[GRAPHIC] [TIFF OMITTED] T5921.026

[GRAPHIC] [TIFF OMITTED] T5921.027

[GRAPHIC] [TIFF OMITTED] T5921.028

[GRAPHIC] [TIFF OMITTED] T5921.029

[GRAPHIC] [TIFF OMITTED] T5921.030

[GRAPHIC] [TIFF OMITTED] T5921.031

[GRAPHIC] [TIFF OMITTED] T5921.032

[GRAPHIC] [TIFF OMITTED] T5921.037

[GRAPHIC] [TIFF OMITTED] T5921.038

[GRAPHIC] [TIFF OMITTED] T5921.039

[GRAPHIC] [TIFF OMITTED] T5921.040

[GRAPHIC] [TIFF OMITTED] T5921.041

[GRAPHIC] [TIFF OMITTED] T5921.042

[GRAPHIC] [TIFF OMITTED] T5921.043

[GRAPHIC] [TIFF OMITTED] T5921.044

[GRAPHIC] [TIFF OMITTED] T5921.045

[GRAPHIC] [TIFF OMITTED] T5921.046

[GRAPHIC] [TIFF OMITTED] T5921.047

[GRAPHIC] [TIFF OMITTED] T5921.048

[GRAPHIC] [TIFF OMITTED] T5921.049

[GRAPHIC] [TIFF OMITTED] T5921.050

[GRAPHIC] [TIFF OMITTED] T5921.051

[GRAPHIC] [TIFF OMITTED] T5921.052

[GRAPHIC] [TIFF OMITTED] T5921.053

[GRAPHIC] [TIFF OMITTED] T5921.054

[GRAPHIC] [TIFF OMITTED] T5921.055

[GRAPHIC] [TIFF OMITTED] T5921.056

[GRAPHIC] [TIFF OMITTED] T5921.057

[GRAPHIC] [TIFF OMITTED] T5921.058

[GRAPHIC] [TIFF OMITTED] T5921.059

[GRAPHIC] [TIFF OMITTED] T5921.060

[GRAPHIC] [TIFF OMITTED] T5921.061

[GRAPHIC] [TIFF OMITTED] T5921.062

[GRAPHIC] [TIFF OMITTED] T5921.063

[GRAPHIC] [TIFF OMITTED] T5921.064

[GRAPHIC] [TIFF OMITTED] T5921.065

[GRAPHIC] [TIFF OMITTED] T5921.072

[GRAPHIC] [TIFF OMITTED] T5921.073

[GRAPHIC] [TIFF OMITTED] T5921.070

[GRAPHIC] [TIFF OMITTED] T5921.071

[GRAPHIC] [TIFF OMITTED] T5921.066

[GRAPHIC] [TIFF OMITTED] T5921.067

[GRAPHIC] [TIFF OMITTED] T5921.068

[GRAPHIC] [TIFF OMITTED] T5921.069

  

                                  <all>
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
